<html>
<title> - DEPARTMENT OF HOMELAND SECURITY REAUTHORIZATION AND THE PRESIDENT'S FISCAL YEAR 2018 BUDGET REQUEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  DEPARTMENT OF HOMELAND SECURITY REAUTHORIZATION AND THE PRESIDENT'S 
                    FISCAL YEAR 2018 BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2017

                               __________

                           Serial No. 115-18

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
27-611 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcdbccd3fcdfc9cfc8d4d9d0cc92dfd3d192">[email&#160;protected]</a>                              
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn, Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                WITNESS

Hon. John F. Kelly, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10

                             FOR THE RECORD

The Honorable Nanette Diaz Barragan, a Representative in Congress 
  From the State of California:
  Letter From the American Association of Port Authorities.......    54
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Statement of Anthony M. Reardon, National President, National 
    Treasury Employees Union.....................................    64

                                APPENDIX

Questions From Honorable Daniel M. Donovan for Secretary John F. 
  Kelly..........................................................    67
Questions From Ranking Member Bennie G. Thompson for Secretary 
  John F. Kelly..................................................    68
Questions From Honorable James R. Langevin for Secretary John F. 
  Kelly..........................................................    73
Questions From Honorable William R. Keating for Secretary John F. 
  Kelly..........................................................    76

 
  DEPARTMENT OF HOMELAND SECURITY REAUTHORIZATION AND THE PRESIDENT'S 
                    FISCAL YEAR 2018 BUDGET REQUEST

                              ----------                              


                        Wednesday, June 7, 2017

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Michael T. McCaul 
(Chairman of the committee) presiding.
    Present: Representatives McCaul, King, Rogers, Barletta, 
Perry, Katko, Hurd, McSally, Ratcliffe, Donovan, Gallagher, 
Higgins, Rutherford, Garrett, Fitzpatrick, Thompson, Jackson 
Lee, Langevin, Keating, Payne, Vela, Watson Coleman, Rice, 
Correa, Demings, and Barragan.
    Also present: Representative Bergman.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to examine the 
President's fiscal year 2018 budget request for the Department 
of Homeland Security and reauthorization of the Department. I 
now recognize myself for an opening statement.
    On a sunny Tuesday morning, in September 2001, the American 
people woke up and started their day as if it were any other. 
However, after receiving frantic phone calls from loved ones 
and after gathering around the nearest TV, people all across 
the country quickly learned that America was under attack.
    By the end of the day, the Twin Towers were knocked down, 
the Pentagon was on fire, and almost 3,000 innocent people were 
dead.
    This was not just an attack on the United States, but an 
attack on the civilized world, and our homeland was the 
battlefield. In the aftermath, we asked ourselves how do we 
prevent this kind of attack from ever happening again?
    Our National leaders made many important decisions in 
response to the 9/11 attacks and one was to create the 
Department of Homeland Security.
    While we are on stronger footing today, we must never 
forget that our enemies are always trying to bring war back to 
our Nation's doorsteps. Islamist terrorism continues to spread 
around the world.
    The horrifying attacks in Manchester and London are the 
latest examples of hateful ideology looking to strike innocent 
people when they least expect it. Just yesterday we learned, 
outside of Notre Dame Cathedral in Paris was another attack and 
also in Melbourne, Australia.
    Drug smugglers and human traffickers also are exploiting 
our porous borders and nation-states and others are turning 
digital breakthroughs into digital bombs.
    There are many steps we need to take to stay ahead of our 
enemies. They include reforming and improving the Department of 
Homeland Security through a first-ever reauthorization bill and 
making sure that it has a budget with the necessary funds and 
resources to keep us safe.
    Agencies like the DOD are reauthorized every year with 
structural policy and program direction from Congress. However, 
DHS does not have the many advantages of routine Congressional 
direction.
    This reauthorization will: No. 1, assert Congress' Article 
One authority to write laws and give direction to the 
Department; No. 2, create efficiencies, eliminate, consolidate, 
and streamline programs and offices; No. 3, protect taxpayer 
dollars and hold DHS more accountable; and, No. 4, support 
America's front-line defenders and first responders.
    Secretary Kelly, I know your commitment to this process is 
strong, and I look forward to continuing to work with you on 
this as we go to the mark-up on the floor. I would also like to 
thank you for the note in your testimony today about the 
importance of this endeavor and how it will help authorize and 
carry out your mission.
    A stronger DHS is our goal and the American people deserve 
no less. Mr. Secretary, as you know, there is a lot of support 
in Congress for this reauthorization.
    At the beginning of the year, chairmen of eight different 
committees of the House came together and signed a memorandum 
of understanding in support of this effort under the Speaker's 
signature and progress is being made daily.
    We must also make sure the Department is adequately funded 
and equipped with the tools it needs to carry out its missions. 
That is why I was pleased to see the President demonstrate his 
commitment to the safety of our homeland in the 2018 budget 
proposal.
    It was very reassuring to see that he is keeping his 
steadfast promise to secure our borders, to make cybersecurity 
a top priority and support other key security efforts.
    Later today, the House will consider legislation sponsored 
by my colleague and Chairwoman of the Subcommittee on Border 
Maritime Security, Ms. McSally, that will make it easier to 
recruit new agents and officers to safeguard our homelands. 
This bill further demonstrates our committee's focus on 
securing the border.
    I was also encouraged by $127 million increase for 
cybersecurity operations at the National Protection and 
Programs Directorate. Your commitment serves to elevate the 
cybersecurity mission at DHS will further enhance cyber 
operations and more effectively secure Federal networks.
    From nation-state hacking to brand-name's breaches, our 
cyber rivals are waging a silent war against us and our 
defenses. This crisis extends from kitchen tables to corporate 
board rooms, but I believe this budget proposal will help 
provide the tools to better combat these growing cyber risks.
    While I am in support of much of the President's budget 
request, I would be remiss if I didn't express some concern to 
the cuts to grants and training programs that are vital to our 
first responders.
    As I mentioned earlier, we will address first responder 
programs in our authorization bill, and I look forward to 
working with my colleagues to support those who work tirelessly 
to secure our communities.
    Mr. Secretary, I would like to thank you again for joining 
us here today and for keeping the American people protected. It 
is something that really unites each and every one of us. We 
stand ready to work with you and your team to keep this country 
safe, and as for me, let me just say, we have your back.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              June 7, 2017
    On a sunny Tuesday morning in September 2001, the American people 
woke up and started their day as if it were any other. However, after 
receiving frantic phone calls from loved ones and after gathering 
around the nearest TV, people all across the country quickly learned 
that America was under attack.
    By the end of the day the Twin Towers were knocked down, the 
Pentagon was on fire, and almost 3,000 innocent people were dead. This 
was not just an attack on the United States but an attack on the 
civilized world, and our homeland was the battlefield.
    In the aftermath we asked ourselves, ``How do we prevent this kind 
of attack from ever happening again?''
    Our National leaders made many important decisions in response to 
the 9/11 attacks and one was to create the Department of Homeland 
Security.
    While we are on stronger footing today, we must never forget that 
our enemies are always trying to bring war back to our Nation's 
doorsteps.
    Islamist terrorism continues to spread around the world. The 
horrifying attacks in Manchester and London are the latest examples of 
a hateful ideology looking to strike innocent people when they least 
expect it. Just yesterday we learned of attacks outside of the Notre-
Dame Cathedral in Paris and also in Melbourne, Australia.
    Drug smugglers and human traffickers are exploiting our porous 
borders and nation-states and others are turning digital breakthroughs 
into digital bombs.
    There are many steps we need to take to stay ahead of our enemies. 
They include reforming and improving the Department of Homeland 
Security through a first-ever reauthorization and making sure it has a 
budget with the necessary funds and resources to keep us safe.
    Agencies like the DOD are reauthorized every year with structural, 
policy, and program direction from Congress. However, DHS does not have 
the many advantages of routine Congressional direction.
    This reauthorization will:
    1. Assert Congress's Article 1 authority to write laws and give 
direction to the Department;
    2. Create efficiencies, eliminate, consolidate, and streamline 
programs and offices;
    3. Protect taxpayer dollars and hold DHS more accountable; and
    4. Support America's front-line defenders and first responders.
    Secretary Kelly, I know your commitment to this process is strong 
and I look forward to continuing to work with you on this as we go to 
mark-up and the floor. I'd also like to thank you for the note in your 
testimony today about the importance of this endeavor and how it will 
help authorities carry out their mission.
    A stronger DHS is our goal and the American people deserve no less.
    Mr. Secretary, as you know there is a lot of support in Congress 
for this reauthorization. At the beginning of the year, Chairmen of 
eight different committees in the House came together and signed a 
Memorandum of Understanding (MOU) in support of this effort under the 
Speaker's signature and progress is being made daily.
    We must also make sure the Department is adequately funded and 
equipped with the tools it needs to carry out its missions.
    That is why I was glad to see President Trump demonstrate his 
commitment to the safety of our homeland in the 2018 budget proposal. 
It was very reassuring to see that he is keeping his steadfast promise 
to secure our borders, to make cybersecurity a top priority, and 
support other key security efforts.
    Later today, the House will consider legislation sponsored by my 
colleague and Chairwoman of the Subcommittee on Border and Maritime 
Security, Congresswoman McSally, that will make it easier to recruit 
new agents and officers to safeguard our homeland. This bill further 
demonstrates our committee's focus on securing our border.
    I was also encouraged by a $127 million increase for cybersecurity 
operations at the National Protection and Programs Directorate (NPPD). 
Your commitment to elevate the cybersecurity mission at DHS will 
further enhance cyber operations and more effectively secure Federal 
networks. From nation-state hacking to brand-name breaches, our cyber 
rivals are waging a silent war against us and our defenses. This crisis 
extends from kitchen tables to corporate board rooms but I believe this 
budget proposal will help provide the tools to better combat growing 
cyber risks.
    While I am supportive of much of the President's budget request for 
DHS, I would be remiss if I didn't express my concern about the cuts to 
grants and training programs that are vital to first responders. As I 
mentioned earlier, we will address first responder programs in our 
authorization bill and I look forward to working with my colleagues to 
support those who work tirelessly to secure our communities.
    Mr. Secretary, I'd like to thank you again for joining us today. 
Keeping the American people protected is something that unites each and 
every one of us.
    We stand ready to work with you and your team to keep this country 
safe and we have your back. Thank you.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Let me welcome you, Secretary Kelly, to this hearing. But 
first, let me begin by expressing my condolences to those who 
lost loved ones in the terrorist attack in London last week and 
offer my thoughts and prayers to all those injured.
    I join my colleagues in condemning this horrible violence 
and offering steadfast support to our friend and ally, Great 
Britain. We remain committed to securing our homeland from such 
attacks while upholding the values that truly make America 
great.
    Appallingly, in the immediate aftermath of the attack, 
President Trump used a tragic event as an opportunity to take 
to Twitter to rant about what he has again admitted, and even 
boasted, is a travel ban. Only afterward did he express support 
for the people and government of the United Kingdom.
    The President later took to Twitter again, this time to 
criticize his own Justice Department and a revised travel ban 
he himself signed after the courts found his initial travel ban 
unconstitutional.
    If the courts were unsure about the administration's intent 
with the misguided, un-American, unconstitutional travel bans, 
the President has removed any doubt--quite literally--by his 
own hands.
    Unfortunately, this behavior does nothing to address the 
very real security challenges we face at this critical juncture 
in our Nation's history.
    Meaningful homeland security policy is not issued in 140-
character outbursts. I wish I were more hopeful about the 
President's ability to lead us in this challenge, but his 
recent Homeland Security budget request to Congress certainly 
does not inspire any confidence.
    Today, our Secretary of Homeland Security John Kelly is 
before this committee in support of that budget and the Trump 
administration's priorities for the Department of Homeland 
Security. While we are glad to have the Secretary before us, I 
do not envy the job he has this morning.
    The fiscal year budget he has been sent here to defend is, 
quite simply, indefensible, especially, in light of recent 
events. Again, the proposal reflects President Trump's 
fundamental misunderstanding of the Federal Government's role 
in National security and his misguided priority for protecting 
the homeland.
    The world just witnessed brave first responders coming to 
the aid of the injured in London and Manchester, yet in his 
budget request, President Trump wants to gut grant programs 
that police, firefighters, and other emergency responders 
across America rely on to help prevent and respond to such 
attacks.
    Specifically, the Trump budget cut $667 million from grant 
programs to State and local agencies, including pre-disaster 
mitigation grants and counterterrorism funding.
    While I was home over the weekend, I met with first 
responders and a lot of them said if that happens, I am not 
certain that we will be able to keep our State and counties and 
cities safe because that, in essence, is an unfunded mandate.
    That also includes slashing the State Homeland Security 
Grant Program and the Urban Areas Security Initiative by 25 
percent. Every Member of Congress, Democrat and Republican, 
represents communities that would suffer under these cuts.
    President Trump's first budget proposal claims to put us on 
a path to American greatness, but the only message it sends to 
our Nation's first responders is you are on your own.
    Americans can be assured that Democrats will be fighting in 
the weeks and months ahead to restore funding for these vital 
preparedness and response programs. I hope my Republican 
colleagues will stand united with us in the interest of our 
first responders and all Americans.
    Similarly, at a time when the threats to the homeland are 
evolving at a rapid pace, President Trump wants to cut the 
research and development programs that aim to deliver the next 
generation technologies we need to stay safe.
    His budget slashes the Department's Science and Technology 
Directorate by $144 million, devastating DHS research and 
development programs and halting progress on tomorrow's 
cybersecurity technologies.
    Given the cybersecurity threats we face from adversaries 
around the world, including Russia, China, and others, the 
administration should be redoubling its cyber investment, not 
gutting them.
    Why does President Trump's budget proposal make cuts to 
these essential homeland security programs to help pay for 
programs that score political points with his base, but will do 
little or nothing to address the real security challenges 
facing our Nation?
    Building a boondoggle border wall that will cost billions 
and strip land from private property owners, but do little to 
better secure our Southern Border. Just today, we now hear 
comments from the White House saying that their wall will now 
be 50 feet high, so it remains to be seen what happens when 
that occurs.
    Hiring a massive deportation force to tear families apart 
and take DREAMers and other members of our communities from 
their homes while ignoring desperately-needed staffing for our 
Nation's ports of entry, lining the pockets of private prison 
industry with an additional $1.2 billion in taxpayers' money to 
expand immigration detention capacity to its largest size in 
history.
    We cannot afford to squander taxpayers' dollars on programs 
that fail to address the varied and sophisticated homeland 
security threats facing our country. We cannot allow political 
expediency to trump investing in initiatives that are essential 
to protecting the homeland. The American people deserve better 
and Congress must do better.
    As the budget process moves forward, I look forward to 
working with my colleagues to provide the Department of 
Homeland Security with the budget it needs to do the job of 
securing our Nation.
    Thank you, and I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              June 7, 2017
    I want to begin by expressing my condolences to those who lost 
loved ones in the terrorist attack in London last week and offer my 
thoughts and prayers to all those injured. I join my colleagues in 
condemning this horrible violence and offering steadfast support to our 
friend and ally Great Britain. We remain committed to securing our 
homeland from such attacks while upholding the values that truly make 
America great.
    Appallingly, in the immediate aftermath of the attack, President 
Trump used the tragic event as opportunity to take to Twitter to rant 
about what he has again admitted, and even boasted, is a ``travel 
ban.'' Only afterward did he express support for the people and 
government of the United Kingdom. The President later took to Twitter 
again, this time to criticize his own Justice Department and the 
revised travel ban he, himself, signed after the courts found his 
initial travel ban unconstitutional.
    If the courts were unsure about the administration's intent with 
these misguided, un-American, unconstitutional travel bans, the 
President has removed any doubt quite literally by his own hand. 
Unfortunately, this behavior does nothing to address the very real 
security challenges we face at this critical juncture in our Nation's 
history. Meaningful homeland security policy is not issued in 140-
character outbursts.
    I wish I were more hopeful about President's ability to lead us 
through these challenges, but his recent homeland security budget 
request to Congress certainly does not inspire any confidence. Today, 
Secretary of Homeland Security John Kelly is before this committee in 
support of that budget and the Trump administration's priorities for 
the Department of Homeland Security. While we are glad to have the 
Secretary before us, I do not envy the job he has this morning.
    The fiscal year budget he has been sent here to defend is, quite 
simply, indefensible, especially in light of recent events. Again, the 
proposal reflects President Trump's fundamental misunderstanding of the 
Federal Government's role in National security and his misguided 
priorities for protecting the homeland. The world just witnessed brave 
first responders coming to the aid of the injured in London and 
Manchester.
    Yet in his budget request, President Trump wants to gut grant 
programs that police, firefighters, and other emergency responders 
across America rely on to help prevent and respond to such attacks.
    Specifically, the Trump budget cuts over $700 million from grant 
programs to State and local agencies, including pre-disaster mitigation 
grants and counterterrorism funding. That includes slashing the State 
Homeland Security Grant Program and the Urban Area Security Initiative 
by 25 percent. Every Member of Congress--Democrat and Republican--
represents communities that would suffer under these cuts. President 
Trump's first budget proposal claims to put us on a path to American 
greatness, but the only message it sends to our Nation's first 
responders is: ``You're on your own.''
    Americans can be assured that Democrats will be fighting in the 
weeks and months ahead to restore funding for these vital preparedness 
and response programs. I hope Republicans will stand united with us in 
the interest of our first responders and all Americans.
    Similarly, at a time when the threats to the homeland are evolving 
at a rapid pace, President Trump wants to cut the research and 
development programs that aim to deliver the next-generation 
technologies we need to stay safe. His budget slashes the Department's 
Science and Technology Directorate by $144 million, devastating DHS 
research and development programs and halting progress on tomorrow's 
cybersecurity technologies. Given the cybersecurity threats we face 
from adversaries around the world, including Russia, China, and others, 
the administration should be redoubling its cyber investments, not 
gutting them.
    Why does President Trump's budget proposal make cuts to these 
essential homeland security programs? To help pay for programs that 
score political points with his base, but would do little or nothing to 
address the real security challenges facing our Nation:
  <bullet> Building a boondoggle border wall that will cost billions 
        and strip land from private property owners, but do little to 
        better secure our Southern Border.
  <bullet> Hiring a massive deportation force to tear families apart 
        and take DREAMers and other members of our communities from 
        their homes, while ignoring desperately-needed staffing for our 
        Nation's ports of entry.
  <bullet> Lining the pockets of the private prison industry with an 
        additional $1.2 billion in taxpayer money to expand immigration 
        detention capacity to its largest size in history.
    We cannot afford to squander taxpayer dollars on programs that fail 
to address the varied and sophisticated homeland security threats 
facing our country. We cannot allow political expediency to trump 
investing in the initiatives that are essential to protecting the 
homeland. The American people deserve better and Congress must demand 
better. As the budget process moves forward, I look forward to working 
with my colleagues to provide the Department of Homeland Security the 
budget it needs to do the job of securing our Nation.

    Chairman McCaul. Thank you, Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record. Today we are pleased to welcome the 
Honorable John F. Kelly.
    I want to thank you for being here, Mr. Secretary. The 
witness' full opening statement will appear in the record. The 
Chair now recognizes Secretary Kelly for his opening statement.

STATEMENT OF HON. JOHN F. KELLY, SECRETARY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Kelly. Chairman McCaul, Ranking Member Thompson, 
and distinguished Members of the committee, every day the men 
and women of the Department of Homeland Security protect 
Americans from the threats we face.
    So it is a great pleasure to appear before the committee 
today to talk to you about the tremendous professionals of the 
Department and the critical missions they carry out in service 
of America every day and night. That is 365 days a year.
    Every citizen of the Nation understands that Federal 
Government's fundamental responsibility begins and ends with 
the protection of the homeland and the security of our people. 
No other mission is as important, no other consideration more 
pressing.
    The President's fiscal year 2018 budget request for the 
Department of Homeland Security will make it possible for us to 
continue our current ability to protect our Nation and its 
people. However, the threats posed by nation-states, non-
nation-states, and transnational criminal organizations require 
us to think very differently about our role at the Department.
    We can no longer think in terms of defense somewhere out 
there. Rather, we must think in terms of the security of the 
homeland across the numerous domains of a potential attack.
    The Department of Homeland Security is making a difference 
in fighting the home game while the Department of Defense 
fights the away game. Working together, along with all other 
agencies of the Federal Government, America is made safer 
through this process.
    Because of the dedication and effective interagency 
interaction with the DNI, CIA and CTC, FBI, NSA, DEA, ATF and 
over a billion State, local, and Tribal law enforcement 
professionals, America today is more secure, better prepared, 
and more resilient in a way that most could not have fathomed 
the day before 9/11.
    But the plots to attack the Nation are numerous and the 
perpetrators are relentless. The threats have never been 
greater. As a result, we need a fully-funded annual budget that 
matches our mission. No more continuing resolutions, and I 
think this budget does that.
    When you are talking about the President's fiscal year 2018 
request for $44.1 billion in funding for DHS, it is easy to 
lose sight of what is behind each dollar. But when you get 
right down to it, behind each and every dollar are hard-working 
men and women who have dedicated their careers, and in many 
cases risked their lives, to protect the American people.
    Every dollar invested in the men and women of DHS is an 
investment in prosperity, freedom, and the rule of law. Above 
all it is the investment in the security of the American 
people. As far as I am concerned, recent events show that you 
cannot invest too much in security.
    The terrorist attacks on innocent civilians in Kabul, 
Cairo, South Asia, Manchester, London, and yesterday, Tehran, 
are all horrific reminders of the dangers we face globally. 
They show how sophisticated and capable the threat is and how 
they, the terrorists, think globally in organizing and 
executing their attacks.
    The widely-reported recent cyber attacks on our 
infrastructure and businesses, the potential plots against 
global aviation are further examples of the range of threats we 
now face.
    These varied threats also illustrate the need to do 
everything we can to keep our people safe. That means 
significantly improving the effectiveness of verifying 
identities, making sure people are who they say they are before 
they travel to our country, while at the same time working with 
our international partners to raise their awareness and raise 
their defenses and force them to do so if need be.
    Domestically, one of the most important enhancements is 
REAL ID, a requirement passed by the Congress 12 years ago, and 
which most of our States and territories have taken seriously 
and already adopted. Many others are still working hard to 
comply.
    In those 12 years since the law passed, some in elected or 
appointed State and Federal positions have chosen to drag their 
feet or even ignore this Federal law. I will not.
    REAL ID will make America safer. It already has. REAL ID 
will soon be enforced at our airports and land ports of entry 
and all Federal facilities.
    It is a critically important 9/11 Commission recommendation 
that others have been willing to ignore, but I will not. I will 
ensure it is implemented on schedule with no extension for 
States that are not taking it seriously.
    For those States and territories that cannot or will not 
make the January 2018 deadline, as I have been telling 
Governors and Members of Congress for months now, they should 
be honest and encourage their citizens to require other forms 
of REAL ID-compliant identification, like passports.
    Additionally, in all of this we need to prevent bad actors 
regardless of religion, race, or nationality from entering our 
country.
    In recent years, we have witnessed an unprecedented spike 
in terrorist travel. There are more terrorist hotspots and foot 
soldiers today than almost any other time in modern history.
    In Syria and Iraq, for instance, we have seen thousands of 
jihadist fighters converge to fight in the caliphate for more 
than 120 different countries. As our military and coalition 
partners take the fight to the enemy in Iraq and Syria, many 
jihadi fighters are returning home to recruit, plot, and 
conduct terrorist attacks.
    Already they have put many of our closest allies in their 
crosshairs, and they are targeting our homeland and our 
interests overseas through a combination of inspired, enabled, 
and directed attacks.
    With this in mind, the President has issued clear direction 
in the form of Executive Order to the entire Executive branch 
to improve our vetting and screening standards and to put a 
pause on the entry of aliens from six countries so we can 
enhance security throughout.
    These are countries mired in civil war whose governments 
sponsor terrorists or which have been overrun by extremists. 
They are the same terror hotspots Congress and the previous 
administration designated in 2015 and 2016 for additional 
travel scrutiny.
    At the time, the Obama administration and Congress believes 
we needed to focus additional attention on these nations and 
potentially others so that certain foreign nationals that 
visited them would receive an extra layer of screening.
    It has nothing to do with religion or skin color or the way 
they live their lives. It is about security for the American 
people--nothing else.
    While some are endlessly focused on which label to apply to 
a single portion of the President's E.O., the quarter of a 
million professional men and women I have the honor of leading, 
instead focus on the serious work on how best to secure this 
Nation.
    We know that fully implanting the E.O. would clearly and 
substantially increase our ability to secure the Nation from 
those who seek to do us harm.
    Since the President's E.O. was announced, we have seen a 
number of terrorist attacks in the West tied back to those 
countries of concern in some way, as well as clear signs that 
terrorist groups like ISIS continue to use refugee flows as a 
Trojan horse to deploy operatives to conduct attacks.
    Yet the injunctions currently tie our hands when it comes 
to guarding against threats from those locations or from 
deliberate attempts to infiltrate refugee flows.
    It is hard for me to imagine that in light of the current 
high danger levels that are indeed increasing, that any 
Government entity would prohibit DHS from reviewing the 
screening of individuals from certain terror hotspots and from 
putting in place better vetting in high-risk locations.
    I can tell you right now because of the court injunctions, 
for instance, I am not fully confident in our ability to 
prevent those who seek to do us harm from taking advantage of 
our generous immigration and visa system.
    Critics seem to only think about the temporary suspension 
of entry from those most problematic of countries. But let me 
provide a few examples of the kinds of things we cannot do 
because of these injunctions.
    We are prohibited from conducting a world-wide review to 
identify additional information we need from each country to 
better determine whether an immigration applicant from that 
country is a security or public safety threat.
    We are prohibited from going to any countries identified as 
lacking in this review and asking them to provide the necessary 
information to enhance our vetting and screening of their 
citizens.
    We are prohibited from reviewing the refugee admissions 
program to determine what additional procedures we should use 
to ensure that refugees or refugee applicants do not pose a 
threat to the security and welfare of the United States.
    Bottom line, I have been enjoined from doing things that I 
know would make America safer, and I anxiously await the courts 
to once again allow the Executive branch to do its 
Constitutional duty and protect Americans from all threats, 
foreign and domestic.
    The men and women of DHS will do everything we can and 
always, always within the law to keep the American people safe. 
This delay has prevented us from doing that. Those most 
familiar with the reality of the threats we face today, we 
believe, we need to do more to protect our homeland.
    I know the Members of this committee understand this 
mission, and I would like to particularly thank all of the 
Members of the committee for your continued work in drafting 
reauthorization language for the Department.
    The Department has not been authorized during its 
existence. I look forward to supporting the passage of 
legislation that provides us with the necessary authorities to 
successfully fulfill our primary task of keeping the American 
people safe in a more streamlined and unified manner.
    I appreciate the opportunity to appear before you today, 
and I thank you for your continued support of the men and women 
of the Department in the mission we all take so seriously. 
Thank you.
    I remain committed to working with the Congress always in 
protecting the American people, and I strive to answer any 
questions you may have.
    [The prepared statement of Secretary Kelly follows:]
                Prepared Statement of Hon. John F. Kelly
                              June 7, 2017
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee: It is a great honor and privilege to appear before 
you today to discuss the Department of Homeland Security's (DHS) 
crucial missions of protecting the homeland and securing our borders. 
Additionally, I would like to personally thank you for your continued 
efforts in attempting to reauthorize the Department. This is an 
important endeavor which will provide the Department with the 
authorities it needs to carry out its mission.
    The men and women of DHS are exceptional and dedicated 
professionals who work tirelessly in support of our mission to 
safeguard the American people, our homeland, and our values with honor 
and integrity. I am pleased to appear before you to present the 
President's fiscal year 2018 budget request for the Department of 
Homeland Security.
    The President's budget puts America first, and builds on DHS's 
accomplishments over the past 14 years. It makes critical investments 
in people, technology, and infrastructure for border security and the 
enforcement of our immigration laws. It advances cybersecurity 
programs, strengthens our biometric identification programs, promotes 
the expansion of E-Verify, and supports our new Victims of Immigration 
Crime Engagement (VOICE) Office. The budget also sustains the U.S. 
Coast Guard (USCG), our Nation's fifth service, to continue its 
important mission of ensuring maritime safety, security, and 
stewardship.
    DHS is committed to the rule of law. Our men and women take an oath 
to defend the Constitution of the United States and uphold the laws of 
this great country against all enemies--foreign and domestic--and we 
get it done. We face diverse challenges and adversaries that do not 
respect the rule of law, or our borders. Our Government must remain 
vigilant in detecting and preventing terrorist threats, including 
threats we face from ``lone offenders,'' who may be living in our 
communities and who are inspired by radical, violent ideology to do 
harm to Americans. I remain committed to tirelessly protect our country 
from threats, secure our borders, and enforce our laws--all while 
facilitating lawful trade and travel, and balancing the security of our 
Nation with the protection of privacy, civil rights, and civil 
liberties.
    The President's fiscal year 2018 budget requests $44.1 billion in 
net discretionary funding for the Department of Homeland Security. The 
President's budget also requests $7.4 billion to finance the cost of 
emergencies and major disasters in the Federal Emergency Management 
Agency's (FEMA's) Disaster Relief Fund.
    In order to ensure we are stretching every one of these dollars, we 
are striving to further improve information sharing, collaboration, and 
transparency, all of which are essential to leveraging the full value 
of every dollar DHS receives. We are expanding our cooperation with 
State, local, Tribal, territorial, and regional partner nations, 
particularly Canada and Mexico. These partnerships are critical to 
identifying, monitoring, and countering threats to U.S. National 
security and regional stability.
    I am also working to improve transparency and information sharing 
across the DHS enterprise to build efficiencies into our intelligence 
processes. An example of this is my on-going support of DHS's Joint 
Task Forces, which link the authorities and capabilities of multiple 
DHS components in a unified approach that addresses emerging and 
priority threats to our Nation. The magnitude, scope, and complexity of 
the challenges we face--including illegal immigration, transnational 
crime, human smuggling and trafficking, and terrorism--demand an 
integrated counter-network approach.
    Border security is a high priority, and involves protecting 7,000 
miles of land border, approximately 95,000 miles of shoreline, and 328 
ports of entry along with staffing numerous locations abroad. We 
appreciate the support Congress has provided to improve security at our 
borders and ports of entry. With that support, we have made great 
progress, but more work must be done.
    The President's budget requests $1.6 billion for 32 miles of new 
border wall construction, 28 miles of levee wall along the Rio Grande, 
where apprehensions are the highest along the Southwest Border, and 14 
miles of new border wall system that will replace existing secondary 
fence in the San Diego Sector, where a border wall system will deny 
access to drug-trafficking organizations. The budget also requests $976 
million for high-priority tactical infrastructure and border security 
technology improvements for U.S. Customs and Border Protection (CBP). 
Under the President's Executive Order No. 13767, Border Security and 
Immigration Enforcement Improvements, CBP is conducting risk 
assessments to the needs of front-line officers and agents that will be 
used to tailor an acquisition strategy going forward.
    While technology, equipment, and physical barriers certainly help 
secure our borders, we also must have more boots on the ground. I 
remain committed to hiring and training new Border Patrol agents and 
commensurate support personnel as supported by the President's budget 
and Executive Order No. 13767. Let me be clear, we will maintain our 
standards, yet we will streamline hiring processes. This includes 
initiatives like waiving polygraph testing requirements for qualified 
Federal, State, and local law enforcement officers, as well as members 
of the Armed Forces, veterans, and members of the Reserves or the 
National Guard, as contemplated by legislation now pending before the 
Congress. On a broader scale, my Deputy Secretary, Elaine Duke, and I 
are working hard across DHS to attract, retain, and enhance career 
opportunities for our workforce.
    Effective border security must be augmented by vigorous interior 
enforcement and the administration of our immigration laws in a manner 
that serves the National interest. As with any sovereign nation, we 
have a fundamental right and obligation to enforce our immigration laws 
in the interior of the United States--particularly against criminal 
aliens. We must have additional U.S. Immigration and Customs 
Enforcement (ICE) Enforcement and Removal Operations (ERO) officers to 
expand our enforcement efforts. The fiscal year 2018 budget requests 
over $7.5 billion in discretionary funding for ICE to support both the 
expansion of transnational criminal investigatory capacity within 
Homeland Security Investigations (HSI) as well as ERO's expanded 
targeted enforcement activities, including increases for more than 
51,000 detention beds to accommodate expected increases in interior 
arrests of criminal and fugitive aliens, associated transportation and 
removal costs, and an estimated 79,000 participants in ICE's 
Alternatives to Detention Program contract. Included in the request is 
$185.9 million to hire more than 1,600 additional ICE ERO officers, HSI 
agents, and support personnel.
    Detaining illegal aliens, and deporting them to their countries of 
origin, does not address the needs of members of our public who have 
been the targets of their crimes. For this reason, the budget also 
requests an additional $1 million to enhance the current operations of 
DHS's new VOICE Office, which supports victims of crimes committed by 
criminal aliens. As I have noted before, all crime is terrible, but 
these victims are unique because they are casualties of crimes that 
should never have taken place. The people who victimized them should 
not have been in this country in the first place.
    To protect the American people, we must continue to improve our 
identification verification and vetting processes.
    E-Verify is currently a voluntary program administered by U.S. 
Citizenship and Immigration Services that deserves more of our 
attention. Through E-Verify, our Nation's employers verify the 
employment eligibility of their employees after they are hired, which 
in turn helps protect American workers from unfair competition. The 
President's budget requests $131.5 million for E-Verify operations, 
which includes an additional $15.2 million for expansion of the program 
to support the mandatory use of E-Verify Nation-wide within 3 years--
should Congress provide the authority to do so. We appreciate the 
continued support of Congress for this program.
    Biometrics is another critical DHS identification and verification 
initiative, and I am committed to the pursuit of robust capabilities in 
this area. The budget requests $354 million to support biometric 
initiatives. We continue to make progress on the Biometric Entry-Exit 
System, with the goal of making air travel more secure, convenient, and 
easier.
    The threat to aviation security remains high, and criminals and 
terrorists continue to target airlines and airports. We must continue 
to improve how we screen the belongings of travelers and cargo. We are 
in the business of protecting lives, and improved screening 
technologies coupled with additional Transportation Security 
Administration (TSA) Officers working security functions at the 
checkpoints, will help us deter, detect, disrupt, and prevent threats 
to aviation security. DHS continues to prioritize explosives screening, 
threat assessments, and detection capabilities, and the President's 
budget includes $77.0 million for research and development in this 
area. The budget also includes $277.2 million for checked baggage 
screening and explosives detection equipment.
    Currently, TSA Officers screen more than 2 million passengers and 
their belongings each day, and this number is growing. Additional TSA 
Officers must be deployed to airport checkpoints to meet the increasing 
volume of travelers. The President's budget offers a sound, two-part 
approach to meeting this challenge. First, the budget proposes a much-
needed increase in TSA passenger fees--only one dollar, changing the 
fee from $5.60 to $6.60, for each one-way trip.
    While Congress previously denied this increase, Congress must act 
now in order for TSA to continue to meet its mission to protect our 
Nation from ever-evolving security threats.
    Second, the budget proposes that TSA cease staffing airport exit 
lanes, which will enable placement of an additional 629 TSA Officers at 
the checkpoints. This solution reflects risk-based analysis; TSA 
Officers are specially trained to ensure no metallic or non-metallic 
threat items make it on-board planes. Their security screening skills 
and expertise are not being put to good use while staffing airport exit 
lanes, and this is a waste of taxpayer dollars.
    The President also requests $8.4 billion in operating expenses and 
recapitalization costs for USCG to promote maritime safety and 
security. Increases to Coast Guard's operating budget will ensure the 
agency keeps parity with the pay and benefits increases provided to the 
other armed services. Additionally, the budget funds the crewing and 
maintenance requirements for all new ships and aircraft scheduled for 
delivery in 2018. Within the $1.2 billion request for Coast Guard's 
acquisition programs, $500 million is provided to contract for the 
Coast Guard's first Offshore Patrol Cutter and long lead time material 
for the second OPC.
    In addition to our physical security and protection activities, we 
must continue efforts to address the growing cyber threat, illustrated 
by the real, pervasive, and on-going series of attacks on public and 
private infrastructure and networks. The fiscal year 2018 budget 
includes approximately $971.3 million for the National Protection and 
Programs Directorate's cybersecurity activities, including $397 million 
for continued deployment and enhancements for EINSTEIN, which enables 
DHS to detect and prevent malicious traffic from harming Federal 
civilian government networks. It also provides $279 million for our 
Continuous Diagnostics and Mitigation Program to provide hardware, 
software, and services to strengthen the security of Federal civilian 
``.gov'' networks.
    DHS also must be vigilant in preparing for and responding to 
disasters, including floods, wildfires, tornadoes, hurricanes, and 
other disasters. The fiscal year 2018 President's budget reflects 
FEMA's efficient use of taxpayer dollars to improve the Nation's 
resilience from disasters. FEMA will prioritize programs that 
contribute most significantly to its emergency management mission, 
streamline business processes, harness innovative technologies, and 
better utilize public and private-sector partnerships. The President's 
budget requests $7.4 billion to support disaster resilience, response, 
and recovery, primarily through the Disaster Relief Fund.
    The budget provides $1.9 billion for FEMA's grant programs that 
support State, local, territorial, and Tribal governments to improve 
their security and resilience posture against risks associated with 
man-made and natural disasters. It represents a continued investment in 
State and local preparedness while spending taxpayer dollars on 
programs that make the most difference. The budget also proposes a 25 
percent non-Federal cost-share for those preparedness grants that do 
not currently have a cost-share requirement. By using a cost-sharing 
approach, Federal dollars are spent on activities that our non-Federal 
partners themselves would invest in, providing clear results in 
priority areas.
    In addition to protecting our Nation's financial infrastructure, 
under the leadership of our new director Tex Alles, the men and women 
of the U.S. Secret Service (USSS) protect our Nation's highest elected 
leaders, visiting foreign dignitaries, facilities, and major events. 
Using advanced countermeasures, USSS conducts operations to deter, 
minimize, and decisively respond to identified threats and 
vulnerabilities. The President's budget includes $1.9 billion to 
support USSS's missions, including investment in of advanced 
technologies and task force partnerships to enforce counterfeiting 
laws, and safeguard the payment and financial systems of the United 
States from financial and computer-based crimes. The funding also 
supports 7,150 positions--the highest staffing levels since 2011, and 
includes Presidential protection in New York and much-needed 
enhancement of technology used to protect the White House.
    In closing, the challenges facing DHS and our Nation are 
considerable. We have outstanding men and women working at DHS who are 
committed to protecting our homeland and the American people. The 
President's fiscal year 2018 budget request recognizes our current 
fiscal realities, as well as the serious and evolving threats and 
dangers our Nation faces each day. You have my commitment to work 
tirelessly to ensure that the men and women of DHS are empowered to do 
their jobs.
    Thank you again for the opportunity to appear before you today and 
for your continued support of DHS. I remain committed to working with 
Congress, and look forward to forging a strong and productive 
relationship to prevent and combat threats to our Nation.
    I am pleased to answer any questions.

    Chairman McCaul. Thank you, Secretary.
    I now recognize myself for questions. Yes, it seems like 
every day Americans turn on the television and we are not sure 
if we are going to see a terrorist attack. They seem so 
commonplace, with Manchester, London. We just had an attack at 
Notre Dame Cathedral 2 days ago, and, of course, in Paris, 
Brussels, Nice, Berlin. I mean, constantly.
    Europe is certainly in the crosshairs here with both the 
foreign fighter flow and the refugee flow. We are in the season 
of Ramadan and, as you know, sir, they have called for more 
terrorist attacks during this holy season. They are one plane 
flight away from the United States.
    We passed, had a task force last Congress, had one this 
Congress, to help stop the flow of foreign fighter travel into 
the United States. Out of that, we had the Visa Waiver Security 
bill, and this month we will be marking up a Visa Security bill 
as well to increase what you talked about, and that is more 
increased vetting in high-threat areas.
    So my question to you is to give assurance to the American 
people, what are you doing to stop this threat that we are 
seeing hit Europe so hard right now from coming into the United 
States?
    Secretary Kelly. Well, Mr. Chairman, thanks for the 
question. I mean, you know this, the committee Members know 
this, we have this incredible institutions that protect the 
American public.
    The good news is right now, from the threat outside the 
United States, some of the organizations I have already 
mentioned, you know, the Department of Defense, CIA, National 
Counter Terrorism Center, those kind of people, they are 
overseas either tracking them down or killing them every day, 
working with partners within the coalition, some partners very 
publicly, some partners not so publicly. All of that is working 
very, very well for us.
    In terms of my Department, we have over 2,000 professionals 
from the Department deployed overseas working with partners 
around the globe, working with them to upgrade their, as an 
example, their aviation security. If they don't upgrade it, we 
will not allow aircraft to fly from those locations to the 
United States.
    Obviously, inside the United States is a different kind of 
threat. Let's assume for a second we can keep the foreign-born 
or the exterior threat away.
    The internal threat, or the so-called lone-wolfer inspired 
by these various websites and magazines, but that is a threat 
that no one can predict. I beat myself to death in trying to 
figure out how to do it.
    Every time I talk to a foreign leader, just yesterday with 
the Israelis, you know, how do they do it? How can you predict 
someone that is going to go from normal kid to mass murderer? 
How do you do that? No one can give an answer. Everyone 
guesses. Everyone is trying.
    But the good news thing about our country, is that we have 
institutions like Homeland Security, like the FBI, all the law 
enforcement, a million law enforcement, who are today much, 
much better at all of this than they were the day before 9/11.
    You know, many of the grants we have provided, I think $45 
billion over the last 15 years, many of the grants were focused 
early on particularly in helping municipalities get the 
training, get the equipment, get the fusion centers and things 
like that they could plug into.
    Fifteen years on, whether it is a large city like the New 
York City Police Department that is, to say the least, 
impressive in what they do relative to this threat, right down 
to the smallest municipality in the middle of America.
    It is in the DNA now of our law enforcement people and the 
sharing that goes on between them and the Federal authorities, 
including my own Department, has put us in a better place, to 
say the least. But I would say that the one concern, and it is 
less and less of a concern because of what we are doing, the 
one concern I do have is the Southwest Border.
    When I was in uniform, responsible for the United States 
Southern Command, I never missed an opportunity to make the 
point. This was frankly long before I was looking at the kind 
of threats that I am looking at daily today.
    That my belief is, when there is a terrorist threat, or a 
terrorist event in the United States, that comes from outside 
the country, my belief is, until recently, that that threat 
would have gotten here through the network, the worldwide 
network that flows through Central America and across our wide-
open Southwest Border.
    We are doing the best we can to cut that off, but I think 
if there is an event, certainly up until recently, that happens 
in the United States, when we do the forensics, if it came from 
overseas, my belief is, without question, it would have come up 
through the Southwest Border. We are working on that, with our 
partners, the Mexicans, in particular.
    Chairman McCaul. Yes, and I recall when you were the head 
of SOUTHCOM, you know, General Kelly, you and I visited in the 
SCIF about this very issue, which leads me to my next question. 
I just got back from Mexico City yesterday. Some of the Members 
in the room were with me in a delegation meeting with a 
Congressional delegation from Mexico.
    We had a lot of--I have to say, it was a very productive, 
very good discussion on our shared mutual interest of both 
energy and modernizing NAFTA.
    But when it comes to security, no longer was the blame game 
there. It was realizing we have a shared mutual interest in 
security, both Mexico's southern border, which I think we 
should be focused on--it is 200 miles versus 2,000--but also 
our Southern Border, as well.
    There are proposals in this budget regarding what is known 
as, the wall. Can you tell me what this concept of a wall looks 
like?
    Secretary Kelly. Well, as I have said repeatedly, I mean, 
in hearings and in other events, I have been down a bit more 
importantly to the border and talked to the CBP, professionals 
that know better than anyone what it would take to at least 
begin the process of safeguarding the Southwest Border.
    I want to emphasize not to seal it. I mean, the President 
has directed me that getting control of the Southwest Border 
doesn't mean inhibiting in any way the legal crossing of the 
millions of people every year, tens of millions of people every 
year, and the millions of trucks in normal commerce.
    So we are figuring a way to do that. So if anything, we 
will speed the process up using probably different types of 
technology.
    But as we evaluate the length of the border, 2,000 miles, I 
would first say that--you have heard me say this many times--
the beginning of the protection of the Southwest Border really 
begins 1,500 miles south and then all of our partners, to 
include our great partner, Colombia, and Mexico.
    Specifically on the border and the wall aspect, we look at 
that as an on-going opportunity to provide security. There are 
places along that border where clearly a physical barrier of 
some type is either too hard or we don't need to do it because 
there is not a lot of crossing. There are places that are so 
remote, they are so rough terrain, and we could cover that with 
patrols and technology.
    There are other places along the border, particularly near 
the urban areas on that border, that my CBP professionals are 
asking for additional barrier. It might be a wall in South 
Texas that would then reinforce, so to speak, the levee system 
there, and it might be a see-through wall in other parts of the 
border.
    So there are a lot of issues but we are this year looking 
at some prototypes. I am not involved in that because of the 
issue of how acquisitions go and contracting go, but my people 
tell me it is progressing well. We will ultimately decide what 
form that physical barrier will take.
    Of course, all of that will be reinforced by technology of 
various types, UAVs and certainly the great men and women of 
CBP.
    Chairman McCaul. Well, thank you for that, and we look 
forward to working with you on that.
    The Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Thank you again, Mr. Secretary, for being here. I applaud 
your recognition yesterday that when a Member of Congress would 
contact you for information, you felt obligated to provide that 
information, whether it is individual, as a committee or what 
have you.
    So, can you, for the record, repeat whether or not you feel 
an obligation when a Member of Congress writes you relative to 
his or her duties in your lane, an obligation to respond back?
    Secretary Kelly. I will, Mr. Thompson. There are various 
types, of course, of Congressional inquiries. The things that 
we term, you know, constituent issues, those are easy. We 
respond to those as fast as we can.
    We get a fair number of inquiries that sometimes it is pre-
decisional, like what are you going to do here or there? Of 
course, in those cases, because it is pre-decisional, we don't 
know what we are going to do so we wouldn't write back 
specifics. But, in all cases, we would get a phone call back to 
the--or a letter even, back to the Member to say, can't answer 
that quite yet, pre-decisional.
    Then there are the other issues of questions that are part 
of the Congressional oversight process. Our preference, my 
preference really, would see that come up through a committee, 
because an awful lot of the time you get multiple letters of 
the same kind.
    It would be, in my view, for my time management perspective 
and the workload, I would prefer to see those come up through a 
committee, but we won't hesitate to answer them.
    One of the things I have, I would--let me step back and 
say, in my confirmation process, I think every Senator I talked 
to in office calls beat me up very, very brutally about the 
fact that my Department was among the worst in the Federal 
Government to responding to Congressional inquiries.
    I made that a big part of the changes we made--and by the 
way, that same thing could be said of our relationship with the 
media, and we are fixing that, as well, too.
    But the point is, on the Congressional inquiries, my folks 
are leaning forward on this. Some of the requests we come in, 
whether they are from an individual Member or even a Chairman, 
or Ranking Member, are very long, detailed requests that we 
can't, you know, answer overnight given workload.
    So what we will always do is either call your staff, or 
frequently write a letter back saying, you know, we got the 
request, it is going to take us some time, it is a huge request 
and just bear with us but we will get back to you. But, no, Mr. 
Thompson, my sense is that I am proud of what we do in the 
Department. I am proud of every man and woman in the 
Department, and this is a way to tell my story, our story, to 
the U.S. Congress.
    Mr. Thompson. I thank you for that, and I look forward to 
working with you on that. Because in order to make sound public 
policy, you need information, and so much of that information 
you have there at the Department that Members of this committee 
and otherwise would need.
    Secretary Kelly. You know, Mr. Thompson, if I could, just 
by way of example, since I have been the Secretary, and it is 
less than 4 months, we have leaned forward, had 37 different 
hearings, not me, of course, in all of them, thank goodness, 
but 37 separate hearings, 57 witnesses and nearly 1,000, 973 
engagements with Members of Congress, both sides of the aisle, 
both sides of the Hill. So we are--I am serious about it. We 
are leaning forward to inform the Congress.
    Mr. Thompson. Thank you, and I appreciate that. With this 
budget, Mr. Secretary, do you see yourself being able to fill 
the vacancies that you presently have at the senior level 
within the Department?
    Secretary Kelly. I do. I mean, what we have now, of course, 
throughout the Government, but in my case, I have got, other 
than myself, one other political person that has been approved 
by the confirmation process.
    Today I have FEMA replacement, Brock Long, who is sitting 
in front of the committee right now on the other side. We had 
the TSA administrator announced, and he will go through the 
process.
    But the good news is, certainly, that even though they are 
important to have a political, you know, head of the 
Department, a capable and qualified head, and that has been my 
bottom line in all that we have done in terms of trying to fill 
those billets, capable and qualified, but we have tremendous, 
thousands of tremendous career professionals who, regardless of 
who the Secretary is, and they come and go, the Homeland 
Security Department is functioning very well.
    Mr. Thompson. Fine. The President tweeted recently that the 
extreme vetting process is on-going. Are you familiar with that 
tweet?
    Secretary Kelly. I am now.
    Mr. Thompson. You are now. Are we extreme vetting to your 
knowledge?
    Secretary Kelly. A couple of things we are doing. We are on 
the visa side, the State Department, Rex Tillerson, Secretary 
of State, has just issued some additional questions that his 
consular officers will use as they interview individuals to 
come to the United States, essentially, you know, give a little 
bit more burden on them to convince us that they are coming 
here for the right reason and, in the visa process, that they 
will leave, which is, as I think the Ranking Member knows, a 
huge number of individuals that are in the United States 
illegally came here on a visa and simply decided to stay.
    On the refugee side, we are looking at ways, and I have 
described them a number of times, but we are looking at ways 
that we can deal with people who, for whatever reason, most of 
them are coming from countries that have no FBI, no real police 
set-up, no real record keeping set-up.
    They don't have passports. So how do we look at that person 
and decide whether that person should come to the United States 
and will be a productive member as a refugee?
    Right now we are into, for many, many years we have been 
assuming the stories they are telling us are true, the fact 
that, who they are, we are assuming they are telling us the 
truth. I think that there are ways to work toward a better 
understanding of who the people are, why they are coming. That 
would add to the extreme vetting.
    Right now I am a little hesitant to go too far because we 
are enjoined on the E.O., but we are doing something.
    Mr. Thompson. OK, but I guess, at some point, can you 
provide this committee with whatever the extreme vetting 
consists of?
    Secretary Kelly. Sure.
    Mr. Thompson. So we will have some knowledge of it. I guess 
my last point, Mr. Chairman, with your indulgence, some of us 
are concerned about private citizens contacting foreign 
governments, and that kind of thing. Jared Kushner was, before 
he was any official, contacted members of the Russian 
government.
    Some of us are concerned about whether or not that contact 
and the conversations that, in terms of back channel and other 
things, blurred the lines of what private citizens could do. I 
need from you some assurance that those kinds of contacts by 
private citizens, if they are made by private citizens, that 
either we have knowledge of it, or that someone in an official 
capacity will have knowledge of it.
    Secretary Kelly. Well, in the case of Jared Kushner, I 
mean, first of all, I mean, he is a great American, he was, at 
the time, in the transition process. I mean, obviously the 
Trump administration had yet to take over. But that transition 
process is one in which you are transitioning, about to take 
over, you know, the controls from the outgoing administration.
    During that period, I would offer that Jared Kushner--I 
don't know if he had a security clearance, yet, but certainly 
was working toward that and, of course, has ultimately got a 
very, very high security clearance. At the time, he didn't know 
anything that would be Classified because he wasn't in the 
Government, yet.
    You know, Mr. Thompson, I think there are many, many ways 
to communicate. The so-called back-channel way is very, very 
common.
    If he was in the process, knowing full well that he was 
within weeks and even days of becoming part of the U.S. 
Government, working for President Trump in some official 
capacity, the fact that he was opening channels, talking to 
people like the, you know, an ambassador from anywhere, to say 
that, you know, we would like to have an opportunity to meet 
with you and discuss some of these issues, whatever they are, 
once we are in the Government.
    I not only don't see anything wrong with that, I would say 
that that is the way the Government works. Back-channel 
communication--now all of that, you know, whatever he may have 
shared, once he became a Government official, of course, that 
is part of the Governmental process.
    If he was going to keep any secrets, if he would have said, 
you know, I talked to some Ambassador and said these are the 
things that are concerning this administration, I mean, that 
would be part of the overall effort, National security----
    Mr. Thompson. I appreciate the Chairman's indulgence, but 
some of us are concerned that a private citizen would have that 
kind of conversation before the clearance is issued. So, I am 
sure at some point----
    Secretary Kelly. But remember, the conversation, as I read 
the newspapers, not--I haven't spoken to them about it. But he 
didn't have a clearance yet. He wasn't in the Government yet, 
didn't know anything yet.
    But the idea that he was maybe contacting people to say, 
``Look, once we take over, I would like to at least have an 
opportunity to talk to you off-line about certain things when 
it is appropriate.''
    Mr. Thompson. I yield back.
    Chairman McCaul. Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Secretary, let me again commend you on the outstanding job 
both in your military career and now at Homeland Security. I 
have been talking to people in the Department. You have 
definitely taken a hold of it, and I want to commend you for 
that.
    Having said that, there are two areas I would like to 
cover. The first is on grants, specifically UASI and SHSCP and 
Port Security. Also on MS-13, which has been responsible for 17 
homicides in my district in the last year alone.
    First, on the grants. As I see the budget, roughly, the 
cuts are between 25 and 30 percent. I really would not be able 
to support that. Having said that, the Obama administration 
proposed even much more severe cuts in the last year, close to 
50 percent in some cases.
    But I opposed them then, and I really have to oppose these 
cuts now. Again, not even to have a debate, just to lay out the 
case. Just taking my district, Miss Rice's district, we are in 
the district which includes New York City, Nassau, Suffolk, 
Westchester and part of Rockland.
    New York City Police Department alone has over 1,000 police 
officers working full-time on counterterrorism and 
intelligence. They are performing a Federal responsibility and, 
depending on how we look at it, they have prevented between 15 
and 20 attacks over the last 15 years. They comprise a large 
portion of the JTTF.
    Similarly, in Nassau and Suffolk Counties, they have units 
working just on terrorism and counterintelligence. To me, this 
is a Federal responsibility, and I am not aware of any waste. I 
mean, every program is accounted for dollar for dollar. The 
programs are all approved.
    This is literally, in many cases, a situation of life and 
death. These officers are out there, again, 24/7, over 1,000 of 
them. This isn't a case of somebody's cousin getting a job or 
some political appointee. These are all top-rate professionals.
    This doesn't even include, which is paid separately, the 
police officers that are assigned overseas. I think they are in 
18 different capitals around the world.
    So again, I would just emphasize that it would be very 
difficult for me to support a budget request or an 
appropriation which does not put in the full amount. Again, I 
want to emphasize, not to make this partisan. I strongly oppose 
what President Obama suggested, and I am also opposing this.
    I will just leave it at that and then you can answer. But 
second, just on MS-13, if you could just maybe touch on the 
fact that the unaccompanied minors and--like the police 
commissioner in Suffolk County where these 17 murders have been 
carried out, I think more than half of them involved 
unaccompanied minors.
    These are young children who came into the country within 
the last 2 or 3 years. The evidence from the Suffolk County 
Police Department--and I would say the Suffolk County 
government is run by Democrats, this is not a partisan issue at 
all, have shown that MS-13 in some ways is gaming the system. 
Some of those unaccompanied minors were sent up here by MS-13.
    In other cases, MS-13 has either threatened, coerced, or 
paid off families in places like Central Islip and Brentwood to 
volunteer to take these kids. Then they come into schools. We 
have a school in my district where one whole hallway is 
dedicated to MS-13. It is a no-go area unless you are MS-13.
    Most of those kids came in as unaccompanied minors. So I 
guess if you could address the issue of whether or not that 
program can be improved, corrected, modified, and also on the 
question of the grants.
    Secretary Kelly. On the MS-13, sir, I think you know that 
unaccompanied minors are a different--there are many 
different--God knows there are unlimited categories of people 
that come and claim this, that, or the other thing. I have yet 
to get my arms around all of it.
    But I will say this. Of the 72 percent reduction in illegal 
aliens that we have seen moving into the United States in the 
last 3\1/2\ months, really, a key--72 percent reduction, an 
even better number is the unaccompanied minors are down even 
lower than that.
    So that is a good--and for that matter, family units. Those 
are very complicated. The minors and the family units. Those 
are very complicated individuals. But let me get to the MS-13.
    Unaccompanied minor comes to the United States. They are 
paid, trafficked up here through the network. Usually their 
families are--I mean, that is human trafficking by any 
definition. They pay a trafficker to take their less-than-18-
year-old up through the network, deposit them into the United 
States.
    Of course, they turn themselves over right away to the 
first--they look for the first uniformed person they can find 
and say, ``I am unaccompanied. This is my age. I have a family 
member that lives in Islip, New York.'' So we have to because 
they are minors, we, DHS, have to turn them over to----
    Mr. King. HHS.
    Secretary Kelly [continuing]. HHS, who then finds them a 
place. So he has got the address of whatever family member that 
is up in Islip. They do some checking and if it checks out, 
which it virtually always does, then they take the 
unaccompanied minor. That is basically the end of the cycle.
    Remember, in most cases, these people, the vast majority of 
people that come up from that part of the world are not bad 
people. But they are simple people. They are uneducated people, 
as a general rule, coming up here for economic purposes.
    So you take a 16-, 17-year-old that can't speak English, 
can't read or write. He has got a sixth-grade education. Now 
you bring him to Islip, New York. How long he stays in the 
education system there before MS-13 just recruits him?
    It happens, by the way, the whole route. I mean, a lot of 
these kids never make it, the males in--well, females, too, 
never make it through Mexico, because they are siphoned off 
into the gangs or into prostitution, if they are particular 
young women.
    So I mean, they are they are not really able to assimilate 
very quickly, and consequently, they get siphoned off into MS-
13. It is a huge problem.
    As you know. I think, Congressman, we, DHS, did a full-
court press, and for a couple of weeks picked up--couple of 
weeks about a month ago picked up 1,300 gang members. Many of 
them were MS-13. It is a real cancer and getting worse.
    So to a degree, some of them are scamming the system in 
terms of getting up here. So many of the MS-13 members are in 
fact unaccompanied minors that came up here, particularly in 
the big explosion, the big movement in 2014.
    On the grants, like anything, sir, we don't have an 
unlimited amount of money. We are looking in many ways--first 
of all, as I mentioned earlier, the level of training and 
expertise within the departments, particularly a place like New 
York City, the level of expertise is so much higher than it was 
a decade ago when 9/11 happened. More than a decade ago.
    The idea is that we have asked that the local 
municipalities, in many cases, have some of their own skin in 
the game, and that is why we looked at that 25 percent cut, 
that they would compensate. They are still going to get 75 
percent, but they would make up the 25 percent difference.
    I will end with this. I mean, there is a different threat 
out there. I mean, places like New York City are clearly a 
threat. They are a target. They are a symbol of America, 
Washington being the same way. This building probably being the 
ultimate.
    But the way this threat now has metastasized around the 
country, whether it is New York City, the largest municipality 
in the country, or some little town in the middle of Arkansas, 
the potential is about the same in my view for a lone-wolf 
attack.
    Clearly, if they really want to make a big splash, they go 
to a place like New York City. But we are trying to wrestle 
right now with--if every single city, town, village in America 
is at risk of the lone wolf inspired by--generally speaking, 
the one constant is the websites on is the internet.
    How do we, if we can, how do we get our arms around that 
threat? Because that is what it is. That is the domestic 
threat. That is what is inside the country, and obviously we 
still have, I think, the overseas threat at an arm's length.
    But I would just close by saying--but they are trying to 
get here, particularly get after our aviation. They are trying 
every day. Very sophisticated threats, and they are numerous, 
to try to knock down one of our airplanes on the way over here 
from, right now, Europe and the Middle East.
    I don't know if that answers your question, sir, probably 
not satisfactory, but----
    Mr. King. We can continue----
    Secretary Kelly [continuing]. That is the best I can do.
    Mr. King [continuing]. To work through it. Thank you, 
Secretary. I appreciate it. Thank you.
    Chairman McCaul. Yes, Secretary is here until 12:30, so I 
am going to try to hold Members to the 5-minute rule as much as 
we can to afford all Members an opportunity to ask questions.
    Ms. Jackson Lee is recognized.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member. Mr. Secretary, we have known each other for a good 
while, and I want to again thank you for your service and the 
service and sacrifice, that many of us know, of your family. I 
think that should never go unsaid and unacknowledged.
    Saying that, I also want you to accept that my questions 
are not personal, and that I have worked, as I know many 
Members here--I see my good friend Mr. Rogers, the Ranking 
Member, and many others, Chairman, have been on this committee 
for a very long time.
    So when we critique or criticize, I still would hope that 
the administration would work with us on the issues that we 
need to have worked on.
    So I am going to ask to have a set, with your distinguished 
legislative counsel sitting behind you, call where we speak 
directly about Mr. Escobar. That is the young man. This is the 
picture of his wife. We have sent letters to President Trump. 
We have sent letters to yourself.
    Mr. Escobar was in the middle of an administrative appeal 
and was deported. He had a work permit. He had no criminal 
background. If I might say, a church man. He left a wife 
working at the Texas Children's Hospital. So, I know how many 
others. This is a singular case. Children under 10.
    He needs to be returned to the United States, because his 
appeal process was improperly responded to by DHS. It means 
that, in the midst of it, he was deported.
    So can I get that scheduled phone call, please?
    Secretary Kelly. Of course. Or a visit from anyone, 
certainly, in my Department.
    Ms. Jackson Lee. I would like to speak to you, Mr. 
Secretary. I think it is at this level now.
    Secretary Kelly. OK. You know, there are many, many cases, 
as you know, Congress----
    Ms. Jackson Lee. I understand.
    Secretary Kelly. I am not totally familiar with this one.
    Ms. Jackson Lee. I will be presenting a letter as I leave. 
I have to go to the budget committee. But I want to just stop 
at that. If we can work that out, I will be delighted.
    Could you also have the FEMA director--I come from 
hurricane country--raise his or her hand? You said they are in 
the room?
    Secretary Kelly. Sorry. He is on the other side in his 
confirmation hearing----
    Ms. Jackson Lee. Oh, he is in his confirmation hearing.
    Secretary Kelly [continuing]. Right now.
    Ms. Jackson Lee. So let me just put on--I am going to put a 
lot of this on the record, and then I will have a final 
question.
    TSA is without leadership. As I understand, you said there 
is a nominee. ICE is without leadership. FEMA is in the midst 
of it and, I think, immigration services.
    So I am very concerned that the Department and you do not 
have full staff, and we need to work very hard for nominations 
to come forward. I know that my friends in the Senate, where 
there is a reputable individual, will be ready to do so.
    So let me just quickly move forward. I am putting this on 
the record as well. I am disappointed that there are cuts in 
the Office of Civil Rights that are very important, in the 
Privacy Office. I hope that we will be correcting that.
    The billion-dollar border wall is one that is ineffective. 
You just got through saying that those who are coming across 
the border are pretty harmless, and we are putting a big border 
wall and therefore denying a number of important projects.
    For example, cutting the law enforcement officer, LEO 
Reimbursement, where my airports, where 300 airports will not 
have TSA requirement to have a law enforcement officer present. 
We have had a lot of incidences that have been, if you will, 
prevented by law enforcement and this program being at our 
airports.
    The VIPER program, the canine program, you are cutting it 
from 31 to 8. The canine units are valuable. The Secret 
Service, that has more protectees than they ever had, cutting 
it $108 million.
    I would like that back in writing. I want to focus on this 
question after I have done Mr. Escobar.
    We now understand that the President's tweets are public 
policy, are the policy of the White House. My question will be, 
when I finish, was the President and his tweets making us more 
secure or insecure?
    Are we more secure when the President meets with two 
Russian operatives--they have names. They are in the cabinet of 
Mr. Putin--and jeopardizes the Classified information of the 
American people? Is America more secure?
    Are we more secure when the President, in the midst of a 
tragedy in London, bashes the mayor of the city of London, who 
happens to be a Muslim, who stood against the terrorism, but 
this President and his tweets are battering, bashing, 
insulting? His tweets become policy.
    I ask you, Mr. Secretary, in all of the hacking, and this 
memo that has just come out with the Mid-East, where we have to 
contend with fixing that, is it not clear that Russia is our 
enemy and the enemy of the world? We have a President that 
tweets like he is their best friend. Does the President's 
tweets make America safe or unsafe?
    Secretary Kelly. Well, certainly I don't think Russia is a 
friend and is approaching, certainly, what I would define as an 
enemy. But I don't think we should not talk to them. I mean, 
after all, they are who they are.
    I take your point, though. I mean, you know, the President 
tweets. In my view, I have my marching orders from the 
President to me personally. If his tweets are then going to be 
turned into policy, certainly the White House staff would work 
that, notify me. If I didn't see it that way, I would go over 
and see the President.
    My mandate, my sacred task, is to keep America safe. As far 
as the tweets and all go, certainly I am aware of them, follow 
them to the degree that I can.
    But I have a course set on securing the United States, and 
if those tweets then are turned into some change in policy 
because that is what the President wants, then, well, I will 
have that discussion with the President and the White House 
staff.
    Ms. Jackson Lee. So you will tell the Congress when you 
believe that a tweet that the President has now generated, 
which Mr. Sean Spicer, I believe, in the last 24 to 48 hours, 
has indicated that we should listen to the President's tweets. 
That they are in fact policy. You will notify us if that is 
damaging to the security of the American people?
    Secretary Kelly. I would, but again, I just emphasized that 
just because he tweets it, I mean, then it is up to the White 
House staff to work with him about developing policy, changing 
policy, or maybe doing nothing.
    Then I would find out about that, and if I thought that was 
detrimental to keeping the homeland safe, I would go over there 
and change someone's mind.
    Chairman McCaul. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank you.
    Chairman McCaul. Mr. Rogers is recognized.
    Mr. Rogers. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for your attendance and your long and continued 
service to our country.
    I know that you and the President are hard at work toward 
securing our Southwest Border, and you have spoken about that 
earlier in your testimony.
    One of the big themes in the President's campaign for the 
office was the fact that he intended to ensure that our 
neighbors to the south helped us with the cost of securing that 
border.
    To that end, I have introduced a bill recently called the 
Border Wall Funding Act, which would assess a 2 percent fee on 
remittances from the United States to countries in South 
America. We would generate $1 billion a year dedicated toward 
helping offset the cost of securing the Southwest Border.
    Is that something--those kind of innovative funding 
sources--something you are open to or encouraging? Or have you 
had discussions with the President about how we are going to do 
that? Because from what I have read, it is going to be $10 
billion to $15 billion over and above what we are currently 
spending.
    Secretary Kelly. Congressman, I would start by saying I 
really have no idea how much it will cost ultimately, because 
we haven't really--well, we haven't at all picked any 
prototypes.
    I mean, if we go with one design, it is quite expensive, 
very expensive. If we go with another design, it might be half 
that cost. So I am not pushing back or I just don't know how 
much it will cost.
    I hear $40 billion. I have heard $10 billion. Most of it 
comes out of the press. I don't know where they get their 
numbers because--and I have been asked numerous times by 
Members of Congress this very question. I don't know how much 
it will cost, because I don't know what we are going to build. 
I don't know how long it is going to be built.
    But that aside for a second, the funding, wherever it comes 
from, I have not had conversations--it is not really in my lane 
to raise the money.
    If the President, you know--whatever I get, you can bet, 
once we decide on a design, once I get enough money to build X 
miles of whatever it is, the design is, then clearly--we have 
already done this, in fact, talked to the CBP people to say, 
you know, ``Where do you want some additional physical 
barrier?''
    They will tell you. ``Sir, if you can get me, you know, 
Laredo. If you can get me 16 more miles, I am pretty happy.'' 
``If you can get me 28 miles.'' That kind of thing.
    Other places, you know, they will say, you know, ``We are 
pretty good with the high-tech towers we have here that give us 
day and night visibility over large stretches of the border. 
You know, sure, if we have unlimited amounts of time and money, 
build me some wall.'' Walls work. Physical barrier is a better 
way to put it.
    But that said, we are talking to the CBP folks and, you 
know, this is a process that is clearly going to take some 
time. I mean, there are issues of land acquisition and all the 
rest of it.
    Mr. Rogers. Great. The Congress has been pretty busy at 
work in these first few months, unwinding many of the worst 
Obama-era policies through the Congressional Review Act.
    However, there are two highly unconstitutional policies 
that remain in place: Obama's amnesty programs called DACA, the 
Deferred Action on Childhood Arrivals, and DAPA, Deferred 
Action on Parents of Americans. What are your plans to end 
these unconstitutional immigration amnesty programs?
    Secretary Kelly. You know, sir, of all the things I have on 
my plate right now, I am looking very, very hard at the, 
whatever it is, 11 million individuals in the United States 
illegally.
    We are working very, very hard, and in spite of what 
sometimes, almost all the time the press reports, we are truly 
going after people, individual not sweeps, not checkpoints, 
not, you know, not road blocks, not raiding meat packing 
plants.
    We are going after individual individuals that are, (A), 
here illegally, and then (B), have other violations. The best, 
you know, going after--we are trying to go after some of the 
worst.
    Now, that said, other illegals in this process fall into 
our hands. We don't have discretion. But they are not, they are 
put into proceedings, which, as you know, I think, goes on for 
years and years and years.
    There are about 750,000, roughly 780,000 people that fall 
into this category, DACA. I have many, many people tell me it 
is illegal. I have many, many people tell me that it is not 
illegal, that the President had the authority to give me or my 
predecessor to do it. I will say, for the record, we are not 
targeting DACA registrants right now.
    There is a lot of misinformation, misreporting that we have 
gone after DACA. The people that have claimed to be DACA 
recipients that we have, in fact, taken into custody, fall into 
two categories.
    One category is they were going to register, but didn't get 
around to it, so they are not DACA, while the other category is 
they were registered, but they broke the law, and when they 
came into our hands, they are not DACA, and we put them into 
proceedings.
    I go back always to this issue of, you know, ICE, DHS, do 
not deport people. The law deports people. There is a step-by-
step process. Everyone that falls into a certain category has 
rights under laws.
    Some of these things go on for years and years and years. I 
just was familiarizing myself with one the other day. Sixteen 
years in the process, and that included 22 different steps in 
front of Federal judges as well as immigration judges, and 
ultimately there is an order to deport, and we have got to do 
it. I don't have the discretion. A lot of people don't 
understand that.
    But the point of DACA is right now, sir, I am hoping, 
frankly, because there is bipartisan support, both sides of the 
aisle, both sides of the Hill for doing something about DACA 
legislatively.
    Rather, with all due respect, not you, but I get beat up a 
lot by a lot of Members of Congress on DACA. Again, we are not 
targeting DACA. But I get beat up a lot about why we are going 
after DACA. We are not.
    But my back to them is if you feel so strongly about it, 
and you clearly do, why don't you do something about it? Why 
don't you work with your colleagues, both sides of the aisle, 
because there is a lot of support for this, and change the law, 
and I will follow that law.
    Mr. Rogers. Thank you.
    I will yield back, Mr. Chairman.
    Chairman McCaul. Gentleman yields back.
    Mr. Langevin is recognized.
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service, and thank you 
for your testimony here today. I have several questions, so I 
am going to ask you to be as concise as possible.
    With respect to the wave of terrorist activity happening 
across Europe right now, we have been briefed previously that 
there are thousands of European individuals who have gone into 
Syria or Iraq and have fought with ISIS and have now returned 
back to these European countries.
    We have been briefed in the past that because of European 
privacy laws that it has been difficult to necessarily get 
information sharing, robust information sharing from our intel 
partners of those people that might want to travel here to the 
United States.
    I know that this committee and the Congress has acted to 
tighten up restrictions on individuals who have traveled to 
Iraq or Syria or parts of the Middle East and then coming to 
the United States from visa waiver countries.
    I want to know are we getting robust intel sharing from our 
European partners? Is there anything in European privacy laws 
that are inhibiting the United States from getting robust 
information about individuals with European passports who might 
come here to the United States with nefarious intent?
    Secretary Kelly. I would say, Congressman, there is a new 
wind blowing or a new attitude change right now in the last 
several months, certainly since I have been in this job. Many 
of the countries around the world have different privacy laws 
than we do. Some of them are tighter.
    What they are facing now potentially is anywhere from 5- to 
7,000 returning citizens from the jihad, from the caliphate. 
They are not going home, because they have been cured of their 
mental illness here.
    But they are going home because the caliphate is being 
defeated on the ground in Iraq and Syria, and they are going 
home to continue the jihad, only in a different way.
    Mr. Langevin. I understand that, but I want to know about 
the----
    Secretary Kelly. Right.
    Mr. Langevin [continuing]. Info sharing here.
    Secretary Kelly. So we are experiencing a new interest in 
cooperating with the United States on the kind of things you 
are addressing by the Europeans.
    The other factor of not only the returning jihadists, but 
the other factor is some of the actions have taken on 
electronics in aircraft. That has caught everyone's attention, 
and we have nothing but renewed cooperation to share with us 
all the information they can. Even the European Union has a new 
attitude toward this issue. So I think we are going in the 
right direction.
    Mr. Langevin. All right. Turning to cyber for a minute--
Russia. Secretary, recent media reports have indicated that 
Russia targeted systems used in our elections in the waning 
days of the 2016 campaign.
    Clearly, we have seen a paradigm shift in Russia's using 
aggressive cyber means now to interfere with the elections of 
Western democracies. Is the Department aware of these efforts, 
the new information in the media reports that have come out 
recently?
    Secretary Kelly. Before I answer that, Congressman, I would 
simply say I am not acknowledging--some of these things are 
very, very highly Classified, as you know.
    So I am not acknowledging anything that is being reported 
whether it is true or not. But I am saying we are part of the 
cyber defense infrastructure of the United States, and are 
aware, generally speaking, with our partners, FBI and others, 
of what the Russian attempts are.
    Mr. Langevin. Well, Secretary, if there is a Classified 
answer that you need to give to that question, I expect to get 
that question----
    Secretary Kelly. We can do that.
    Mr. Langevin [continuing]. Answered. Thank you.
    How has is the Department working with this critical 
infrastructure, with respect to the elections, to improve 
cybersecurity, particularly given the special elections that 
are going on now?
    Secretary Kelly. Well, as you know, and it has been pointed 
out to me by the vast majority of Members of Congress I have 
spoken to, the State's control, and, in some cases, inside 
States, there is no universal election process. But the States 
control that process.
    My predecessor, Jeh Johnson, just before he left, 
designated the whole system as critical infrastructure. I have 
had a lot of push-back from Members of Congress, both sides of 
the aisle. Governors have pushed back on that. The idea is, for 
the record, that that is a voluntary if you think we can help, 
come ask us, and we will try to help you.
    I am meeting with all of the Homeland Security--I believe 
it is next week--the Homeland Security State advisors. This 
will be a topic that we will bring up about do they feel it is 
needed. But by no means do we have any intention, desire, or 
move to take over any State process or tell the States how to 
do business.
    Mr. Langevin. OK. And my time has expired. I have 
additional questions I will submit, but I am particularly 
interested in the, in a Classified answer to the Russian 
elections issue. Thank you.
    I yield back.
    Chairman McCaul. Chair recognizes Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    Secretary Kelly, thank you for your service to our country, 
and thank you for testifying again today. As usual, when we 
talk about illegal immigration, you know, it is always talking 
about the illegal immigrant.
    During your previous testimony, I told you how pleased I 
was that the Trump administration created a new office to speak 
for the victims of crime committed by illegal immigrants. That 
is one of the reasons I feel so passionate about why we need to 
enforce our immigration laws.
    My city of Hazelton, which I was mayor of, had a serious 
illegal immigration problem that brought with them drugs, 
gangs, identity theft, other crimes, and I had to deal with 
that every day. Everyone talks about the illegal alien, but 
very seldom do we ever talk about the victims.
    You know, no one has compassion for the victims of these 
crimes, and we must speak for them. I am thankful that the 
Trump administration is doing that.
    You know, when I was mayor, I remember sitting with the 
family of Derek Kichline, a 29-year-old father of three little 
children who was shot and killed by head of the Latin Kings who 
was in the country illegally, arrested seven times before he 
took the life of Mr. Kichline.
    I sit with Mr. and Mrs. Kichline. I met the family of Carly 
Snyder, a 20-year-old beautiful girl, studying to be a 
veterinarian. Her father told me the story about his daughter. 
Her next-door neighbor was in the country illegally, arrested 
in a sanctuary city and let go, breaks in his daughter's house 
and stabs her 37 times.
    As the father is telling me this, a tear is rolling down 
his cheek. He said I came to shake your hand, because you are 
speaking for my daughter, Carly, now. I have never forgotten 
that.
    So I understand that there is nothing we can do to bring 
these people back. I know there is nothing that we can do that 
will ever relieve the pain that they still feel with, but I 
understand that the budget request includes funding with ICE to 
support the Victims of Immigration Crime Engagement office, 
also called VOICE.
    Can you please speak about what you and the administration 
are doing to speak for the victims of crimes committed by 
illegal aliens against citizens and legal immigrants, and what 
else we can do in Congress to assist these efforts. Would it be 
helpful to have this office permanently authorized?
    Secretary Kelly. Thanks for that question, Congressman. The 
VOICE office, although it has been heavily criticized by 
certain elements, is not an anti-illegal--even illegal 
immigrant move. It is just a way to assist the victims of the 
families primarily, of course, of the victims of some violence, 
some crime against, perpetrated by an illegal alien.
    What we attempt to do is--and early on it was heavily 
abused by a lot of prank calls and all of this, but it has 
settled down now. By virtue of what I just said, it will 
probably start back up.
    But there are plenty of examples of them calling in. 
Simply, you know, the person that killed my daughter, where is 
he right now, and where is he in the court process? You know?
    Has he been sentenced to life or death like he should be, 
or has he gotten 20 to 40 or has he walked? That is what we do 
to a large degree. Others will call and ask for, you know, 
counseling, help and that kind of thing. We can take care of 
that in terms of direct them in the right direction.
    So I mean I was kind-of surprised. I have been surprised 
about a lot of things since I have been in this job about the 
outcry against it, because it was billed as anti-immigrant.
    Of course, we are not anti-immigrant. We are anti-, if you 
will, illegal immigrant. We still take 1.1 million legal 
immigrants into this country every year, and I don't think 
there is any big idea to change that.
    But the point is the VOICE office has worked well, and it 
is just a way to outreach the people who felt as though they 
were all alone. For every one of you as a mayor that was 
wrapping their arms around people, there are other mayors, with 
all due respect, that take the other view of illegal aliens.
    Mr. Barletta. Unfortunately, Secretary Kelly, we can't 
bring back their loved ones, and we can't maybe ease their 
pain, but what we can do is give these families closure. I 
applaud the Trump administration for doing that. Thank you.
    I yield back.
    Chairman McCaul. Mr. Keating is recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service to your country, 
your career service and your sacrifice. It is much appreciated. 
This is a budget hearing, so I want to focus in on a couple of 
things that are important in my region.
    No. 1, I want to continue the several-month dialog our 
office has had with representatives from the regional office of 
Mission Support. We have been able to locate significant 
savings that will not result in a loss of personnel or 
services.
    Roughly, I believe, just in our small little region, $30 
million in savings. I think this could be a model that could be 
duplicated throughout the country, too, in terms of having 
those kind of savings.
    Along those lines, too, I would like to just express a 
concern on the budget cuts to the Inspector General's Office 
within Homeland, because I think that is an important office. 
It is important to this committee, and it is one for every 
dollar in, there is $7 in savings. I will set that. I think it 
is not a good time to be cutting in that regard.
    I would also like to mention where hundreds of millions of 
dollars of revenues are been lost right now in our country, and 
particularly in my region. Something you never asked for, I am 
sure, but in the omnibus legislative budget, you were given 
personal discretion over H-2B visas, and this is a program, as 
most of us know, is really related to small businesses.
    Every day in my district and other districts around the 
country, the delay in filling those needed positions is just 
costing us revenues that could be helpful in fulfilling some of 
the things that are being cut right now.
    In our area, there will be local workers that will not have 
jobs because, particularly people in the hospitality area, they 
are not opening at all during weeks, because, unless you are at 
a complement, you just can't do it.
    I have had conferences with your legal staff and with your 
office and the acting secretary in that regard that is dealing 
with that, Acting Director McKenna. He and I discussed using 
the returning worker cap just being removed. This is nothing 
new.
    This is something that 4 of the last 11 years has been 
utilized to have those people there. It eliminates some of the 
interviews, these people hit the ground running, and it is 
important right now in our country that we are not hurting our 
economy for something that can be easily done administratively.
    So I want to emphasize and ask you when do you think you 
will be able to start that process? It is overdue and every day 
it is costing us money in this country.
    Secretary Kelly. Well, first of all, like--Congressman, 
this is kind of a new topic for me. When I originally saw it, 
66,000, I think, is what is authorized, and then I think I 
have----
    Mr. Keating. Discretion to 129,000.
    Secretary Kelly [continuing]. 129,000. What I took from 
that was the sense of the Congress was not to expand it, 
because if it was that important, the Congress would have 
authorized $129,000. But that said, we are working with Labor. 
You know, I have just very large number of Members of Congress 
saying don't expand it, because it means American jobs, the 
unions and all the rest of it. I am open----
    Mr. Keating. If I could interrupt?
    Secretary Kelly. Sure.
    Mr. Keating. Mr. Secretary, there is a huge bipartisan 
support for this----
    Secretary Kelly. Right.
    Mr. Keating [continuing]. And may I respectfully say there 
is no U.S. jobs lost in this respect. These are jobs that, 
frankly, can't be filled. I could tell you, as you are familiar 
with your own personal experience around the Boston area, the 
wages are well-paid for in that area.
    It is not a question of not meeting where--in fact, in my 
area, they exceed the average wages for those jobs. So I mean, 
I am glad you mentioned that. There is no security interest.
    These are returning workers. Some of them have been coming 
back and forth for 20 years. Those of us in the committee are 
well aware there are certain visas where people overstay those 
visas, and that is a matter of concern for you and for all of 
us.
    However, these people go back. They want to go back. They 
have a history of going back and coming forward. As I said, 
some of them for decades working in, you know, the same 
businesses. So this is something I am glad with your feedback, 
because I hope I can alleviate that concern and get this moving 
as quickly as possible.
    I have about 10 seconds left to deal with things. But with 
the cuts, I just want to emphasize the UASI grants, the Urban 
Area Security grants, those cuts concern me. The State Homeland 
Security grants are a concern as well. And we know from the 
Boston bombing experience how important that training was.
    So I would emphasize, as my colleagues have on both sides 
of the aisle today, to try and see if we can fund those. I 
think there will be States and cities that do not take the 
initiative to fund their portion the way it is structured now, 
and I don't think we can afford those cuts at this time. Thank 
you.
    Chairman McCaul. The gentleman's time has expired.
    Mr. Perry is recognized.
    Mr. Perry. Mr. Secretary, good to see you. Thanks for your 
service. Moving right into it, though, just recently, in the 
last couple days, H.R. 366, the DHS Save Act was signed into 
law by the President, which allows you to manage DHS's fleet 
much better than it was in the past and saves taxpayers a pile 
of money, I think.
    I just want to let you know, as the Chairman of the 
Oversight Committee, I am interested in any priorities you 
might have that we haven't seen on rooting out fraud, waste, 
and abuse and getting right to that. I am just offering myself 
to you in that regard.
    I have plenty of critics regarding the cost of the border 
wall, and that discussion, and I just want to get into that a 
little bit. According to Bloomberg, the vast majority of heroin 
in the United States comes from Mexico, which is contributing 
to our devastating opioid epidemic, including Pennsylvania, 
unfortunately.
    I just want to use this one example as a cost of not 
securing the border and just get your thoughts on if we 
properly examine what the cost of not controlling our border is 
in that regard? Have we done that adequately? Do we know that 
cost?
    Secretary Kelly. Certainly not on my watch have we looked 
at that. But I would offer just a couple facts and figures to 
you. You are exactly right, Congressman. In a sense, everything 
that is bad in this regard, comes up through the Southwest 
Border.
    I have talked with my Mexican friends about it. The reason 
why this network moves from Mexico is not because Mexicans are 
anything other than great people and very cooperative with us. 
But the immense amount of profit that comes out of the 
consumption of drugs in the United States, $800 billion by some 
estimates, is what generates all of the problems all the way 
south.
    You know, the demand generates the----
    Mr. Perry. Sure.
    Secretary Kelly [continuing]. Production and the transport, 
just about 100 percent of the heroin consumed in the United 
States comes from Mexico. That is an indicator of how smart 
these cartels are.
    Years ago, it all came from Asia. Not so many years ago, 
but they say, OK, if Americans want to kill themselves with 
heroin, well, then we will help them out. So they created the 
production facilities, the poppy growing, all that----
    Mr. Perry. You know, if you will try and if your agency 
will try and take a look and quantify that cost, I mean, I 
think it is important for Americans to know the cost.
    I mean, according to Pew, illegal immigration, maybe 
including heroin, maybe not itself, but illegal immigration 
cost--Pennsylvanians about a billion dollars, so that is a 
significant cost. Just like to put your eye to that, if you 
could.
    The President's budget request requires additional hiring 
of enforcement and removal operations, and I think it is a 
great start. I just am curious about your comments about how 
ICE can be effective with States and localities using sanctuary 
policies to stop them from doing their job, even with the 
additional personnel. What are your thoughts on that?
    Secretary Kelly. Well, the best place for ICE to do its job 
is to work side-by-side with law enforcement in jails. We have 
a program for that. We pay for it. But if they are in the 
jails--an example would be someone who is an illegal alien has 
finished doing their time in jail, whether it is 1 year or 5 
years, whatever, they simply turn them over to us and then ICE 
sends them home.
    It is inconceivable to me why any elected official or 
anyone would not want us to do that. It is free, it gets 
someone who is very bad or bad out of their community.
    But, you know, politics are politics, but that is the best 
way to do it. If we don't do it there, which is safer for the 
communities, safer for my officers, and cheaper, then the 
officers have to go out and find them.
    That means going into neighborhoods with the potential for 
violence, you know, knock wood, it is not very often, but 
occasionally, there is some shooting, or going and going to 
courthouses in other places. Of course, we don't do churches, 
medical facilities, schools. That is off the table.
    But it is crazy to me that elected officials out there in 
America would not want us working side-by-side with law 
enforcement to take these folks off their hands in the jails.
    Mr. Perry. So let me just--this wasn't a question I had, 
but based on your comments then, it seems to me that 
potentially, the $185.9 million request to hire additional 
enforcement and removal operation officers is a direct result 
of, to a certain extent, of certain cities or municipalities 
not cooperating with Federal authorities.
    We have to have more of these folks because they are not in 
the prisons because they have to go out and find them out on 
the street. Is that----
    Secretary Kelly. That----
    Mr. Perry. Is that generally correct?
    Secretary Kelly. That is fair. That is fair.
    Mr. Perry. OK, well, that is a little unfortunate. Just 
finally, with your indulgence, Mr. Chairman, the temporary 
protected status, many of them designations expire in 2018, and 
I am just wondering, is your Department already in the process 
of reviewing the TPS countries and what factors you will be 
considering when determining whether or not to re-designate 
those folks?
    Secretary Kelly. Yes, Congressman, we are.
    Mr. Perry. All right. Thank you, Mr. Secretary. Thank you.
    Chairman McCaul. The Chair asks unanimous consent the 
gentleman from Michigan, Mr. Bergman, be allowed to sit on the 
dais and participate in today's hearing. Without objection so 
ordered, sir.
    Chair now recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    General Kelly, thank you for your service and it is good to 
see you here. The State of New Jersey and the district I 
represent is of extremely close proximity to where the 9/11 
attacks took place. Would you agree that our region, given its 
symbolic significance, our dense population, and intensive 
economic activity, remains one of the highest security threats 
in the Nation?
    Secretary Kelly. Yes, sir.
    Mr. Payne. You know, by the Department of Homeland 
Security's own estimation, New Jersey has the most dangerous 5-
mile stretch in the country where the Ports of Elizabeth and 
the Northeast Corridor Railroad, North Liberty National Airport 
and the Garden State Parkway and the New Jersey Turnpike 
intersect.
    We are very concerned with respect, with the proposed cuts 
to UASI, as Mr. King, the former Chairman of this committee, 
mentioned, Mr. Keating. UASI grants, poor security grants, and 
the transit security grants to the elimination of 75 percent of 
the VIPER teams and dramatic reductions in research and 
development activities related to protecting against chemical, 
biological, radiological, and nuclear threats at the science 
and technology doctorate.
    This budget abandons my district and, we feel, the country, 
while throwing money toward the construction of the border 
wall. This budget and its cuts really terrifies me.
    How do we continue to keep the homeland safe with these 
dramatic cuts and also support our first responders, who have 
done an incredible job throughout the years. With these cuts, I 
don't understand how we can do both. Can you explain, with this 
budget?
    Secretary Kelly. Well, of course, Congressman, the whole 
point, initially, of the many, many billions of dollars that 
was dispersed by the Federal Government to various 
municipalities came as a result of, you know, clearly 9/11 and 
as good as the first responders were in New York City and here 
in Washington when the plane hit the Pentagon.
    We are in a different place now, and of course I wasn't 
here, I was off fighting the war, but the idea was these grants 
would help municipalities train to these kind of threats and 
these catastrophes, buy equipment if they didn't have them 
already, and get them up to a certain point and they are.
    I think you would, you know, acknowledge that the law 
enforcement, the first responder community, certainly in your 
part of the world and I think throughout the Nation, are in a 
different place today than they were 10, 13, 17 years ago.
    So now we are kind of in a sustainment phase to where they 
have bought the equipment that they think they needed, they 
have done the training and at this point, the thinking is, not 
all, but the thinking is now that the States, the 
municipalities, would pick up that sustainment. So that is kind 
of what the background thinking is at on this.
    Mr. Payne. Well, but, you know, and I am sure, you know, 
from your vantage point, you know that the threats continue to 
evolve and so the continuation of those grants and the need to 
continue to have our first responders equipped with the 
training and the equipment that they need to respond to this 
evolving threat continues.
    So just as the Army--the armed forces come to continue to 
train and retrain, we feel that these grants need to stay in 
place because of that evolving threat.
    Secretary Kelly. Well, you could make a case actually on 
the evolving threat, as I see it, that, as I mentioned a little 
earlier, every large city, small city, village, town, in a 
sense, is under threat as well because of these so-called home-
grown lone-wolf terrorists. I don't know how to fund to that.
    I think the possibility of a 9/11-type attack is not 
impossible, but I think fairly remote. But I think across our 
country the domestic threat is everywhere and I don't know how, 
again, to prevent it or train to it. The good news is we have 
tremendous law enforcement professionals that, unfortunately, 
get a lot of experience in dealing with this.
    But that is where the solution of this kind of threat is, 
and many of the grants, some of the grants have been reduced by 
certain amounts of money and the idea is that the States would 
put their own money against it to sustain. But I don't know how 
to, going forward, how we address this, as you say, this 
current, you know, morphing of the threat and it will change 
again and we will adjust to it again.
    Mr. Payne. Thank you, and I will yield back at this time.
    Chairman McCaul. The Chair thanks the gentlemen.
    The Chair now recognizes the gentleman from New York, Mr. 
Katko.
    Mr. Katko. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, and I want to honor you on your long and storied 
career in the military prior to coming to continue your service 
in Government with Homeland Security.
    I am particularly mindful of your career now that I 
recently swore in my son as a second lieutenant, my oldest boy, 
in the Army, and so--I know, it is the Army. I know. I tried to 
talk to him.
    Secretary Kelly. It is a pretty good outfit.
    Mr. Katko. But it is, you know, it really brings to mind 
the tremendous sacrifices that our men and women in uniform do 
every day and I sincerely appreciate that. I want to talk to 
you about a couple of bills that I have had pass the House that 
are in various stages with the homeland security and I would 
like to ask about them.
    The first one, briefly, is a Northern Border Security 
Review Act, which mandates that Homeland Security complete a 
comprehensive threat analysis of the Northern Border by next 
week----
    Secretary Kelly. Next week.
    Mr. Katko. I just want to know if you have had any 
preliminary indications from that of what the findings are, and 
more importantly, whether we are going to have that soon 
because my colleague, Ms. McSally has graciously agreed to 
conduct a hearing with her committee and my input on this very 
topic in the not-too-distant future, so, I think we could start 
with that one.
    Secretary Kelly. Well, Congressman, I am confident that we 
will hit the 14 June date, but no, I have not been given, you 
know, any kind of preliminaries on this. We would expect it, 
certainly, within a few days, but, my belief is that we will 
hit that mark.
    Mr. Katko. Very fine. Thank you. Now, turning my attention 
to another bill, a Counter-Terrorism Advisory Board Act of 2017 
passed the House by unanimous support, both from this 
committee, and from the House as a whole.
    It is over in the Senate, and several months ago, your 
office signaled to the Senate committee that is charged with 
dealing with that bill that they weren't ready to support it 
yet.
    Part of the signal was that you needed time to review it 
and see what you wanted out of the Counter-Terrorism Advisory 
Board, which I certainly understand. Have you been able to make 
any more determinations as to that bill?
    Secretary Kelly. You know, if you wouldn't mind, sir, I 
would like to take it for the record so I can give you a good 
answer, but, as of right now, you know, any effort to give me 
advice on issues like this would be welcomed. I don't know 
exactly what is in the bill, but if I could take it for the 
record, I would get it right back to you.
    Mr. Katko. Sure, and just as a quick summary for you, it is 
a practice that has developed that is merely codifying the 
practice that has been developed over years at the Homeland 
Security.
    It is something just seems to be common sense to make sure 
the agencies are talking together and not make it optional, to 
make it more of a mandatory thing that they are talking to each 
other, which, of course, in this day and age, seems to be 
pretty common sense. So hopefully we will talk about that.
    Now that I have a few minutes, I would like to just kind-of 
hear from you what your thoughts are about the procurement 
issues that seem to plague Homeland Security. I am very mindful 
of it in the context of the TSA subcommittee, which I chair, 
and in that subcommittee, it is pretty clear that the 
procurement process still is lagging behind the technology that 
the bad guys are advancing.
    Obviously, the genesis of the laptop ban overseas was a 
result of technological advances that the bad guys are making 
and my concern is that we still don't have a good process from 
the time an idea by a vendor is presented, especially if it is 
a new vendor, to the time it gets to the front lines. So, if 
you could talk about that, I would appreciate it.
    Secretary Kelly. I think it is a great question. I think I 
would open it by saying one of the biggest shockers to me when 
I took this job was to find out how disparate a lot of things 
are.
    You know, I came from the defense world which procurement 
is not perfect, but there is a system and it takes into account 
the needs of all of the, you know, the Army, Navy, Air Force, 
Marines, and makes them work together for obvious reasons.
    You know, I came to this job and I was stunned at frankly 
how many people have a voice in how the Department is run. I 
think we answer to 119 committees and sub-committees. I mean, 
it is almost an impossible task. But the point is, I know that 
Jeh Johnson, just before he left, shortly before he left, put 
in this Unity of Effort thing, which I think procurement falls 
squarely under.
    Since I have been in the job, I have wanted to direct it to 
staff and the leadership to inject steroids into that process 
to find ways to, across the Department, solve some of these 
problems.
    Elaine Duke, who is my Senate confirm, now the No. 2 in the 
Department, has a lot of experience in this. She has taken this 
on by my direction to start to solve these issues to include 
acquisition, procurement, and if we--there are a couple of 
people that we have nominated to come in to take over various 
positions, one of whom has a lot of DOD procurement acquisition 
experience. I hope when she shows up, if she shows up, that we 
will start to get our arms around the problem.
    But you are right, terrorists are agile, quick, and have 
unlimited resources to blow up airplanes. To counter those 
threats, it takes time and money to develop technology. We are 
not fast enough.
    Mr. Katko. But the private sector does. There are a lot of 
technological advances in the private sector and the common 
refrain I hear from them is that it takes too long for them to 
get the attention of TSA or Homeland Security and then it takes 
too long before they are processed, once they get their 
attention, to getting on the front lines, so, I----
    Secretary Kelly. Trying to solve it.
    Mr. Katko. Yes, we have to get the best weapons out front, 
so thank you very much.
    I yield back, Mr. Chairman.
    Chairman McCaul. The Chair thanks the gentleman.
    The Chair now recognizes gentlelady from New Jersey, Mrs. 
Watson Coleman.
    Mrs. Watson Coleman. Thank you very much, Mr. Chair.
    Good morning to you, Mr. Secretary. As you know, Mr. 
Secretary, based on security threats overseas, TSA had banned 
carry-on laptop computers from certain foreign airports and is 
reportedly contemplating expansion of that restriction, 
possibly to include some of the other or all European airports.
    My question to you is two-pronged. What is the status of 
the laptop ban and possible expansion, and if implemented, how 
would DHS work with stakeholders and passengers to ensure a 
smooth transition to these new rules?
    Secretary Kelly. Before I even start, the ban was put in 
place, or the action was taken by me, not TSA. That was my 
decision----
    Mrs. Watson Coleman. Thank you for the correction.
    Secretary Kelly [continuing]. A very informed decision. So, 
what brought me to that decision? A very, very real threat, a 
very sophisticated threat, and not just one, emanating from the 
Middle East to knock down one of our airplanes in flight. There 
are many ways to do that and they try every day.
    Mrs. Watson Coleman. Mr. Secretary, can I just please----
    Secretary Kelly. Sure.
    Mrs. Watson Coleman [continuing]. Interrupt you? Because I 
agree with you, and so I am not questioning----
    Secretary Kelly. I understand.
    Mrs. Watson Coleman [continuing]. That this ban was put 
into place. I just want to know the status of it and the status 
of the expansion of it, but I am not arguing the legitimacy of 
it.
    Secretary Kelly. No, but I just wanted to say this, that--
because believe me, I wrestled with this and the committee 
needs to know that this is a very serious constant threat to 
knock down an airplane.
    So, the intelligence that I can't go into, led me to make a 
decision that there were ten last points of departure, air 
fields, that we thought were most at risk. Didn't have anything 
to do with where they were or what their religions were or all 
of that. It was that those places did not have the ability to 
detect this very sophisticated device among other things.
    So where am I now? We are looking right now at an 
additional 71 airports, last points of departure. But, that 
said, we are also working, and this has stimulated a lot more 
cooperation from our partners overseas.
    We are also looking at ways that we think we can mitigate 
the threat. Not eliminate it, but mitigate it. So in an attempt 
not to be put on the ban list, if you will, many, many 
countries are leaning forward.
    We have had meetings with the European Union, my deputy is 
going out to a large conference in Malta next week to present 
what we think are the minimum increased security standards. So 
whether we, and present those to people and say if you meet 
these standards, we will not ban large electronics in a last-
point-of-departure airfield.
    Now, that said, the other thing I am trying to get my arm 
around, it doesn't fall into my lane but I am working with the 
Transportation Department. There is a lot of talk out there 
that lithium batteries are dangerous, in and of themselves, 
that they just spontaneously burst into flame.
    Some will say eh, not much of a threat. Others will say it 
is a real threat. So, with a lot more electronic devices in the 
cargo compartment----
    Mrs. Watson Coleman. Thank you.
    Secretary Kelly [continuing]. Is that more of a threat? So, 
we are also dealing with that, as well. So, going forward, the 
plan is to say, ``These are the new minimum security things 
that you need to do at your airports. If you do that, then you 
can fly to the United States directly.''
    Mrs. Watson Coleman. Thank you. I wait to be briefed even 
more when we go into our Classified briefings. Thank you for 
that. I also know that our relationships with our European 
allies is very important here, so I look forward to your 
cautioning our President on the kind of tweaks that don't 
necessarily facilitate the collaboration and cooperation we 
should be enjoying.
    There are a lot of problems that I have seen with this 
budget. One of the one that particularly concerns me is the 9 
percent reduction to the Office of Inspector General. I am 
particularly interested in the fact that the I.G. is conducting 
an investigation of allegations of sexual misconduct by the CBP 
officers at the Newark Airport.
    Last month, Ranking Member Thompson and Congressman Payne 
and I sent the CBP a letter asking for some information, some 
update and some additional information with regard to what they 
are doing about this issue.
    To date we have not received any kind of response, not even 
we have received it and we will get back to you. So I am glad 
to hear that you have every intention of responding to every 
Member's questions and queries to your office.
    So I hope that you will go back and look into this. This 
letter is dated originally March 15--I mean May 15. Give us 
some idea as to when we could possibly receive a response.
    But my question beyond that is that I think that given the 
growth that you are proposing in your Department, given these 
issues that are arising and other issues that are arising, how 
do you think the I.G. could continue to do its job to the 
degree that it needs to do it if its budget is cut by 9 
percent?
    Secretary Kelly. Well, they can, you know, everything they 
do, whether I ask them to do it or they come up on their own to 
do it, everything they do, of course, is prioritized.
    As an example, in the case you are talking about in Newark, 
and not presupposing the end result of an investigation, the 
first thing I did when I heard about it was ordered CBP to take 
action up there, not assuming anyone's guilt, just to take some 
action.
    Part of that action was to offer those who were reporting 
the fact that they were hazed in the way that they reported, to 
get them medical help or psychological help. It was counseling.
    So we did those things, and I, you know, and the I.G. was 
right on it. There are probably any number of other things that 
I would like the I.G. to look at or he will decide what to look 
at on his own, but it is always a matter of prioritization and 
obviously with a 9 percent cut we will have to prioritize a 
little better.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you.
    Mr. Secretary, thank you. I do think it is really important 
not only to look at what is happening in Newark, but perhaps 
there could be a problem of this nature at other airports. It 
is something that you all really do need to get on on looking 
into.
    It still gives me pause that the I.G.'s office, that I 
think is such an important function, should suffer this 9 
percent decrease at a time when there are so many competing 
priorities that we are experiencing.
    I have a lot more questions. I mean, I have a real problem 
with what is happening with the VIPER program, but I am out of 
time and I don't want to be gaveled, so I am going to yield 
back to my----
    Chairman McCaul. Very wise----
    Mrs. Watson Coleman [continuing]. Chairman that I yield 
back. Thank you.
    Chairman McCaul [continuing]. Very wise decision.
    [Laughter.]
    Thank you.
    The Chair recognizes Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. First I want to say it is good to 
see you again, and I know our staffs have been working together 
and we have talked about this.
    My first question is about the Douglas port of entry. As 
you know, built in 1933, woefully inadequate, 7.6 million 
people went through last year, 2.2 million cars, $4 billion of 
economic activity. As you know, 90 percent of the hard drugs 
are coming through the ports of entry.
    So where is the modernization of the Douglas port of entry 
on your 5-year plan? We know it is in there, but can we see 
where it might be? Is it going to be next year? Where in that 
5-year plan?
    Then the new commercial port of entry project, I know the 
administration is talking about large infrastructure projects. 
I also want to know whether you are talking to them about 
including ports of entry in infrastructure discussions because 
these are so vital for economic development and also for 
security?
    Secretary Kelly. Congresswoman, so I don't guess on the 
first question, let me take it for the record and I will get 
back to you in writing.
    On the second issue, part of, as I say, I think you--I am 
sure you were here when I took my guidance from the President 
early on about the Southwest Border. Yes, secure it, but have 
it open to legal movement and all.
    There are many places, in fact, all places I would argue 
right now at all the ports of entry we need to improve so that 
we can facilitate faster movement.
    We have some great, innovative things to even speed it up 
more with facial recognition technology, that kind of thing 
working with the Mexicans, and as well as the Canadians in 
terms of how we can pre-clear that kind of thing.
    So yes, I mean, all of the ports of entry need to be 
upgraded actually going both ways, south and north.
    Ms. McSally. Right.
    Secretary Kelly. So I am----
    Ms. McSally. Is this going to be part of the larger 
infrastructure initiative coming from the administration?
    Secretary Kelly. You know, I don't know what they are 
thinking about, but certainly this would be, in my view, part 
of the secure the border initiative that I am dealing with.
    Ms. McSally. OK. Well, I believe it needs to be. I have 
talked to Secretary Chu about it. I would love to maybe follow 
up to make sure that that voice--if we are talking 
infrastructure----
    Secretary Kelly. Right.
    Ms. McSally [continuing]. It is not just roads and bridges, 
which are important, but it is also these ports of entry.
    Secretary Kelly. Absolutely.
    Ms. McSally. OK. Thank you. I want to follow up on the DACA 
issue. You know, while I don't agree with kind-of how it was 
done from roles and responsibilities of the branches of 
Government, the reality is that we are dealing with real 
people.
    These kids who were brought here into the country at no 
fault of their own as children, as you know, and in Arizona 
there are 57,000 of them.
    Because of the program they came forward to the Government. 
They gave their personal information, where they live, their 
biometric data, their fingerprints. They went through a 
background check. They have graduated from high school. They 
have served in the military.
    I agree with you that we need to come up with a legislative 
solution here to address this issue. I would urge our 
colleagues to do that. I think Carlos Curbelo's bill is a good 
place to start and I really think we need to move that forward.
    But in the mean time, uncertainty certainly brings fear to 
my constituents that are in this limbo. Can you assure my 
constituents, who are in this place, until we solve this 
legislatively, that they are going to be protected and that 
they are not having to worry about it?
    Secretary Kelly. As I have said many, many, many times on 
this topic, we are not targeting DACA recipients.
    Ms. McSally. Well, what----
    Secretary Kelly. But that said, I am not going to let you 
off the hook. You have got to solve this problem. A different 
man in this job or woman might have a different view of it. I 
am not going to let the Congress off the hook. You have got to 
solve it. A different person in this job might have a different 
view.
    Ms. McSally. Got it. I agree with you. Again, I want to 
urge our colleagues on both sides of the aisle to deal with 
reality. Forget about ideology or how we got here, but now we 
are dealing with reality and we have got to solve this problem 
based on what is practical and what is compassionate and also 
upholding the rule of law and the precedent. So I appreciate 
that. Thank you, Mr. Secretary.
    I have a bill coming before the floor today related to 
staffing issues, the shortages that you have both in CBP 
officers and Border Patrol. Again, this has nothing to do with 
increases. We have been working with the last administration on 
this.
    You are 1,000 short in the blue suiters and 1,800 short in 
the green suiters. This is impacting, again, lanes being 
closed, security and economy being impacted.
    Can you talk to me about, you know, whether you support our 
bill to fast-track our veterans and those who served honorably 
in law enforcement to give them an opportunity to, you know, to 
get hired quicker?
    Then also assure my colleagues who may be not supporting my 
bill, that you have strong anti-corruption measures in the 
Department that in the hiring process going through a Tier 5 
background check like in SSBI like we went through, but also in 
on the job that there are strong anti-corruption measures to 
make sure that everybody is doing their job correctly?
    Secretary Kelly. Yes, I mean, there are strong anti-
corruption measures. We have internal looks all the time to see 
and, you know, to see if there is any misconduct. Every now and 
again, unfortunately, there is someone will get caught doing 
something, but it is not the one or two that are caught. It is 
the tens of thousands that do their job every day without doing 
anything wrong.
    Ms. McSally. Right.
    Secretary Kelly. But really, anti-corruption starts with 
who you hire. So we have to maintain the standards, vetting, 
and all the rest of it. It is an amazing thing to me that it is 
easier to join the U.S. armed forces than it is to be a CBP or 
an ICE officer.
    Ms. McSally. Right.
    Secretary Kelly. In fact, the vast majority of the people 
in, well, let me say in many, many places that I deal with, 
couldn't qualify, couldn't be vetted to be an officer. So they 
are very, very good people. Occasionally bad ones, but we take 
care of that through the law or through just getting rid of 
them.
    So but I do support anything that would speed up the 
process so long as we don't skimp on the quality and the 
vetting to put more men and women to work for that.
    Ms. McSally. Thank you. We did get a letter of support from 
your Department and also the noncommissioned officers 
association, fraternal order of police and others. Again, this 
is people who have already been vetted----
    Secretary Kelly. Yep.
    Ms. McSally [continuing]. Who are going to have to go 
through background check as well. So I appreciate that.
    Thanks, Mr. Secretary.
    Chairman McCaul. The Chair recognizes Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Good afternoon, Mr. Secretary. On March 7 I sent a letter 
to you and the Department asking for information about several 
provisions of the President's Executive Order, otherwise known 
as the travel ban.
    I have yet to get a response. It was about a specific 
provision within the E.O. that was not subjected to the TRO 
issued by the court. So I don't think there is an impediment in 
that regard.
    Now, I say this without criticism. I am just--but with a 
deep appreciation for how incredibly busy you are. Now, fast 
forward I have subsequently sent a letter requesting similar 
information, obviously of an agency information, to OPM 
regarding cybersecurity and how we hire cybersecurity experts.
    I was specifically told by OPM that the new policy is that 
the agency is no longer going to respond to individual requests 
by individual Congress Members but only by Chairman or 
Chairwoman of committees.
    What I am asking--now, I am dealing with that, trying to 
figure that out. They have said that that is the new policy and 
I am asking you if that is the policy of Homeland Security as 
well?
    Secretary Kelly. We have discretion so it is not the 
policy. As I say many, many times, I will answer as fast as I 
can any question, so long as it is not pre-decisional. My 
legislative affairs guy is right behind me here.
    I am a little bit angry the fact that you wrote a letter 
that you haven't received a response back to. So how about by 
Friday latest I will answer that? I will answer your original 
letter and----
    Miss Rice. Well, I----
    Secretary Kelly [continuing]. I apologize.
    Miss Rice [continuing]. Appreciate that. No, no, no. As I 
said, without criticism. It is with total understanding of how 
incredibly busy you are, but I just wanted to get the answers 
to whether or not you agree with OPM or you have the same kind 
of policy with----
    Secretary Kelly. I believe I have discretion to deal with 
the U.S. Congress in a legal way and my thinking on that is to 
lean forward and do the best I can to keep you all informed.
    Miss Rice. But that is me as a lowly Member, not as a 
Chairwoman, right?
    Secretary Kelly. That is you as a lowly Member.
    Miss Rice. OK, great. Thank you. I appreciate that.
    Mr. Chairman, correct me if I am wrong, but it was about 2 
weeks ago, Mr. Secretary, that we spent some time with the 
police commissioner of the New York City Police Department and 
the Manhattan D.A.
    Secretary Kelly. Jimmy O'Neill.
    Miss Rice. Jimmy O'Neill, great guy--great guy. He 
specifically spoke about the UASI funding. The Chairman and he 
is not here now, but Congressman King were there as well.
    I just ask--I mean, look, New York City is under a 
different responsibility because we have got to protect the 
First Family and that is coming with no help from the Federal 
Government. I am hoping that that is going to change.
    Secretary Kelly. There is. That has changed.
    Miss Rice. That has changed? OK, great. But losing the UASI 
funding would result in--and this is according to Commissioner 
O'Neill, they would have to cut 600 officers who play a vital 
role in protecting New York City. That is including Trump 
Tower.
    So just I am making a pitch for you to advocate with us. It 
would help for you, and I don't know if you don't think that 
this is your position, but I think that you are uniquely 
qualified to advocate for maintaining, if not increasing, those 
levels as opposed to cutting them, No. 1.
    I also just want to throw in that the nonprofit security 
grant program that falls under UASI is more important than 
ever, given the hundreds of Jewish community centers, the JCCs 
and synagogues that were threatened around the country. I have 
one of the largest Jewish communities in the country.
    So I would just--and obviously UASI is cut then that is 
probably going to go as well. So I would just throw in a pitch 
for that and for your advocacy on that issue as well.
    A quick question on border apprehensions. They are at an 
all-time low, but we have also now recently seen a spike in 
people being deported who have zero criminal records. It 
appears that this administration has done away with enforcement 
prioritization for ICE, which vastly expands the number of 
individuals that are priorities for removal.
    I just want to ask you does ICE have a goal for the number 
of deportations this year, No. 1? No. 2, of the approximately 
75 percent of ICE arrests that have prioritized criminals, 
``criminals,'' how many have been at annual check-ins for 
individuals under orders of supervision with status-based 
offenses?
    Otherwise, people who have maybe had a minor infraction but 
are complying with the court-ordered requirements, law 
enforcement requirements? What percentage of the 75 percent are 
those people?
    Secretary Kelly. I will do this as quick as I can. I would 
ask the Chairman for a little bit of time to go over the 
Congresswoman's time here. As far as ICE goes, ICE is working. 
They have no quotas. They are limited only by the number of 
officers that they go to work every day and they go to work 
every day and work hard.
    They are focusing, as I have mentioned so many times, on 
people who are here illegally and are criminals. Now, criminals 
are--that is a relative term, but are criminals.
    Now, some individuals will--you know, illegal individuals 
will fall into their hands as an example, if they go to a 
house, knock on the door, there are five people there. One is 
the guy they are after and two others are illegal. They will 
take them into custody. They put them in the process. They are 
usually out in an hour or two.
    Then they are into the process which is, obviously, 
oftentimes very lengthy until they get either deported or 
allowed to stay here. So that is one group. That is what ICE 
does.
    The other group would be CBP picks someone up on the 
border, as an example. They are illegal. Turn them over to ICE. 
ICE then processes and then they go into a process.
    Kind of the stories you hear that someone was here for 8 
years, hasn't done anything wrong and all of that, and then has 
an order to be deported, that is done by the immigration 
judges/Justice Department, immigration judges in Federal court.
    So I was just looking at one the other day. You know, it 
was a 16-year-long process. Yes, he was here 16 years, but at 
the end of the process a judge says you are going back to where 
you came from.
    We have no discretion. Even if I had discretion, if you 
have gone through the law, the lawful process that this 
institution has passed, and at the end of that process a 
Federal judge or an immigration or whoever judge says you are 
out of all your appeals, this is years-long, you are out of all 
your appeals. You have to go home. Then ICE takes them into 
custody and deports them. So that is two.
    The second category, those people may never have done 
anything wrong, but they went through the entire process and 
the judge says deport them, and we can't ignore that. It is a 
Federal judge or an immigration judge. So that is the two 
categories of people.
    ICE is looking for people who are here illegally and are 
criminals. That is their priority. They have no quota.
    Miss Rice. OK. Thank you for that answer.
    Mr. Chairman, just 30 seconds, your indulgence? Just going 
back to the UASI thing, I can't accept that this money is just 
to bring people up here and then we are leaving them in the 
lurch. New York City is one of the highest-taxed States in the 
country, and what I hope from a law enforcement perspective is 
we want to encourage agencies like the NYPD, which are under 
constant, constant pressure, as you pointed out, New York City 
being one of the biggest targets, to always have the best 
technology and, you know, staying one step ahead and foiling 
all of these innumerable plots that they have.
    The Federal Government cannot be saying to these States and 
these law enforcement agencies that you are on your own. We 
just can't do that. This is a bipartisan--I mean, it is a 
multi-governmental investment, I think, that we need to make.
    I hope that the Chairman agrees with me. Thank you very 
much for your indulgence.
    Thank you very much, Mr. Secretary.
    Secretary Kelly. All right. It wasn't on. They are by no 
means on their own. They are not in the lurch. They are very--
particularly a place like New York, they are very, very good at 
what they do. We are still funding to a very, very high level 
there.
    So it is----
    Miss Rice. They are good with the Federal Government's help 
for sure. Thank you.
    Chairman McCaul. Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman.
    Mr. Secretary, very good to see you again, and I 
particularly appreciate--I want to mention again your comments 
last night at the tribute to the U.S. Coast Guard. Your clear 
support for the United States Coast Guard and the work that the 
men and women there do. I really appreciate that.
    Secretary Kelly. Thank you.
    Mr. Rutherford. Particularly because I represent the Port 
of Jacksonville, Florida, northeast Florida, which we had 8.2 
million tons of cargo last year. It is one of only 16 on-call 
U.S. ports authorized to move military cargo in support of our 
National security operations. So I am very attuned to their 
needs.
    Really like many Members who represent ports, we have great 
concern that, you know, these ports actually become the Trojan 
Horse, if you will, to our National security.
    I want to ask you about the 20 percent cut to the Science 
and Technology Directorate, which will eliminate the chemical 
and cargo security projects and yet on the other side I see 
where, you know, we are putting $109 million into nonintrusive 
inspection equipment for marine facilities.
    I will--I want to make this comparison between our 
capabilities for detection at ports and airports. The same kind 
of concern where we see this development of technology by those 
who wish to kill us.
    The same evolutions that we see on laptops, for example, 
you know, we can see in ports. I just wonder why we are cutting 
20 percent in our science and technology?
    Secretary Kelly. Well, as they looked at it, and obviously 
it is a work in progress, Congressman, but as they looked at it 
there are, we believe, other laboratories developing 
technologies that we can plug into, whether they are, you know, 
kind of Government laboratories or, frankly, many of the 
solutions, as you know, comes from the commercial sector who 
come in and say this is a great new idea, a great new widget. 
We can simply purchase it.
    So the idea is that we would rely on, again, other 
laboratories doing similar work. So we have cut out the 
redundancy.
    As far as the ports go, for sure we can't take our eye off 
of that. Mostly because of contraband that comes in. I have 
been down to Port of Miami and a few other places. I have got 
to get down to Jacksonville. I used to live down there. It is a 
great community.
    See, but there actually it is pretty sophisticated as you 
know, not just the technology that looks into these containers, 
but why specific containers are taken aside.
    This goes to the issue of intelligence collection, not only 
here in the United States but down in with our partners. The 
patterns through which that particular container may have moved 
or until it made----
    Mr. Rutherford. Right.
    Secretary Kelly [continuing]. The Jacksonville. So they are 
actually pretty good at that.
    But it is mostly contraband, drugs or whatever that come 
through that way. The destructive-type efforts by the 
terrorists, unless they have got an atomic bomb or an ability 
to make a dirty bomb, which, you know, knock wood right now we 
are confident they don't have that right now.
    But the smaller devices to get on an airplane and blow it 
down, it takes a tiny amount of explosive in the right place to 
do that. So but I share your concerns about the ports.
    Mr. Rutherford. OK. Look, I know that you are committed to 
technology. I see where we are making some emphasis on the Rio 
Grande Valley. I am really glad to see that.
    A small number of us had an opportunity to travel the 
Southern Border and I tell you, what is going on at Fort 
Huachuca with the big pipe and the technology and the 
organization that is going on there is incredible.
    If you can reproduce that over the Rio Grande Valley, I 
think you will really see some great benefits.
    Secretary Kelly. Sure.
    Mr. Rutherford. What concerns me when we talk about a wall, 
you know, I like to let folks know, look, it is not a barrier. 
It is just an impediment. When that breach occurs, and it will 
because they are going to go over, around, through, you know, 
then we have to have the resources, the staff to respond to 
that and capture these folks before they infuse into the 
country.
    Can you talk briefly about how you intend to bring on those 
roughly 6,000 CBP members that we are going to need? You know, 
when you have a hiring process that was 460 days for 
processing? Can you talk a little bit about that?
    Secretary Kelly. Yes, I mean, that is the most ridiculous 
thing I ever heard, 460 days to hire people, many of whom are 
coming out of law enforcement or the military. I mean, the best 
people on the planet.
    That, I am told now, we have that process down and we are 
moving it down every day down to less than 200 days I think 
down in the 150-day.
    Mr. Rutherford. OK.
    Secretary Kelly. We think we can get it down into the kind-
of 60-, 90-day, and it takes that long for background checks 
and all that kind of thing. We will maintain the quality of the 
human material that comes in and we will maintain the training. 
I am not going to skimp on that. That is a huge mistake when 
you do those kind of things.
    Mr. Rutherford. Exactly.
    Secretary Kelly. The U.S. military I could give you chapter 
and verse how many times in the past we grew too fast and then 
suffered consequences because we lowered the quality.
    So we will get to whatever number we can as fast as we can, 
but never skimping on quality and training. I told them all I 
would fire them if they did either one of those two things.
    That applies to hiring of the ICE personnel as well.
    Mr. Rutherford. Thank you, Mr. Secretary, and----
    Chairman McCaul. The gentleman's time has expired.
    Mr. Rutherford [continuing]. I yield back.
    Chairman McCaul. We have about 30 minutes left and we have 
six members. If we could do it 5 minutes each we can be on 
time.
    Mr. Correa is recognized.
    Mr. Correa. Thank you, Mr. Chair. Thank you, Mr. Chairman 
McCaul and Ranking Member Thompson for holding this information 
hearing.
    Secretary Kelly, I want to thank you very much for your 
commitment to keeping our citizens safe in this country. Your, 
of course your service to our country. Thank you, sir.
    Very quickly talking about cybersecurity, I am pleased to 
see that $971 million has been requested by the President for 
cybersecurity. I am one of the believers that the best defense 
is a good offense, and we do have to build up our cybersecurity 
capabilities as we have all learned recently.
    That is why I will be introducing a bill today that will 
call on Department of Defense to update its cyber strategy and 
require the administration to draft the strategy for offensive 
cybersecurity capabilities, and of course, to authorize the 
expansion of our internet cyber cooperation with our NATO 
allies.
    Given all of this activity in cyber, where do you think 
there is a challenge? Will we have a challenge in staffing up 
trained individuals that can deal with cybersecurity?
    Secretary Kelly. Well, the challenge, of course, as you 
know this, Congressman, you are so very aware of it and up on 
the topic, the challenge is the enemy, the bad guys. You know, 
we deal with them, as you well know, with nation-states, 
terrorist organizations and just, you know, just vandals, if 
you will, that just enjoy doing these kind of things.
    I would offer to you very quickly that in the malware case 
of a few weeks ago, we saw that develop. We, DHS, saw that 
developing in Europe and very quickly the U.S. Government went 
to general quarters, if you will, on it.
    That was really amazing to me to sit in the sit-room with 
NSA, FBI, and dozens of other people on the phone, to include 
my own cyber warriors. It was really not only DHS, but DHS in 
the lead to defend our shores from that, excuse me, attack.
    When you consider and we watched it spread Europe, Middle 
East, all the way out to Asia, hundreds of thousands of systems 
contaminated, and DHS, along with all the other efforts by the 
U.S. Government in the cyber world, managed to keep that 
threat, that infection, overseas with the exception of eight, I 
believe, machines.
    An amazing thing, but that said, we can't rest because they 
are at it every day. So the great news is we have NSA out there 
fighting the away game in terms of cyber and at home here we 
have some great folks, FBI, and not DHS for sure, and not to 
mention our collaboration, our partnership with the public 
sector and the help we get from Microsoft, excuse me, Microsoft 
and others.
    So it is pretty good news, but we can't rest on our 
laurels. You are going to----
    Mr. Correa. Mr. Secretary, look forward to working with you 
to see how we are going to be bringing in fresh recruits, 
cyber-trained----
    Secretary Kelly. Yes.
    Mr. Correa [continuing]. Warriors, so to speak, to help us 
in this effort because we are going to be pumping a lot of 
resources into this effort. Just want to make sure that is not 
our bottleneck.
    Secretary Kelly. Right.
    Mr. Correa. If I may shift very quickly to the border, 
border security. As many of my colleagues have stated, we do 
have a limited treasury, so to speak.
    Not to repeat what has already been said here today, but in 
my trip to San Ysidro recently, a lot of your folks are telling 
me, like one of my learned collages said here, the vast 
majority of drugs, human trade, happens with vehicles, through 
vehicles, ports of entry.
    Coast Guard commandant here a few weeks back said that they 
were lacking resources. The commandant testified that last year 
he identified 580 targets that they knew were carrying drugs 
into the United States but could not interdict them because, in 
fact, they lacked the resources.
    Then you look at most of the cocaine, of course, 90 percent 
of it comes in through ships. There appears to be an emerging 
trend now that a lot of the drugs are beginning to go through 
Canada, easier ports to come in and then go south.
    Then many of my colleagues said today funding for local 
funding, Federal local funding of republic safety officers. I 
had a local police chief that approached me this last week 
saying, ``Lou, you have got to do something about this. We rely 
on those Federal grants to secure our communities, to make sure 
that we are working with the Feds to stop many of those, you 
know, locally grown threats.''
    So all of these, you know, factoids out there, limited 
treasury, can we still look at a border wall as being the best 
place to invest our resources to protect our citizens?
    Secretary Kelly. The border barrier is a place to--I mean, 
this is a multi-faceted problem. It starts, frankly, once 
again, with drug demand in the United States. We don't do 
anything about it. But if we were to reduce that that would 
reduce many of the problems we are dealing with here.
    But the border barrier, backed up by technology and people, 
is only one part of the solution. But I would offer to you, 
sir, that once the drugs get into Mexico it--and they are 
broken down into smaller--well, a better way to put it.
    Once they get to within a few hundred miles of the 
Southwest Border in Mexico, the cartels break them down into 
really, really relatively small amounts. Then the defenses on 
the border, the ports of entry, are overwhelmed with thousands 
of cars, perhaps, and trucks where this stuff is carried.
    If you look further south, and we are doing that, I mean, 
last year with all of our cocaine consumption comes from is 
Colombia. Our No. 1 partners in the hemisphere. They get 417 
tons of cocaine before it ever left their country and destroyed 
4,000 drug labs before it ever came, you know, produced 
cocaine.
    Then the United States Coast--well, a better way to put it, 
the U.S. military effort got, I think last year, 217 tons in 
the flow. Various partners, Panama, Costa Rica, Honduras got, 
you know, 15, 18, 25 tons apiece.
    Once it gets into the United States, the entire law 
enforcement effort to go after cocaine, and I will use that 
example, that is 1 million law enforcement professionals, they 
only get 10 tons. So once it gets in or close to the border, if 
we are only relying on that, which we are not, if we are only 
relying on that we have lost.
    That is why effort is down south. Now, what the Coast Guard 
commandant will tell you is, yes, when I was in SOUTHCOM I had 
an incredible--and we do today--have an incredible clear 
picture of the movement. I will use cocaine as the example.
    But it takes ships to interdict them, so if we were to 
interdict--you know, for every ship you send down there, which 
is a Coast Guard cutter or Navy ship and we haven't seen a Navy 
ship down there in 2 years, for every ship that goes down there 
we can tell you how much cocaine that will take out of the 
flow.
    Heroin is a different story, methamphetamines are a 
different story, but that is a great partnership with the 
Mexicans. They are getting after the poppy production, and they 
are getting after the heroin production. We help them with 
that. We don't help them on the ground. We help them find it, 
and methamphetamine as well.
    Just a couple months ago they found one. We helped them 
find the other one--huge methamphetamine labs that they 
destroyed. So that is where really that you take the lion's 
share of this flow in the tonnages. But once it is on--close to 
the Southwest Border then it is in.
    Chairman McCaul. The gentleman's----
    Mr. Correa. I yield, Mr. Chair.
    Chairman McCaul [continuing]. Time has expired.
    Mr. Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you again. If there is one thing 
that keeps me awake at night it is the Visa Waiver program. 
Every visa decision we make is a National security decision. 
There are currently 38 countries on the waiver program, 
initiated back in the 1980's with the United Kingdom, I 
believe.
    I believe we had about 19 million travelers just last year 
alone on the program. To a sense its inclusion is decided by a 
number of factors, including the human development index.
    We live in a very different world now in 2017 from a 
National security standpoint than existed back in the 1980's 
and 1990's as the program has continued to expand. 
Unfortunately, terrorism is no longer a regional threat. It is 
a global threat.
    There are a lot of very good people that live in really 
tough places and there are also a lot of really bad people that 
live in really nice places like Paris and Munich and Copenhagen 
and Brussels and the like. Do you think it is time that we need 
to rethink our participation in that program as a Nation, given 
the threats that we face in 2017?
    Secretary Kelly. I think, Congressman, it makes sense to 
upgrade what we are doing. The good news is in all of those 
countries, as you know, they have police and backgrounds and 
background checks and databases and all that. By the way, I 
think I said earlier, I don't know if you were here, that 
because of things that have happened in Europe recently and my 
move to ban large electronics in the passenger compartments of 
airplanes, have got them really enthusiastic about increasing 
their cooperation in coming up to the U.S. standards.
    Some of them are already there. Many of the visa waiver 
countries are there. In fact, they are basic--that we use the 
same kind of criteria. But there are, as you know, we are 
pretty strict about visa waiver. I mean, even our great partner 
Israel, as good as they are at what they do, cannot qualify. 
There are other European countries as well.
    But it is worth looking at it for sure. The one thing about 
the Visa Waiver program if a terrorist was able to get on a, 
you know, a U.S.-bound aircraft, we still have very, very good 
procedures to ensure--not guarantee--but to ensure that that 
individual is not carrying a bomb or a gun.
    So when he gets to the United States he is now in the 
United States without a bomb or a gun. As you know, I think we 
are very, very good, particularly our great FBI and law 
enforcement people. We have got networks such as they are, 
under control--that doesn't take away the lone-wolfers now.
    So we are in good shape but it is worth looking at it, and 
we are going to look at it. I have my No. 2 going out to Malta 
next week for a very large conference on this issue, to include 
the electronics ban that I implemented in 10 airports.
    So I am with you, though, on the concern.
    Mr. Fitzpatrick. Thank you, Mr. Secretary. If there is 
anything this committee can do to assist please let us know 
because it's very important.
    Secretary Kelly. I will.
    Mr. Fitzpatrick. I have 2 minutes left here. It is good 
that we are increasing the budget for DHS this year. That is 
definitely needed. It is being drawn back in a couple of areas 
that are concerning, as was mentioned here, FEMA and also the 
OIG. OIG, I think for every dollar spent that is going to 
result in a cost savings.
    If we can expand its scope, if we can expand its numbers, 
expand its budget, since its mission is to cut back on fraud, 
waste, and abuse, ultimately I believe that will streamline and 
save money. So to the extent that you could advocate for that, 
I think that would be a good idea.
    Secretary Kelly. Yes, sir.
    Mr. Fitzpatrick. I yield back.
    Chairman McCaul. The gentleman yields back.
    Mrs. Demings from Florida.
    Mrs. Demings. Thank you so much, Mr. Chairman and Mr. 
Secretary it is good to see you again. During 9/11 I was 
assigned to the Orlando International Airport as a police 
captain. I was also the vice president of the International 
Association of Airport and Seaport Police.
    So I had an opportunity to work with law enforcement all 
over the world, our Federal partners, airport authorities, to 
restore trust and assure the safety of the traveling public.
    In other words, Secretary Kelly, as you know, we have come 
a long way in this country. It would be a shame if we allowed 
ourselves to go back.
    We had, as you know, recently the shooting in Fort 
Lauderdale. Also had an incident in Los Angeles, and I think 
there is no greater time when we need law enforcement presence 
in our airports. However, in President Trump's budget he 
proposes a cut to the LEO Reimbursement program, which would 
take law enforcement officers away from our exit lanes and 
other places.
    How would you, working with the TSA, guarantee that there 
is really not a diminish in law enforcement presence in our 
airports?
    Secretary Kelly. Well, the actual expectation is that--
well, let me back up and say every time I talk about doing 
something security-wise in airports, I immediately get calls 
from mayors and the airport industry to say, hey, don't do that 
because this airport generates unbelievable amounts of money 
for this community, this city, whatever.
    So that is----
    Mrs. Demings. I remember those days, but 9/11 kind-of 
changed that response, too. It is a shame we are kind-of going 
back to that concern, but----
    Secretary Kelly. But that said, as you know, the TSA not 
really a law enforcement organization, no arrest and all of 
that. Clearly that is a State and local responsibility and we 
have taken--I would say TSA, because they are not law 
enforcement and a lot of other reasons, have taken on things in 
the airports that are probably inappropriate for them.
    I don't believe TSA should be made law enforcement. They do 
a very, very good job at what they do. So the idea is that 
where we can't secure doors and things like that, then the 
expectation would be that the local law enforcement would take 
that responsibility.
    Because ultimately they, in fact, have the law enforcement 
responsibility in the building or on the facility.
    Mrs. Demings. So then resources would not be available 
though to supplement funding for those officers and you would 
ask local jurisdictions to assume that within their budgets?
    Secretary Kelly. That is where we are at now.
    Mrs. Demings. OK. I know you have heard this term many 
times. I have to say it again, especially being from Orlando, 
regarding the UASI funding. As you know, Orlando now has the 
unfortunate distinction of being home to the deadliest mass 
shooting. We are almost at the 1-year mark, where, you know, a 
lone-wolf terrorist walked into a nightclub, killed 49 people 
and injured many, many more.
    Law enforcement under the circumstances I think did an 
unbelievable job on that night, but we know that they are also 
responsible for the 1.2 million residents who live in their 
community, as well as 68 million people who visit Orange County 
every year.
    So could you--and of course Orlando is not on the list to 
receive funding. So could you, Secretary Kelly, talk a little 
bit about the methodology? What are some of the things that you 
look at?
    It is a little bit confusing that at a place that is so 
responsible for so many people with the deadliest mass 
shooting, it is not on that list. So could you talk a little 
bit about the methodology?
    Secretary Kelly. I think you know this. The way we 
determine the risk is it is a Congressional program and then 
DHS/FEMA plug in various factors and then that comes out with 
what municipalities are considered to be higher risk and lower 
risk.
    So when we did that this year, and it has to do with 
population and a lot of other things, DOD facilities, critical 
infrastructure, and all of that goes into the formula as set by 
the Congress. Orlando didn't come out high enough to get 
funding.
    Mrs. Demings. I know that the administration----
    Secretary Kelly. The----
    Mrs. Demings [continuing]. Is also looking at a cost 
sharing of 25 percent I believe.
    Secretary Kelly. Right.
    Mrs. Demings. If a jurisdiction is unable to meet that 
amount that is on the list, will those funds be reallocated? If 
so, what is the formula for that?
    Secretary Kelly. Yes. I think if the expectation is they 
will be able to meet it. It is an important thing. Twenty-five 
percent doesn't seem like an unreasonable amount for----
    Mrs. Demings. But if for some reason they were not able to 
meet----
    Secretary Kelly. Then that would be their decision.
    Mrs. Demings. Would those funds be reallocated to another 
jurisdiction?
    Secretary Kelly. You mean all of the funds, the 75 percent?
    Mrs. Demings. Would another city then move up to be on that 
list?
    Secretary Kelly. That is not the way. I don't believe--I 
will get back to you. I don't believe that is the way it works.
    Mrs. Demings. OK. Thank you.
    Thank you so much, Mr. Chairman.
    Chairman McCaul. The gentlelady yields back.
    Mrs. Demings. I yield back.
    Chairman McCaul. Mr. Higgins is recognized.
    I am sorry. Mr. Garrett is recognized.
    Mr. Garrett. Thank you, Mr. Chairman.
    Thank you, Secretary Kelly, for your indulgence. I will 
tell you that some of these questions might seem really easy, 
and it might be because they are. So I would start off by 
querying whether $44.1 billion is greater than $42.4 billion?
    Secretary Kelly. It is.
    Mr. Garrett. OK. So would it be reasonable to suggest 
anyone decrying a massive slashing of the Homeland Security 
budget as being hyperbolic, if not maybe even more sort of 
Chicken Little-ish, if I were to suggest that?
    Secretary Kelly. No.
    Mr. Garrett. OK. So what we have actually seen with this 
budget is a reappropriation of homeland security dollars, 
correct?
    Secretary Kelly. Right.
    Mr. Garrett. In fact, that reappropriation was done with 
the intent of securing to the best of our ability with finite 
resources the homeland within the purview and scope of this 
particular portion of the budget?
    Secretary Kelly. Yes, it was the intent.
    Mr. Garrett. Yes, sir. Let me ask you another question that 
might seem easy. It seemed so to me. Is securing our Southwest 
Border important to homeland security?
    Secretary Kelly. It is very important, yes.
    Mr. Garrett. OK. Is building a barrier in areas where it is 
practicable and where there are terrain or remoteness 
situations that cause it to be unnecessary, important to 
securing our Southwest Border?
    Secretary Kelly. Barriers, physical barriers backed up by 
people and technology are critically important to secure the 
border.
    Mr. Garrett. Yes, sir. So generally speaking, and I 
understand this is a broad, generalization, is it easier to 
stop attackers--let us use the paradigm that you described with 
cocaine seizures on the side of production versus inside the 
United States versus man hours, manpower and dollars spent, is 
it easier to stop would-be evildoers prior to entering the 
country or after they are already in the country?
    Secretary Kelly. Prior to entering is the way to do it.
    Mr. Garrett. So that might be a reason that someone might 
prioritize securing our borders?
    Secretary Kelly. That is one of the prime reasons, yes.
    Mr. Garrett. OK. Changing the subject, somewhat 
tangentially, but I think certainly related, do you--and I 
don't know the answer to this one for a change. do you know if 
operator license, driver's license applicants are screened 
against the TSDB?
    Secretary Kelly. I would have to take that for the record 
right now.
    Mr. Garrett. I would love for you to.
    Secretary Kelly. I believe so, but let me take it for you.
    Mr. Garrett. Well, if you could that will be wonderful and 
greatly appreciated. I think it is a relevant question because 
I think then the next question comes if we use the TSDB against 
operator's license, driver's license applicants, and not 
against but to screen, right--name, date of birth, Social 
Security number, is that also done in States that issue 
operator's licenses to undocumented immigrants, that is 
resident permits, et cetera?
    Secretary Kelly. I would have to get back to you, sir.
    Mr. Garrett. OK. And----
    Secretary Kelly. But I will get back to you.
    Mr. Garrett. I am not trying to make you look bad.
    Secretary Kelly. No, sir. These are----
    Mr. Garrett. I think----
    Secretary Kelly [continuing]. These are way down in the 
guts of the Department, but----
    Mr. Garrett. Yes, sir, and I concede that on the front end. 
I always wonder what we can do in this body to help you do what 
I believe you at your word are trying to do. I am walking down 
that road here a little bit.
    Are you familiar with the IAFIS, the Integrated Automated 
Fingerprint Identification System?
    Secretary Kelly. I am.
    Mr. Garrett. Are you familiar with the fact that the vast 
bulk of data gathered through the Integrated Automated 
Fingerprint Identification System is submitted to the FBI 
voluntarily?
    Secretary Kelly. Yes.
    Mr. Garrett. OK. Do you know or could you have someone get 
back to us on whether States or cities or States that exercise 
sanctuary policies actually collect and voluntarily submit 
fingerprint data on individuals they believe to not be here as 
legal residents?
    Secretary Kelly. I will get back to you, but I doubt it. I 
very much doubt that the----
    Mr. Garrett. Wouldn't that----
    Secretary Kelly. I mean the cooperation is pretty poor when 
they get into this sanctuary city thing.
    Mr. Garrett. So might it not put our Nation at risk if we 
have a locality that decides not to submit fingerprints on 
identified criminal suspects or theoretically criminals because 
they choose not to voluntarily coordinate with the FBI's 
fingerprint system?
    Secretary Kelly. There is no doubt, Congressman, that the 
more we have in the data base the better we are in terms of 
identifying bad actors, whether they are terrorists or 
criminals.
    Mr. Garrett. That would be my next question, and that is 
the bad actors that we catch might not just be habitual drunk 
drivers who certainly have the ability to impact horror, but 
potentially foreign extremists, terrorist elements as well.
    Secretary Kelly. No doubt.
    Mr. Garrett. OK. I have got 38 seconds. Let's see what we 
can do. On cyber defense, do you know how many different 
government entities play a role, ballpark?
    Secretary Kelly. A large number, but it is I think you know 
in terms of the non-defense, non-intelligence kind of effort, 
DHS is the overall coordinator within the Government.
    Mr. Garrett. Yes, sir. Which is why I am asking you for 
your reassurances that the coordination between these entities 
is important. Obviously you are well-aware that prior to 9/11 
one of the problems that we learned of afterwards was that we 
had some intelligence but the left hand wasn't talking to the 
right.
    Will you assure me that you are doing everything you can to 
make sure that that information is cross-channeled on cyber and 
that we are also coordinating with the private sector and that 
is----
    Secretary Kelly. Absolutely. As I just described briefly, 
when I saw that when I was in the situation room watching the 
spread of that malware, it was amazing. It was really 
comforting to me at how many people in our Government were all 
coordinating and had been from the minute they detected the 
fact that there was a, you know, an attack.
    Mr. Garrett. Thank you so much.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you, sir. That was a real success.
    Secretary Kelly. It was really something to watch, yes.
    Chairman McCaul. I mean, I was very proud.
    Secretary Kelly. I had no idea we were that good.
    [Laughter.]
    Secretary Kelly. I mean collectively, all of us.
    Chairman McCaul. Getting better.
    Secretary Kelly. Yes.
    Chairman McCaul. Ms. Barragan from California.
    Ms. Barragan. Thank you, Mr. Chairman. I would like to ask 
for unanimous consent to enter into the record a letter from 
the American Association of Port Authorities expressing their 
priorities, such as addressing CBP sea port staffing issues and 
fully funding port security grants crafted by security 
committee, of which the Port of Los Angeles is part of and 
which I am proud to represent.
    Chairman McCaul. Without objection so ordered.
    [The information follows:]
        Letter From the American Association of Port Authorities
                                    August 2, 2016.
The Honorable Duncan Hunter,
Chairman, c/o John Rayfield, House Committee on Transportation and 
        Infrastructure, Subcommittee on Coast Guard and Maritime 
        Transportation, 223 Cannon House Office Building, Washington, 
        DC 20515.
The Honorable John Garamendi,
Ranking Member, c/o Dave Janson, House Committee on Transportation and 
        Infrastructure, Subcommittee on Coast Guard and Maritime 
        Transportation, 2438 Rayburn House Office Building, Washington, 
        DC 20515.
The Honorable Martha McSally,
Chairwoman, c/o Paul Anstine, House Committee on Homeland Security, 
        Subcommittee on Border and Maritime Security, 1029 Longworth 
        House Office Building, Washington, DC 20515.
The Honorable Filemon Vela,
Ranking Member, c/o Alison Northrop, House Committee on Homeland 
        Security, Subcommittee on Border and Maritime Security, 437 
        Cannon House Office Building, Washington, DC 20515.
    Dear Chairmen Hunter and McSally and Ranking Members Garamendi and 
Vela: Thank you for the opportunity to provide your committees with 
follow-up port security funding and policy recommendations from the 
July 7 joint hearing titled An Examination ofthe Maritime Nuclear 
Smuggling Threat and Other Port Security and Smuggling Risks in the 
U.S.
    Security is based on partnerships, information sharing and 
leveraging existing resources. We believe that enacting and engaging on 
the AAPA recommendations outlined in this document will make our ports 
and communities more secure and efficient.
    During the hearing, Ranking Member John Garamendi requested follow-
up information on specific port security policy and funding resource 
needs and challenges. The following are recommendations from the 
American Association of Port Authorities' (AAPA) Security Committee:
                        fbi classified briefings
    Security leadership must have access to complete and timely 
information that could impact their threat environment and help drive 
operational decision making for port security assets as well as 
influence strategic security program development. Ports are critical 
infrastructure, vital components to our National economy and local 
communities. Because of their importance both Nationally and locally, 
ports have long been identified as potential targets. Through the Port 
Security Grant Program and First Responder programs, ports have an 
excellent and proactive relationship with local law enforcement. 
However, with potential threats emanating overseas, ports and their 
security leadership need to be cued into the National security 
apparatus.
Recommendations
    Security Clearance.--AAPA recommends that Port Security Directors 
and Port Directors be processed and awarded a Secret-level security 
clearance by the Department of Homeland Security (OHS).
    FBI Classified Briefings.--AAPA recommends that Port Security 
Directors and Port Directors be included in monthly Classified 
briefings currently provided to local and State law enforcement 
agencies.
                         cbp staffing resources
    Dedicated CBP staffing at our Nation's seaports is a top priority. 
CBP is a partner of the port and is the first step for our freight 
network and the first wall for the security of our community and supply 
chain. The dwindling resources for CBP maritime staffing is both 
troubling and dangerous. Our Nation's seaports handle more than 11 
million maritime imported containers of all sizes and over 11 million 
international passengers each year. In fiscal year 2015, when CBP was 
funded to hire 2,000 staff, fewer than 20 officers were assigned to 
seaports. We cannot let this disproportionate approach to security 
continue.
    As CSP Commissioner Todd Owen testified at the July 7 hearing and 
communicated to the AAPA Security Committee, CSP is well aware of these 
staffing shortages and has sophisticated staffing charts that would 
place available CSP staff at maritime facilitates once resources and 
directives are put in place. While the 559 program has been helpful for 
ports to secure CSP staffing resources, it is not a long-term solution. 
AAPA has concerns about the approach of ports having to rent an officer 
if resources are not available for their region. This sets up an uneven 
playing field in which some ports have their needs met with Federal 
resources, while other ports must pay for CSP services.
Recommendations
    Directive language identifying maritime CSP staffing needs as a 
priority should be included in the end-of-year CR or omnibus. Sending a 
strong message and directive would begin the process to rebuild the CSP 
maritime staffing shortage in the near-term.
    While CSP maritime staffing is an immediate priority, long-term CSP 
hiring practices and retention will be an on-going issue. CSP has 
continued to encounter challenges in fulfilling and maintaining its 
staffing levels, even with the resources that Congress has provided. A 
dedicated hearing to examine CSP hiring practices and criteria would 
allow greater insight on how CSP staffing decisions are made at 
headquarters.
       operations and equipment guidelines between ports and cbp
    CSP and ports are partners in security and efficiency. Neither can 
be accomplished if the relationship is predicated on a constant state 
of negotiation. Increasingly, ports are reporting overly complicated 
and sometimes contentious negotiations with local CSP on funding 
operational responsibilities and equipment. CBP responsibilities for 
Federal mandates must be clarified and enforced on the local level if 
we are to maintain a high level of National security. CBP and ports 
rely on Radiation Portal Monitors, or RPMs, to detect dirty bombs in 
containerized cargo shipped into this country. RPMs are detection 
devices that provide CBP with a passive, non-intrusive process to 
screen trucks and other movements of freight for the presence of 
nuclear and radiological materials. Mandated in the Security and 
Accountability for Every (SAFE) Port Act of 2006, the 22 largest 
container ports by volume must have RPMs, and this has been expanded to 
all container ports ensuring all containers entering the United States 
are screened for radiation.
    Almost 10 years have passed since RPMs were mandated. However, a 
decade into this program, questions have been raised regarding who pays 
for the maintenance of the RPMs, who is responsible for paying for new 
portals during a port expansion and what is the long-term obligation 
for the next generation of RPMs? A OHS Office ofthe Inspector General 
report in 2013 titled United States Customs and Border Protection's 
Radiation Portal Monitors at Seaports states that ``Initial estimates 
of the deployed RPMs showed an average useful life expectancy of 10 
years.''
    What we hear repeatedly from our member ports is that the lack of 
clarity in funding and administering the RPM program has become a real 
hindrance in how we protect our ports.
    We are quickly approaching the end of the first generation of RPMs' 
life expectancy. Ports, such as, Tampa, Miami, Jacksonville, Long 
Beach, NY/NJ, and Mobile have all reported complicated and sometimes 
contentious discussions with its regional CBP officers on the on-going 
responsibilities related to the RPMs.
    A recent example is the Port of Jacksonville (JAXPORT) where CBP 
requested that JAXPORT assume financial responsibility for the RPMs 
technology sustainment, i.e., hardware, software, and connectivity. 
This is significant given the complex and critical nature of these 
Federally-owned and currently maintained systems. There is too much at 
stake for ports and CBP officers to have to engage in policy and 
funding negotiations. Congress and the administration must set a clear 
path on the RPM program.
Recommendations
    RPM detection is a Federally-mandated program. CBP should request 
adequate Federal funding to purchase, install, and maintain all RPM 
equipment at ports throughout the United States, including port 
expansion based on rising freight volumes.
    The current RPM program requires a thorough assessment. CBP funding 
surrounding the performance and future implementation of this 
technology should ultimately be increased to cover necessary costs to 
include manpower as well.
    Rightsizing cruise facilities.--CBP is required to approve all 
Federal inspection facilities. Ports complain that CBP requires far 
more space than they actually need resulting in significant increases 
in costs to build facilities. Savings in building these facilities 
could be used for staffing purposes.
    Cruises are often not a priority for CBP inspections and can be a 
potential target. Seasonal cruises, like those in Maine, suffer from 
not getting service from CBP for new smaller cruise operations. The 
cost of building a Federal inspection facility is far too expensive for 
smaller regional ports that could service cruises in certain seasons, 
but not year-round in regions such as the Great Lakes and Northeast 
cruises.
                 dedicated port security grant funding
    AAPA encourages increasing the Port Security Grant Program funding 
levels, but also insists that grant funding be directed to ports and 
not diluted out to other law enforcement entities with very low 
threats. Threats against our Nation's seaports are always emerging, and 
port security grants are in continual demand.
Recommendations
    Funding to local law enforcement needs to illustrate a stronger 
connection with the port complex to ensure the funding is being used 
for its intended purposes. There should be a letter of endorsement from 
an impartial party such as the Captain of the Port to receive a port 
security grant.
    Some ports are voting members of the Urban Area Security Initiative 
(UASI) regions, while many others are not. Ports should have a vote on 
UASI matters to help prioritize port security funding considering the 
role of first responders in UASI regions around ports.
    If you have additional questions, please do not hesitate to contact 
John Young [] on the AAPA staff.
            Sincerely,
                                                Kurt Nagle,
                                                   President & CEO.

    Ms. Barragan. Thank you very much.
    Mr. Secretary, thank you so much for being here today to 
answer our questions. I watched some of your testimony 
yesterday before the Senate and you said something that I 
completely agree with. You talk about the men and women that 
put their lives on the line every day to protect our homeland 
and how we have to invest in them.
    I couldn't agree with you more and wanted to--it reminded 
me of a trip I took this weekend with some of my colleagues, 
went down to Tijuana, Mexico. We went down there and who we 
visited were veterans that had been deported.
    I know that the 2018 budget includes millions of dollars to 
ramp up deportations. I want to take a minute to talk about the 
deportations of our veterans.
    Now these are soldiers who have saved lives. These are 
soldiers, some of whom have given their lives, soldiers who 
have put service and country above self and many times not even 
their own country. And they are there to fight and to protect 
us and America from our homeland. I see them very similar as 
the men and women who serve in DHS to protect our homeland and 
our safety.
    Mr. Secretary, are you aware that non-citizens who sign up 
to serve in our armed forces are able to go to war, and they 
become automatic citizens if they are killed in a line of duty?
    Secretary Kelly. I am aware of the program that you are 
referring to, sure.
    Ms. Barragan. Are you aware that veterans that are deported 
are later brought back by the U.S. Government to the United 
States when they die, and they are buried here with full 
military honors?
    Secretary Kelly. Well, it depends on the character of 
service, but sure. I am aware of that.
    Ms. Barragan. Do you think it is right that our veterans 
have to come back in body bags to be able to come back to this 
country for which they fought for?
    Secretary Kelly. Well, it is not as simple as that. I mean 
the people you are referring to--and, of course, I don't 
believe under my watch--this is only by happenstance--but under 
my watch, we have deported any in this category, I don't think. 
So the rest of them were deported previously.
    But the point is it is a great program. In fact, since 
October 2001, over 118,000 foreigners have joined the U.S. 
military and been naturalized to be U.S. citizens. They still 
have to go through, you know, the moral and that kind of 
background checks.
    But the point is if they do a year of honorable service, 
during that period they can request to go through the process 
of naturalization, and all things being equal, they don't have 
to wait such a long period of time. They will be made U.S. 
citizens.
    If they are made a U.S. citizens, of course, then they 
wouldn't be deported, because they are U.S. citizens. In the 
cases of the individuals that have been deported, yes, they 
served in the U.S. military. Again, character of service counts 
a lot here.
    But the point is they got out of the U.S. military, did not 
request to become citizens for whatever reason, and there are a 
number of reasons they might not have, and then they committed 
crimes and were apprehended and deported.
    Ms. Barragan. OK. Well, I won't argue with--I could argue 
with some of that not being accurate, but I only have about a 
minute left. You know, one of the individuals that I saw was a 
gentleman named Hector Barajas, who happens to be one of my 
constituents, who started the Deported Veterans' Home, the 
support home. He just got a pardon from the Governor.
    It is somebody who, I think, would be a great example of 
somebody that we can now look at to grant citizenship. For the 
6-plus years that he put in, he got two medals of 
accommodations from the Army. I hope that your agency will 
certainly give serious consideration to his application. But 
you mentioned the program.
    You know, in 2010, there was an agency-wide ICE memo 
instructing field agents to use their discretion to, quote, 
``whether the person or the person's immediate relative has 
served in the U.S. military, Reserves or National Guard, with 
particular consideration given to those who served in combat.'' 
Is ICE still using this directive to use that discretion, or is 
that one of those that you have wiped away?
    Secretary Kelly. They still use that discretion. I was just 
talking to the head of ICE yesterday about this. Yes, they 
still use that.
    Ms. Barragan. Great. Thank you very much.
    Chairman McCaul. Mr. Bergman from Michigan is recognized.
    Mr. Bergman. Mr. Chairman, thank you for allowing me to 
join this hearing today. Mr. Secretary, great to see you. Your 
testimony sounded like a MARFORNORTH-MARFORSOUTH update, so 
thank you for that.
    On May 5, the President signed the Consolidated 
Appropriations Act of 2017 into law. The law contained a 
measure to provide relief to seasonal businesses in the form of 
nearly 70,000 additional H-2B visas. Have you given the go-
ahead to begin this process?
    Secretary Kelly. No.
    Mr. Bergman. OK. Why not? When do you plan to initiate the 
process? What can Congress do in the short term to assist?
    Secretary Kelly. Probably. Well, let me back up and say I 
wish Congress had not given me the 66,000 option. My sense was 
when I first took this job, if Congress had wanted it to be 
129,000, that is what they would have passed.
    When 66-, and they gave me some options on additional, I 
think it is another 66,000, my thinking was that, you know, we 
are coming down on the side of U.S. jobs and the unions and all 
of that, which I support.
    Then I found out that no, for whatever reason, Congress 
decided on 66-, punted it to me, and the expectation was, by 
some in the U.S. Congress, cause there are many, many, many on 
the other side of this issue, that I would immediately 
authorize the 66,000.
    The way I interpreted--the way the law was passed, Congress 
didn't want that additional 66,000 unless I came in and made a 
hard case for it, which I cannot make. But that said, working 
with labor right now, Department of Labor, and finding out 
where they are, and it has got to be a collaborative effort, 
initially finding out where they are if, indeed, you know, U.S. 
jobs are being taken by individuals that come here.
    You know, and it will put aside all the arguments of how 
this thing is violated routinely. I think for the most part, it 
is not, but it is violated routinely.
    So labor is going to have to tell me that these jobs that 
this additional 66,000 or whatever, simply cannot be filled by 
U.S. workers, temporary workers, whether they are college kids 
out for the summer or people who are, you know, out of work and 
need a job. But that is where we are on it right now, waiting 
for Labor and DHS to collaborate and come up with a 
recommendation.
    But I really did think that if Congress wanted it, they 
would have simply passed the law with 129,000 or so. I would 
hope the next time we do this that I am not given the 
discretion, because it puts me in a place that I am going to be 
at odds with Congress, and I never want to do that.
    Mr. Bergman. Well, No. 1, as you know, you and I are 
roughly been around on this earth pretty close to the same 
time. Maybe you are a little younger. But, you know, when we 
were in school, and class had to stay after, it is usually 
because of the actions of one or two, and everybody else had to 
pay for it.
    Right now, in my district and other districts, that the 
data is there. It is historical data that the jobs that we are 
proposing here, there is no--these jobs are not taking--the 
people who would do the jobs from coming as guest workers are 
not taking American jobs.
    I take your point and your guidance very seriously on 
having Congress tell you exactly what we want. You can assure 
that that will happen in the future, because I would like to 
dialog with you in the future about how we can eliminate this 
annual jumping through hoops for the wrong reasons. So thank 
you, and I yield back.
    Secretary Kelly. Thanks, Congressman.
    Chairman McCaul. Gentleman yields back.
    Mr. Gallagher from Wisconsin is recognized.
    Mr. Gallagher. Thank you, Mr. Chairman. I apologize for 
stepping out, but I was greeting a honor flight from my 
district, and we had World War II vets and Korean War and 
Vietnam that are being escorted by Iraq and Afghanistan vets. 
So it just kind of puts our task and our sure task in 
perspective.
    I want to thank you for being so proactive in your 
engagement with the committee. I am honored to Chair the Task 
Force on Denying Terrorist Entry Into the United States, and I 
am really looking forward to working with you and your team as 
the work of that task force progresses and as we come up with a 
set of serious and common-sense solutions for keeping those who 
would seek to destroy our way of life out of this country.
    But I want to return to a topic that we talked a bit about 
last time you were here, which is, you know, as we close off 
the legal ways or even the physical ways terrorists might seek 
to come into this country, we know these groups are going to 
adapt. In fact, the easiest way for them to get in is through 
digital borders.
    The question of on-line radicalization is such a difficult 
problem. I would just be interested in getting your thoughts, 
you know, having been in the job now for some time, on where 
you think we are headed.
    Specifically, in light of the fact that the Office of 
Community Partnerships, which is responsible for the 
Department's CVE activities--Counter Violence Extremism is 
presently under your review and the proposed budget offers no 
additional funding or CVE programs, just in light of the recent 
attacks in Europe and the President's own repeated rhetoric of 
combatting extremism, do you believe that DHS should reconsider 
and recalibrate the purpose and the implementation of CVE 
programs across America?
    Secretary Kelly. Congressman, actually that is what we are 
doing. In my experience, certainly, as a senior officer in the 
U.S. military, and then took that baggage, if you will, into 
this job, there are so many programs that the U.S. Government 
pays into that once, you know, the money is appropriated, 
whether it is the State Department, the Defense Department, 
DHS, they don't look at the program and say how is it working? 
You know, what are the metrics of success?
    If you can't decide whether--establish whether it is 
working or not, you have no metrics of success, then either 
change the program or eliminate the program. So when I came 
into this job, the CVE grants, the first question is I always 
ask is what is the measure or metric of success here? How do we 
know that this program results in fewer radicalized kids? How 
do we know that? It was, ``Well, it is a good program, sir.''
    I know it is a good program, in terms of what it is trying 
to accomplish; saving lives and keeping kids from, you know, 
murdering people and killing themselves. When I say ``kids,'' 
you know, they are generally younger people that are doing 
these things. But is it working or are we just pouring, you 
know, good money after bad?
    Mr. Gallagher. Sure.
    Secretary Kelly. So I had my staff look long and hard at 
it. By the way, every conversation I have with someone from 
another country, or from, you know, well, from another country, 
I asked them about these issues. How are you getting at the 
problem? How do you do this? Is it possible? Saudi Arabia, 
Singapore, Australia, Israel yesterday, many west European 
countries, Canada, how do you get after this thing?
    I talked to, you know, the State local law enforcement. Do 
you have programs? Vast majority don't. That is interesting. 
Why don't you? Well, we don't think we can, you know, it is not 
high on our priority or we don't think there are, but the point 
is I am not so sure we can prevent it.
    So then we looked at, OK, how then if we can prevent it, 
who are the preventers? Of course, you would start out by 
parents. They see what their kids are--they listen to what 
their kids are saying at home.
    This applies, by the way to white supremacists, neo-Nazis, 
as well as young radicalized, possible radicalized kids who are 
Islamic. So they listen. So how do we make sure they understand 
that they should get their son or daughter help?
    How about the imams and the priests as well? I--and the 
priests and the ministers? Again, the white supremacists and 
Neo-Nazis and all of this.
    When they hear their young people saying silly things, 
stupid things, are they comfortable? Do they know that they can 
call, whether it is the police or, you know, social services to 
get the kid help? So that is where I am looking at putting CVE 
money----
    Mr. Gallagher. Can I----
    Secretary Kelly [continuing]. As opposed to the kind of 
great program what it is trying to accomplish. But who knows?
    Mr. Gallagher. We don't know if has.
    Secretary Kelly. Sorry.
    Mr. Gallagher. Right. Can I--no. Quickly, having just come 
back from Asia, you know, you talked to the Singaporeans and, 
you know, they are looking at the Philippines, they are looking 
at----
    Secretary Kelly. Oh, yes.
    Mr. Gallagher [continuing]. Indonesia, and they want to be 
incredibly proactive, so that it doesn't become a problem for 
them. I would just be interested, if you can share it. In those 
conversations, has a particular model emerged of a partner that 
is doing it well that we could draw some lessons learned from?
    Secretary Kelly. I think some of them are doing it well, 
but we could never do it in our country, because of----
    Mr. Gallagher. That is right.
    Secretary Kelly [continuing]. Our laws. Then I am not 
even--I would never argue to change. But some countries, as an 
example, simply send officials to the mosques. They first of 
all tell the imams what to say. Then they go there, and if the 
imam doesn't say that, then they jail the imam.
    We would never do that. We should never do that. A lot of 
them, you know, follow the internet, and if someone is on 
Inspire magazine, they go down and arrest them and put them in 
a, you know, a holding tank for a while and decide when they 
are going to release them.
    So those are--and I don't think, frankly, those are 
working. But I am just saying that that is one end of the 
spectrum.
    Our end of the spectrum, I believe, is working with 
parents, priests, you know, local religious leaders, boys, you 
know, whoever, so that when they see their kids saying crazy 
things or on the internet sites all the time--I mean when I 
grew up it was like, well, there was no internet, but it was 
like, you know, the things that parents would watch out for is 
drug use and all of that kind of thing. This is much more 
serious than that.
    So I think best practices are community involvement, 
certainly parental involvement, law enforcement involvement. I 
think that is where the solution is. So that is where I am on 
the CVE.
    Mr. Gallagher. All right. Thank you, Mr. Secretary. I 
promised him I wouldn't go over 5 minutes, and I lied.
    Secretary Kelly. Well, I went over, so----
    Mr. Gallagher. No. I would just as a plug for the task 
force work. I really look forward to working with you and hope 
we get--so I apologize, Mr. Chairman.
    Chairman McCaul. We appreciate you working on the task 
force.
    This should be your last 5 minutes of questioning, Mr. 
Secretary.
    Mr. Ratcliffe.
    Mr. Ratcliffe. Secretary Kelly, great to see you again. 
Thank you for your service. I hope you had a good first 6 
months. As I told you, 6 months ago, I don't envy you, because 
I view the job that you have as among the most difficult and 
the most important in our Federal Government.
    Traditionally, providing for the common defense meant 
securing the sovereignty and integrity of our territorial 
borders, but increasingly, of course, as great a threat as 
there is to our physical borders, we have those to our digital 
borders now.
    I know that is a part of your charge and part of your 
challenge, and why I view your job as so critical. Our role 
here in Congress as being critical as well in making sure you 
have got the tools that you need to fight those challenges 
efficiently and effectively.
    As the Chairman of the Subcommittee on Cybersecurity and 
Infrastructure Protection, I want to focus on my limited time 
on a couple of the budget-related questions, as it pertains to 
cybersecurity.
    The budget request from the administration includes an 
increase for the CDM program, the Continuing Diagnostics and 
Mitigation program, but a decrease of almost $35 million for 
the Einstein program for fiscal year 2018 to align operations 
and maintenance funding with the planned acquisition profile. 
So can you give me some sense of the reasons for the increase 
on the one hand and the decrease on the other?
    Secretary Kelly. I will first start out by saying you say 6 
months. It has been 129 days. It seems like 6 years. On the 
reduction, and I can get back to you with a more detailed 
answer. My understanding is with Einstein, as we continue to 
develop it, we will need more money in the future.
    But in the mean time, right now, I believe it is because we 
can't spend that money right now. I may be wrong. But I will 
get back to you, Congressman.
    Mr. Ratcliffe. OK. One of the other challenges that you and 
I have agreed that we have identified does relate to the cyber 
work force. We have got it as sort-of a macro issue in this 
country, but also specifically within the Department of 
Homeland Security.
    So does the fiscal year 2018 request include funding or 
enough funding from your perspective for new accepted service 
salaries and incentives to bring on the type of cybersecurity 
talent we need at the Department of Homeland Security?
    Secretary Kelly. I think we are good right now. But as this 
field expands, so, obviously, the Government pays a certain 
amount of money, and the private sector pays most often a lot 
more, and so how do you keep them?
    It is kind-of what the same kind of problem the services 
are going through, the military. There are certain people that 
want to serve their country. It is pure. It is from the heart. 
They don't worry about the money, as long as they are not going 
to go completely broke.
    But then there are other people, and I am not criticizing, 
get drawn away from the military as an example, our Federal 
Government, and go off and to making very, very lucrative 
amounts of money in the private sector.
    The military solves this problem oftentimes with--and it 
just doesn't apply to cyber warriors. It could be pilots, 
whatever, with paying bonuses. I don't think we are there right 
now. But those are the kind of things in future.
    If we are going to have a viable cyber force, which we need 
without question, we may have to--well, we will always have to 
pay for it.
    We may have to find innovative ways to pay for it in the 
future, because it is--the demand for these kind of 
professionals is exponentially increasing, and we are going to 
have to find ways to make sure we have the best sitting in 
Federal jobs working with industry.
    Mr. Ratcliffe. Terrific. Thank you. One of the challenges 
that we face is not just at the Federal level, but at the State 
and local level with respect to the cybersecurity issues that 
are out there.
    I don't know, Secretary, whether you have had a chance to 
take inventory of all the assets that you have and whether or 
not you have had a chance to go onto the National Computer 
Forensics Institute in Hoover, Alabama, or what that facility 
specifically does.
    I was fortunate, a few weeks ago, we moved legislation here 
through the House that would authorize the NCFI into law. It is 
a facility that is run by the Secret Service for the purpose of 
training State and local law enforcement, from detectives and 
investigators to prosecutors to judges, in handling digital 
evidence so that we can prosecute cybercrime, which is, 
according to some reports, has become more profitable than drug 
trafficking.
    So, I don't want to put you on the spot, and I am not 
asking for a commitment, but I would ask that--I do expect that 
that will move through the Senate as well.
    To the extent that President Trump asks for your opinion 
with regard to that, I would appreciate if your team could get 
you briefed on those issues, cause I think it is vitally, 
critically important that we support our State and locals with 
respect to these cyber challenges as well and law enforcement 
plays a huge part of that.
    Secretary Kelly. Congressman, I will do that. I should 
mention, and you did, the tremendous work the Secret Service 
does. Most people have no idea that it is part of their 
responsibility. They are very deep into cyber, in terms of, you 
know, commercial violations and crimes.
    They are very, very good at what they do, and they are a 
part of this huge collaborative effort throughout the Federal 
Government in the private sector of protecting us. So, thank 
you for mentioning the Secret Service. They are a multifaceted 
organization. They are good men and women all.
    Mr. Ratcliffe. Well, thank you. Again, I thank you for your 
service, but also appreciate--I will tell you, Secretary, that 
you are already inspiring confidence with respect to how you 
have approached the task at hand, the very difficult, 
unenviable task and challenge that you have. But I do want you 
to know that we all appreciate the way that you have really 
rolled into this in the first 129 days.
    With that, I yield back, Mr. Chairman.
    Secretary Kelly. Thanks.
    Chairman McCaul. The gentleman yields back.
    Does the Ranking Member wish to be recognized?
    Mr. Thompson. Thank you, Mr. Chairman.
    Let me thank the Secretary also. Obviously, you have done a 
very good job here today. Quite expansive in sharing your width 
of knowledge and breadth of knowledge. I thank you for it, and 
I look forward to working with you going forward.
    I will ask unanimous consent to submit the statement from 
the National Treasury Employees Union on the President's budget 
for the record, Mr. Chairman.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
Statement of Anthony M. Reardon, National President, National Treasury 
                            Employees Union
                              June 7, 2017
    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, thank you for the opportunity to submit this statement 
on the administration's fiscal year 2018 budget submission for the 
Department of Homeland Security (DHS) on behalf of the 25,000 Customs 
and Border Protection (CBP) Officers, Agriculture Specialists and trade 
enforcement personnel stationed at 328 land, sea, and air ports of 
entry (POE) across the United States and 16 Preclearance stations 
currently in Ireland, the Caribbean, Canada and United Arab Emirates 
airports represented by the National Treasury Employees Union (NTEU).
    As of April 29, 2017, CBP's Office of Field Operations (OFO) has 
22,794 CBP Officers on-board at the ports of entry--1,420 short of its 
fiscal year 2017 target of 24,214. The fiscal year 2018 budget request 
supports the filling of the current vacancies to meet the fiscal year 
2017 target of 24,214, but significantly changes how these new 
positions would be funded. However, the administration's fiscal year 
2018 budget provides no new funding to address the current CBP Officer 
staffing shortage of at least 2,107 additional CBP Officers as 
stipulated by CBP's own fiscal year 2017 Workload Staff Model (WSM) and 
to fund an additional 631 CBP Agriculture Specialists as stipulated by 
CBP's own fiscal year 2107 Agriculture Resource Allocation Model 
(AgRAM).
    For these reasons, NTEU is requesting $350 million in additional 
CBP OFO Operations and Support in the DHS fiscal year 2018 
appropriations bill. NTEU requests $300 million to ensure funding for 
CBP OFO to meet its fiscal year 2017 CBP Officer front-line staffing 
target of 24,214 and to begin funding the hiring of 2,107 additional 
CBP Officers needed to achieve the staffing target of 26,300 CBP 
Officers as stipulated in CBP's own WSM. CBP's AgRAM shows a need to 
fund an additional 631 CBP Agriculture Specialists over the 2,418 
currently authorized. NTEU is requesting $50 million to begin funding 
the hiring of these additional 631 CBP Agriculture Specialists over the 
2,418 currently on-board.
    Realignment of User Fees.--The administration's budget proposes 
significant realignment of user fees collected by CBP. Currently, 33 
percent of CBP Officer salaries and benefits are funded with a 
combination of user fees, reimbursable service agreements, and trust 
funds. The fiscal year 2018 budget proposes to reduce OFO appropriated 
funding by realigning and redirecting user fees, including redirecting 
the Electronic System for Travel Authorization (ESTA) fee that will 
require a statutory change. The fiscal year 2018 budget proposal would 
redirect approximately $157 million in ESTA fees from Brand USA to CBP. 
Rather than redirecting the ESTA fees to fund the additional 2,107 CBP 
Officer new hires needed to fully staff CBP Officer positions in fiscal 
year 2018 and beyond, as stipulated by CBP's WSM, the budget would in 
fact reduce CBP's appropriated funding by $157 million. Therefore, 
while the budget proposes to increase the number of CBP Officer 
positions funded by ESTA user fees by 1,099, it decreases appropriated 
funding by $157 million, and reduces the number of CBP Officer 
positions funded by appropriations by 1,099 positions.
    The Travel Promotion Act of 2009 (Pub. L. 111-145) created the 
Corporation for Travel Promotion (also known as Brand USA). Under the 
Trade Promotion Act, successful applicants for electronic travel 
authorization are charged an additional $10 fee to fund Brand USA. 
Notably, Congress will need to enact legislation to eliminate Brand USA 
and redirect all ESTA fees to CBP.
    If the legislation to eliminate Brand USA is not enacted, but the 
appropriations level for CBP Officers in the administration's fiscal 
year 2018 budget is approved, CBP will be short $157 million and will 
need to reduce the CBP Officer work force by 1,099 positions. In other 
words, there will only be funding in the fiscal year 2018 appropriation 
to fund 23,115 CBP Officers--1,099 positions short of the current 
staffing target. This is why NTEU is requesting $157 million of the 
total $300 million increase for CBP Officer funding to ensure that the 
number of CBP Officers remains at 24,412.
    If the legislation to eliminate Brand USA is enacted, NTEU urges 
Congress to add the ESTA-fee funded positions to the current CBP 
Officer target of 24,214 positions. By adding these 1,100 ESTA-fee 
funded positions, CBP OFO would then have funding for 25,314 CBP 
Officers. The remaining $143 million appropriation requested by NTEU 
would allow OFO to finally fund the CBP Officer staffing level 
stipulated in the fiscal year 2017 WSM.
    CBP Technicians.--In the administration's fiscal year 2018 budget 
submission, CBP proposes a decrease of $9.9 million in OFO pay 
requirements to backfill CBP Officer positions with 198 CBP 
Technicians. NTEU supports the hiring of additional CBP Technicians as 
long as CBP does not seek to replace the number of current on-board CBP 
Officer with CBP Technicians. CBP Technicians cannot simply 
``backfill'' for CBP Officer, because they are not qualified as CBP 
Officers. With an on-going shortage of CBP Officers, hiring new CBP 
Officers should be CBP's priority. NTEU supports hiring additional CBP 
Technicians to give administrative support to CBP Officers, but 
strongly objects to CBP replacing front-line CBP Officer positions made 
vacant through attrition with CBP Technicians.
    OFO Canine Enforcement Program (CEP).--The budget proposes a 
decrease of $3.2 million to the OFO CEP. Of the 496 specialized canine 
teams currently deployed, 188 canine teams would be retired from 
locations other than the Southwest Border ports of entry. CBP Canine 
handlers for the 188 retired canine teams would be redirected to non-
canine front line duties. The CBP Canine Program is critical to CBP's 
mission. The working CBP canine teams are one of the best tools 
available to detect and apprehend persons attempting to enter the 
United States to carry out acts of terrorism. These canine teams are 
instrumental in detection and seizure of controlled substances and 
other contraband, which are often used to finance terrorist and/or 
criminal drug trafficking organizations. NTEU does not support retiring 
nearly one third of the currently on-board OFO specialized canine 
teams.
    Agriculture Specialist Staffing.--NTEU is requesting $50 million to 
begin hiring the 631 additional CBP Agriculture Specialists to meet the 
staffing target stipulated in CBP's fiscal year 2017 AgRAM. Also, NTEU 
worked successfully with Congress to obtain report language in the 
House version of the fiscal year 2016 funding bill that states: ``With 
CBP's recent release of its risk-based Agriculture Resource Allocation 
Model (AgRAM), the Committee is concerned about how CBP plans to 
fulfill its agriculture quarantine inspection (AQI) mission with 
current staffing levels. CBP is directed to report back to the 
Committee within 90 days of enactment a plan to address these staffing 
needs to meet its AQI mission to protect U.S. food, agriculture, and 
natural resources.'' Despite this committee's report request, it is our 
understanding that CBP has not yet delivered a plan to fund and hire 
631 Agriculture Specialists as stipulated in their fiscal 2017 AgRAM.
    CBP Trade Operations Staffing.--CBP has a dual mission of 
safeguarding our Nation's borders and ports as well as regulating and 
facilitating international trade. CBP's ports of entry are the second 
largest source of revenue collection for the U.S. Government. In 2016, 
CBP processed more than $2.2 trillion in imports and collected more 
than $44 billion in duties, taxes, and other fees. Since CBP was 
established in March 2003, however, there has been no increase in non-
uniformed CBP trade enforcement and compliance personnel even though 
inbound trade volume grew by more than 24 percent between fiscal year 
2010 and fiscal year 2014. Additionally, CBP trade operations staffing 
has fallen below the statutory floor set forth in the Homeland Security 
Act of 2002. NTEU strongly supports the funding of 140 additional 
positions at the CBP Office of Trade to support implementation of Trade 
Enhancement and Facilitation Act (Pub. L. 114-125) requirements.
    Delays at the U.S. ports of entry result in real losses to the U.S. 
economy. Understaffed ports lead to long delays in travel and cargo 
lanes, hurting businesses and consumers, and also create a significant 
hardship for front-line employees. For every 33 additional CBP Officers 
hired, the United States can potentially gain over 1,000 private-sector 
jobs. If Congress fully staffed the ports with the needed 3,500 
additional CBP Officers in fiscal year 2018, 106,000 private-sector 
jobs could be created. For every 1,000 CBP Officers added, the United 
States can increase its gross domestic product by $2 billion.
    The more than 25,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports, but front-line CBP Officers and 
Agriculture Specialists at our Nation's ports of entry need relief. 
These men and women are deserving of more staffing and resources to 
perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this statement to the 
committee on behalf of the men and women represented by NTEU at the 
Nation's ports of entry.

    Mr. Thompson. Yield back.
    Chairman McCaul. That concludes our hearing. Mr. Secretary, 
let me just say thank you for being generous with your time. I 
think you will find this committee a little more friendly 
sometimes than others perhaps.
    But I also want to say, you know, these are dangerous 
times, and, you know, I feel better knowing that you are at the 
helm. I really appreciate your service in protecting the 
American people.
    So with that, pursuant to committee rule VII(D), the 
hearing will be held open for 10 days. Without objection, the 
committee stands adjourned.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

 Questions From Honorable Daniel M. Donovan for Secretary John F. Kelly
    Question 1a. The President's fiscal year 2018 budget proposal not 
only cuts vital preparedness grants and training to first responders 
but also cuts funding to research and development that supports first 
responders in a rapidly-evolving threat environment. First responders 
at the State and local level are on the front lines combatting and 
responding terror threats. These proposed cuts would have a tremendous 
impact on first responders across the country, and especially on those 
in the city I represent.
    The NYPD, FDNY, and New York City Emergency Management depend on 
programs, like UASI, to help them secure our city, which remains the 
No. 1 target of terrorists.
    New York City is also home to the Department's National Urban 
Security Technology Laboratory, which works to ensure first responders 
can adapt to future threats by conducting tests, pilots, and other 
evaluations for first responder operations and mission requirements. 
Under the President's budget, this critical lab would be closed.
    I have heard from a number of constituents expressing great concern 
for these cuts.
    What is the rationale for reducing grants to first responders at a 
time when our threat level is at its highest since 9/11?
    How will DHS ensure first responders are prepared for future 
threats if resources, such as the National Urban Security Technology 
Laboratory, are eliminated?
    Answer. Reductions to State and local grants are proposed in order 
to ensure adequate funding for core Department of Homeland Security 
missions, encourage grant recipients to share responsibility for the 
cost of preparedness activities and fund those activities that 
demonstrate the greatest return on investment. Reductions are 
consistent with the President's budget blueprint priorities to stand 
prepared for emergency response and disaster recovery, eliminating 
funding for programs to ensure the Federal Government is not 
supplanting other stakeholders' responsibilities.
    Preparedness is primarily a responsibility of State and local 
governments. Since 2002, the Federal Government has allocated over $47 
billion in grants to support State and local preparedness investments. 
Those funds have been put to good use to greatly expand preparedness 
capabilities; however we have been unable to demonstrate the results of 
the grant investments and how the grants have made the Nation more 
prepared. The Federal Government's focus is on ensuring that 
investments go toward closing capability gaps and addressing National 
priorities.
    Beyond the $1.9 billion that the Department is requesting for 
grants to support homeland security officials, emergency managers, and 
first responders, FEMA and the Department also support responders 
through other direct support activities including, but not limited, to 
technical assistance, training, and exercises.
    Question 1b. How will DHS ensure first responders are prepared for 
future threats if resources, such as the National Urban Security 
Technology Laboratory, are eliminated?
    Answer. The fiscal year 2018 President's budget request will allow 
the Science and Technology Directorate (S&T) to focus on the highest 
priority needs of the administration and DHS. The budget proposes to 
close three laboratories, including the National Urban Security 
Technology Laboratory (NUSTL), to maximize limited research and 
development (R&D) funds and avoid maintaining facilities that would be 
underutilized at requested funding levels.
    S&T assesses that capabilities at NUSTL may be replicated at other 
facilities. S&T will maintain DHS's partnership with 13 Department of 
Energy National laboratories that are vital to the National homeland 
security mission. DHS will also seek to leverage technologies developed 
by the Department of Defense, which is heavily invested in RAD/NUC 
detection and mitigation.
    Question 2a. The Emergency Preparedness Subcommittee, which I 
chair, and the Subcommittee on Counterterrorism and Intelligence 
recently hosted a roundtable with law enforcement stakeholders. Among 
the topics discussed was the anticipated update to the National 
Incident Management System or ``NIMS,'' which allows first responders 
across all jurisdictions and disciplines to work together cohesively in 
the event of an emergency. NIMS has not been updated since 2008 and 
given the evolving threat landscape a draft version is currently under 
discussion at FEMA.
    Stakeholders from the law enforcement community expressed their 
concern that the draft version of the update does not include the 
Intelligence/Investigation Functions within NIMS, even as threats 
continue to evolve.
    When can we expect a finalized version of NIMS?
    Question 2b. Will you pledge to work with me and law enforcement 
stakeholders to ensure their concerns are appropriately addressed in a 
final version of the update to NIMS?
    Answer. The NIMS revision has been a collaborative, 
multidisciplinary effort. FEMA held a 30-day National Engagement Period 
for the draft of the refreshed NIMS in April/May 2016. Many 
stakeholders expressed concern that the proposed Incident Command 
System (ICS) Intelligence/Investigations content was too rigid. FEMA 
reduced the prescriptive guidance on intelligence/investigations 
content and worked with representatives from the International 
Association of Chiefs of Police (IACP) and the National Sheriffs 
Association (NSA) to ensure that revised the draft meets their needs.
    The revised draft includes:
  <bullet> a description of the intelligence/investigations function,
  <bullet> a discussion of the various ways the Incident Commander can 
        employ the function, and
  <bullet> a reference to a more detailed, intelligence/investigations-
        specific guidance document that FEMA published in 2013 in 
        coordination with law enforcement stakeholders.
    FEMA provided this draft to representatives from IACP and NSA in 
June 2017. IACP replied that the current draft ``offers law enforcement 
the flexibility needed.'' The NSA representative wrote:

``NSA and MCSA [Major Cities Sheriffs Association] leadership has 
reviewed the NIMS document. They felt the document's framework allows 
freedom to incorporate the I/I function into one of several sections 
(Planning, Operations, or Command Staff), or it allows it to be a 
Stand-alone General Staff Section. They feel this flexibility will 
allow a great deal of freedom for the Incident Commander, which we 
agree is very important.''

    FEMA pledges to continue to work with the law enforcement 
community, along with the rest of the whole community to develop 
supplemental guidance to support the high-level guidance in the NIMS 
document and promote NIMS implementation across the Nation. We expect 
final review/approval this summer.
    Questions From Ranking Member Bennie G. Thompson for Secretary 
                             John F. Kelly
    Question 1. The President's budget calls for an elimination of the 
Law Enforcement Officer (LEO) Reimbursement Program. In preparing for 
the elimination of Federal funding for this activity, what is TSA doing 
to work with airports and law enforcement agencies to ensure that law 
enforcement presence at airports and law enforcement support to TSA at 
passenger screening checkpoints are not diminished?
    Answer. In cooperation with the Transportation Security 
Administration (TSA), airport operators and their State and local law 
enforcement partners play a critical role in maintaining security at 
airports across the country. Over the years, TSA has worked with and 
will continue to work with State and local law enforcement to develop 
capacity and relationships. Today, State and local law enforcement 
partners are better equipped than they have ever been before to meet 
emergent threats
    Additionally, all airports are required to have an approved Airport 
Security Program (ASP), developed in concert with the local airport 
authority, and once completed, is subject to TSA inspection for airport 
operator compliance. As a result of that process, TSA works and will 
continue to work with the airport to ensure that law enforcement 
personnel are available and committed to respond to a security incident 
within a set period of time.
    Question 2a. In your testimony, you note that ``the threat to 
aviation remains high and criminals and terrorists continue to target 
airlines and airports.'' Accepting the truth of your statement and 
knowing the terrorists are probing airports, how do you justify 
eliminating the LEO Reimbursement Program and exit lane staffing?
    Given that TSA is statutorily required to protect exit lanes, how 
do you justify this proposal?
    Question 2b. What, if any, consultation was done with the ASAC 
prior to deciding to eliminate these important programs?
    Answer. Along with the Transportation Security Administration 
(TSA), airport operators and their State and local law enforcement 
partners play a critical role in maintaining security at airports 
across the country.
    However, in formulating the fiscal year 2018 President's budget, 
the TSA focused on preserving front-line security capability in order 
to protect the traveling public. As part of the risk-based 
prioritization for resources, those areas where State and local law 
enforcement already operate or have the capability to step forward to 
support transportation security were ranked lower for Federal funding 
based on risk mitigation. This allowed limited resources to be applied 
to those areas solely under the jurisdiction of the Department.
    Additionally, all airports are required to have an approved Airport 
Security Program (ASP), which is subject to TSA inspection for airport 
operator compliance. One aspect of the ASP is that each airport must 
ensure that law enforcement personnel are available and committed to 
respond to a security incident within a set period of time. The LEORP 
supported activities beyond this requirement.
    Regarding exit lane staffing, as part of their access control 
responsibility, currently two-thirds of all airports are responsible 
for securing exit lanes from unlawful entry into the sterile area. At 
the remaining airports, TSA is responsible for staffing those lanes as 
per the requirement of the Bipartisan Budget Act of 2011. The fiscal 
year 2018 budget proposes to redirect 382 FTE, used to secure the exit 
lanes at one-third of the Nation's commercial airports, and $27 million 
to passenger screening at the checkpoint. This change would help manage 
increasing passenger volume and put Transportation Screening Officers 
back at the checkpoint where their training and skills will be put to 
better use. The administration is submitting a legislative proposal for 
the consideration of Congress to realign this responsibility.
    The Aviation Security Advisory Council was not formally involved in 
this programmatic decision.
    Question 3a. In May, TSA announced a trial program at selected 
airports that require passengers to remove from their carry-on bags 
books and other paper products, tablets, and other electronic devices, 
and food items for separate screening. What are the specific goals of 
this trial program?
    Do you have preliminary results?
    Question 3b. If yes, what do the preliminary results of this trial 
indicate with regard to impacts on screening efficiency and 
effectiveness, passenger wait times, and TSA staffing and resources?
    Question 3c. What additional actions have been taken or are being 
considered to address the impacts of more intensive carry-on screening 
on TSA staffing and resources?
    Answer. The Transportation Security Administration (TSA) has 
initiated a pilot program, currently in effect at 10 airports, that 
requires the removal of electronics larger than a cell phone. 
Passengers are not required to remove books, paper products, or food 
items for security screening as part of this pilot. The purpose of the 
pilot is to assess measures that could increase the threat detection 
performance of Transportation Security Officers without requiring 
dedication of additional staffing resources or decreasing throughput.
    TSA has conducted extensive evaluations to validate the new 
protocol's sustainability in a cost-neutral environment. The assessment 
has indicated a significant increase in detection in lanes using the 
pilot's procedure without indicating a degradation in throughput after 
initial implementation. While initial implementation of new procedures 
can result in a minor impact to throughput rates, the delays diminish 
significantly within several weeks of initial implementation as 
officers become acclimated with the new procedures. Throughput rates 
then return to previous levels without the need for additional 
staffing.
    If approved for Nation-wide implementation, Federal Security 
Directors (FSDs) will have flexibility in the training and deployment 
of these new procedures. This will ensure the program is implemented 
across the enterprise in an effective and efficient manner.
    Question 4. A number of TSA legacy vetting systems are being 
consolidated under the Technology Infrastructure Modernization (TIM) 
program. The budget submittal indicates that this project is proceeding 
ahead of schedule through additional funding that will allow parallel 
development of various program elements. How have concerns over growing 
cybersecurity risks been addressed in the development of the TIM 
program?
    Answer. The Department of Homeland Security (DHS) has developed the 
Technology Infrastructure Modernization (TIM) system with cybersecurity 
measures included as a foundational element. The TIM system 
infrastructure currently resides in the DHS Data Center 1 (DC1) in 
Stennis, Mississippi and uses network connections to other systems 
through the DHS Trusted Internet Connection and DHS OneNet network. The 
TIM system has also implemented Personal Identity Verification card 
requirements for user access of the system and privileged user 
controls. Each release of the TIM system goes through a cybersecurity 
assessment before being put into production and the TIM system is fully 
compliant with security patches from software manufacturers and is 
fully compliant with all DHS Cyber mandates. The TIM system has also 
completed Security Control Assessment testing with the TSA 
Cybersecurity division within TSA's Information Assurance Division. The 
TIM program also works with the DHS Department of Test and Evaluation 
and the DHS Chief Information Officer, and has completed a 
cybersecurity assessment of the TIM system as a whole. Based on the 
findings of that assessment, the TIM system will undergo cybersecurity 
penetration testing conducted by DHS in 2018.
    Question 5. Last summer, we saw long passenger wait times at TSA 
security checkpoints. To address the issue, Congress authorized DHS to 
reprogram funds multiple times. How does the President's fiscal year 
2018 budget proposal guard against a recurrence of such a crisis?
    Answer. The fiscal year 2018 President's budget focuses on 
maintaining the agency's front-line operations, to include 
Transportation Security Officer (TSO) staffing. To this end, the fiscal 
year 2018 budget funds an additional $27 million and 382 TSO Full-Time 
Equivalents to accommodate anticipated passenger volume growth. These 
resources would be realigned from an initiative to cease the 
Transportation Security Administration's (TSA) role in exit lane 
screening. TSA is proposing to reallocate screeners from staffing exit 
lanes back to screening passengers at the checkpoint where their 
training and skills will be put to better use. Two-thirds of the 
airports already secure exit lanes as part of their own access control 
program. A legislative change is necessary to free screeners from the 
remaining one-third of airports.
    Also, the fiscal year 2018 President's budget continues to support 
the Aviation Operations Center (AOC) at TSA Headquarters. Initiated in 
fiscal year 2016 in response to long passenger wait times, the AOC 
monitors in real time the checkpoint efficiency and wait times at 
numerous airports and allows TSA to respond quickly to adjust staffing 
and resources at the checkpoints.
    Question 6. How do you justify the outsized growth projection in 
participation in the PreCheck program?
    Answer. The TSA PreCheck Application Program is a fully fee-funded 
program and does not receive appropriated funding. The program has 
experienced significant increases in the number of applicants, 
particularly in the past year (e.g. 2.1 million in fiscal year 2016 
versus 1.6 million total for the previous 2 years). The fiscal year 
2018 projection (approximately 2 million individuals) is based on 
current enrollment rates and the recent growth of the program.
    Question 7a. The Visible Intermodal Prevention and Response (VIPR) 
program works with Federal, State, and local law enforcement agencies 
to prevent and deter acts of terrorism against aviation and surface 
transportation systems. VIPR teams are mobile resources that can be 
deployed to aviation, air cargo, mass transit, maritime, freight rail, 
highway infrastructure, and pipeline venues, as well as special events 
such as the Super Bowl, Presidential Inauguration, and political 
conventions. Why does the budget propose eviscerating the VIPR 
workforce--reducing it from 31 to 8 teams?
    Have you considered the detrimental effects of cutting both the 
VIPR and law enforcement reimbursement programs at the same time?
    Question 7b. If the program is cut, what specific steps will TSA 
take to help secure surface venues?
    Answer. In formulating the fiscal year 2018 President's budget, the 
TSA focused on preserving front-line security capability in order to 
protect the traveling public. As part of the risk-based prioritization 
for resources, those areas where State and local law enforcement 
already operate or have the capability to step forward to support 
transportation security were ranked lower for Federal funding based on 
risk mitigation. This approach allowed limited resources to be applied 
to those areas solely under the jurisdiction of the Department. In the 
case of the Visible Intermodal Prevention and Response (VIPR) program, 
over the years TSA has worked with State and local law enforcement, 
which have also been the recipient of DHS preparedness grants, to 
develop capacity and relationships. Today, State and local law 
enforcement partners are better equipped than they have ever been 
before to meet emergent threats.
    With the resources available for the VIPR Program, TSA will apply 
our risk-based VIPR Concept of Operations to deploy teams to higher-
risk locations in all modes of transportation, focusing on those high-
profile events where additional support of State and local partners is 
necessary.
    Question 8a. Over the past 5 years, how many attacks have been 
perpetrated by individuals who illegally crossed the U.S.-Mexico land 
border?
    Answer. U.S. Customs and Border Protection (CBP) does not maintain 
records of attacks perpetrated by individuals who illegally crossed the 
U.S.-Mexico land border. However, from fiscal year 2012 to fiscal year 
2016, there have been 2,152 assaults on Border Patrol agents along the 
Southwest Border.
    Question 8b. Over the same time period, how many attacks have 
occurred in public airport areas or at other transportation venues?
    Answer. Since 2013, there have been five instances that constitute 
as indiscriminate attacks against transportation entities in the 
continental United States, excluding domestic incidents (spousal abuse) 
and any other incidents where an attacker or shooter had a defined 
target (i.e. attacks against co-workers). Of the five instances, four 
were considered active-shooter situations. Two of those situations 
taking place in airports and two taking place at UPS facilities. The 
fifth instance occurred at an airport in which an individual was shot 
after attacking TSA employees.
  <bullet> 11/01/2013--Active Shooter at Los Angeles (LAX)
  <bullet> 09/24/2014--Active Shooter at UPS Customer Care Center in 
        Birmingham, AL
  <bullet> 03/20/2015--Individual Shot After Assaulting TSA Employees 
        at New Orleans (MSY)
  <bullet> 01/06/2017--Active Shooter at Fort Lauderdale (FLL)
  <bullet> 06/14/2017--Active Shooter Situation at a United Parcel 
        Service Sorting Facility in San Francisco, CA
    Question 8c. Given those statistics, does it make sense to cut the 
VIPR and law enforcement reimbursement programs to build an expensive 
border wall?
    Answer. The Department of Homeland Security (DHS) recognizes the 
value of these programs and many others that work collaboratively with 
State and local law enforcement agencies to protect the safety and 
security of the traveling public. DHS is also obligated to holistically 
review programs and activities that were enhancements to homeland 
security and weigh the contributions of each program towards its 
mission of securing the homeland. DHS considers many variables when 
holistically reviewing programs to ensure they take into account the 
President's vision and National budgetary priorities to ensure the 
overall security of the Nation.
    Question 9. Many recent airport attacks have occurred in public 
airport areas, including attacks in Fort Lauderdale, Los Angeles, 
Brussels, and Istanbul.
    Given the growing frequency of attacks in public areas, why are you 
proposing cutting local law enforcement and VIPR team funding?
    How does DHS expect its partners to address this increased threat 
with fewer resources?
    Answer. The Department of Homeland Security (DHS) recognizes the 
value of these programs and many others that work collaboratively with 
State and local law enforcement agencies to protect the safety and 
security of the traveling public. DHS is also obligated to review 
programs and activities that were an enhancement to homeland security 
and weigh the contributions of each program towards its mission of 
securing the homeland. DHS considers many variables when holistically 
reviewing programs to ensure the President's vision and National 
budgetary priorities to secure the Nation are met.
    Along with the TSA, airport operators and their State and local law 
enforcement partners play a critical role in maintaining security at 
airports and other transportation sectors across the country. The 
Department understands that programs like the Law Enforcement Officer 
Reimbursement Program (LEORP) and Visible Intermodal Prevention and 
Response (VIPR) help to support security by encouraging State, local, 
and Federal partnerships and promoting cooperation, collaboration, and 
solidarity towards these efforts. Over the years TSA has worked with 
State and local law enforcement, which have also been the recipient of 
DHS preparedness grants, to develop capacity and relationships. Today, 
State and local law enforcement partners are better equipped than they 
have ever been before to meet emergent threats. Additionally, through 
the TSA co-sponsored Public Area Security Summit forums, State and 
local law enforcement, as well as other industry associations, remain 
key participants and contributors to developing solutions that mitigate 
the threat to soft targets. In May 2017, the Public Area Security group 
published a National framework with 11 recommendations designed to 
enhance security in public spaces throughout the transportation system.
    Question 10. The sudden and chaotic implementation of President 
Trump's first Travel Ban Executive Order created mass confusion in U.S. 
airports, most especially within the ranks of the DHS workforce. In the 
event that the Department issues a wider laptop and electronics ban, as 
you are currently considering, what steps can you take to avoid wide-
scale implementation challenges?
    Answer. The Department of Homeland Security (DHS) and the 
Transportation Security Administration (TSA) remain concerned about 
attempts by terrorist groups to circumvent aviation security and the 
threat of terrorist groups continuing to target aviation interests. DHS 
and TSA, in close cooperation with our intelligence community and law 
enforcement partners, continuously assess and evaluate the threat 
environment.
    On June 28, the Department determined it was necessary to implement 
enhanced security measures for all commercial flights to the United 
States.
    The enhanced security measures include but are not limited to:
  <bullet> Enhancing overall passenger screening;
  <bullet> Conducting heightened screening of personal electronic 
        devices;
  <bullet> Increasing security protocols around aircraft and in 
        passenger areas; and
  <bullet> Deploying advanced technology, expanding canine screening, 
        and establishing additional preclearance locations.
    Over the course of the next several weeks and months, DHS/TSA will 
work with aviation stakeholders to ensure these enhanced security 
measures are fully implemented.
    These enhanced security measures will help to secure all commercial 
flights departing from 280 airports that serve as the last points of 
departure to the United States.
    DHS will continue to adjust its security measures to ensure the 
highest levels of aviation security without unnecessary disruption to 
travelers.
    Question 11a. Mr. Secretary, the President's proposed budget 
recommends slashing preparedness grants by about $700 million. These 
drastic funding cuts, along with the rhetoric in the budget documents 
justifying them, make it seem as if this administration believes that 
State and local governments should shoulder the bulk of the burden for 
National preparedness and that the administration will seek to further 
reduce Federal support for first responders in the future.
    Do you believe that National preparedness is primarily a State and 
local responsibility?
    Answer. Yes, preparedness is primarily a State and local 
responsibility. As a team, State, local, territorial, Tribal, and 
Federal partners are responsible for the coordination of preparedness 
and protection-related activities throughout the Nation, to include 
planning, training, exercises, encouraging individual and community 
preparedness, and completing assessments and incorporating lessons 
learned into practice.
    The reductions to non-disaster grants are proposed based on hard 
decisions within the Department, striking a balance to ensure adequate 
funding for core Department of Homeland Security missions, encourage 
grant recipients to share the responsibility for the cost of 
preparedness activities, and fund those activities that demonstrate the 
greatest return on investment.
    Since 2002, the Federal Government has allocated over $47 billion 
in grants to support State and local preparedness investments. Those 
funds have been put to good use to greatly expand preparedness 
capabilities; however we have been unable to demonstrate the results of 
the grant investments and how the grants have made the Nation more 
prepared. The Federal Government should now focus on ensuring that 
investments go toward closing capability gaps and addressing National 
priorities and continue to provide technical assistance, tools and 
knowledge to prepare for, protect against, respond to, recover from, 
and mitigate terrorism and other hazardous events.
    Question 12b. Can we expect to see further preparedness grant 
reductions in the future?
    Answer. Any further reductions to preparedness grants would be 
identified in future years' budgets.
    Question 13a. President Trump has tweeted that the Federal 
Government is currently ``extreme vetting'' people coming to the United 
States.
    What, specifically, is the definition of ``extreme vetting''?
    What processes or procedures comprise ``extreme vetting''?
    How specifically does the ``extreme vetting'' the President asserts 
is on-going differ from the vetting prior to the Trump administration?
    What metrics is the Department using to assess the effectiveness of 
``extreme vetting''?
    Answer. The American people deserve and expect an immigration 
system that serves the National interest--one that has as its paramount 
priority their safety, security, and well-being. That is why the 
administration has been undertaking concerted efforts to raise the 
baseline of immigrant and traveler screening across the board, 
including through better applicant investigations, interviews, 
information sharing, identity validation, and more.
    For example, the United States has not previously established 
direct requirements for international cooperation in support of visa 
and immigration screening and vetting. This poses a significant 
vulnerability, as the level of cooperation of foreign governments 
affects the overall screening and vetting process. Lack of cooperation 
of a foreign government creates a significant gap in the U.S. 
Government's (USG) ability to vet nationals of those countries who seek 
admission to, or other immigration benefits in, the United States.
    Executive Order 13780 (Executive Order), Protecting the Nation from 
Foreign Terrorist Entry into the United States establishes, for the 
first time, direct requirements for international cooperation for 
vetting and screening from governments and directs the Secretary to 
identify additional information about foreign nationals seeking entry 
into the country that must be shared by their home countries to ensure 
these foreign nationals do not pose a threat to National security or 
public safety. The screening/vetting status quo is no longer adequate 
to counter terrorism and transnational criminal threats to the United 
States. It is necessary to enhance the screening and vetting of foreign 
nationals seeking to enter the United States.
    Per the Executive Order, the USG is establishing a new standard for 
information sharing to support immigration vetting and screening. In 
developing the standard, DHS looked closely at comprehensive security 
partnerships, such as the Visa Waiver Program, and at international 
trends, such as adoption of ePassports to prevent fraud and 
counterfeiting. The new standard defines the information flow necessary 
to verify identity and detect terrorism and criminal ties that would 
make an individual inadmissible under U.S. law. In addition, the DHS 
will require that travelers to this country and those seeking 
immigration benefits provide and validate additional identity 
information to assist with enhanced vetting and screening.
 Questions From Honorable James R. Langevin for Secretary John F. Kelly
    Question 1a. Secretary Kelly, in testimony before the House 
Appropriations Committee, you said, in reference to the WannaCry 
attacks, ``We defended the country from the biggest cyber onslaught in 
history . . . '' Can you characterize the defensive activities 
undertaken by the Department?
    Could you characterize the Department as being integral to the 
small initial impact of WannaCry in the United States?
    Is it possible that other aspects of U.S. networks or of the 
attackers' targeting was the reason so few U.S. computers were 
affected?
    Answer. On May 12, the National Protection and Programs Directorate 
(NPPD) National Cybersecurity and Communications Integration Center 
(NCCIC) initiated coordination of incident response activities in order 
to protect networks from a global ransomware incident impacting as many 
as tens of thousands of victims across 150 countries, including the 
United States, United Kingdom, Spain, Russia, Taiwan, France, and 
Japan. DHS has been leading coordination of Federal Government incident 
response efforts; working with partners in industry, other Federal 
agencies, State and local governments, and international partners.
    NPPD, along with DHS's U.S. Secret Service, U.S Immigration and 
Customs Enforcement's Homeland Security Investigations, and other 
Federal partners, have been raising awareness, including outreach to 
Federal agencies, about ransomware threats prior to 2017. These 
awareness efforts have included information on prevention and 
mitigation measures, which are key to limiting the risk posed by 
ransomware. For instance, DHS, in collaboration with the Canadian Cyber 
Incident Response Centre, released a technical alert on ransomware and 
recent variants in early 2016. See: https://www.us-cert.gov/ncas/
alerts/TA16-091A.
    Ransomware is a type of malicious software that infects a computer 
and restricts users' access until a ransom is paid. The recent global 
ransomware incident known as WannaCry exploits vulnerabilities in the 
Windows SMBv1 server to remotely compromise systems, encrypt files, and 
spread to other hosts. WannaCry was discovered the morning of May 12, 
2017, by an independent security researcher and had spread rapidly over 
several hours. Prior to May 12, however, Microsoft had published on 
March 14, 2017, Security Bulletin MS17-010-Critical, which includes 
information on a security update for Microsoft Windows SMB Server. DHS, 
through the NCCIC's National Cyber Awareness System, further enhanced 
awareness by publishing an alert on March 16, 2017, regarding this 
specific vulnerability (https://www.us-cert.gov/ncas/current-activity/
2017/03/16/Microsoft-SMBv1-Vulnerability). Systems that had the MS17-
010 patch installed were not vulnerable to the exploits utilized by 
WannaCry.
    In addition to raising awareness by sharing alerts, best practices, 
and technical data, DHS's NCCIC operates several capabilities that 
assist with the protection of Federal networks, including from 
vulnerabilities exploited by WannaCry. For instance, the NCCIC offers a 
Cyber Hygiene service to Federal and non-Federal entities, which scans 
their internet-accessible systems for known vulnerabilities. The 
findings from this frequent, automated scan are delivered weekly to 
each Cyber Hygiene participant in a report that details the 
vulnerabilities detected and provides recommended mitigations. In 
fiscal year 2015, the Secretary issued binding operational directive 
(BOD) 15-01, Critical Vulnerability Mitigation Requirement for Federal 
Civilian Executive Branch Departments and Agencies' Internet-Accessible 
Systems. BOD 15-01 requires Federal agencies to mitigate critical 
vulnerabilities discovered through the NCCIC's Cyber Hygiene scanning 
of the agencies' internet-accessible systems within 30 days of 
notification by the NCCIC to the agencies of the vulnerabilities. In 
the case of critical vulnerabilities exploited by WannaCry, Cyber 
Hygiene scanning has, to date, detected no instances on the Internet-
accessible systems of Federal agencies. Had any such vulnerabilities 
been found, BOD 15-01 would have required agencies to patch such 
vulnerabilities well before the WannaCry incident began in May. On the 
afternoon of May 12th, as WannaCry wormed across the internet, the 
Cyber Hygiene team telephoned the private-sector organizations that 
were observed through their voluntary participation in Cyber Hygiene 
scanning to be vulnerable and recommended they take action.
    NPPD also provides Federal agencies with capabilities and tools 
through the Continuous Diagnostics and Mitigation (CDM) program. 
Through the first phase of CDM, tools were deployed to 3.6 million 
Federal agency endpoints as of May 2017, enabling agencies to 
continuously monitor what is on their network via hardware and software 
asset management, configuration management, and vulnerability 
management. These tools played a key role in assisting agencies by 
automating the identification, detection, remediation, and reporting of 
the vulnerability used by WannaCry. By providing an enterprise view of 
vulnerability exposure, agencies are able to quickly understand their 
risk exposure and patch unprotected systems. CDM tools helped agencies 
with patching which prevented the vulnerable executable from running, 
removing the ability for infection to take hold or traverse to other 
networked systems.
    By conducting malware analysis on multiple samples of the 
ransomware and sharing cyber threat data with key partners, NCCIC 
developed cyber threat signatures for deployment in the Federal 
intrusion detection and prevention system, known as EINSTEIN, which 
helps to protect Federal networks. These signatures were also shared 
with Federal cyber centers and critical infrastructure stakeholders for 
their own network defense.
    In addition to prior ransomware and related vulnerability alerts, 
the NCCIC issued additional alerts and held coordination calls to 
reiterate the importance of installing specific patches upon learning 
of the global ransomware incident. The Federal Bureau of Investigation 
(FBI) and NCCIC analyzed multiple indicators and released a Technical 
Alert as well as a fact sheet related to the WannaCry ransomware, which 
can be found on the US-CERT website at www.us-cert.gov.
    Finally, NPPD has asked Federal agencies to report on their number 
of in-scope and patched systems. While the vast majority of Federal 
information systems had been patched, NPPD worked with agencies to 
better understand risk management decisions and mitigation actions when 
a patch could not be installed.
    In addition to information sharing prior to the WannaCry ransomware 
incident, DHS implemented enhanced coordination procedures after 
learning of the incident in order to coordinate incident response 
actions across the Federal Government. Through a coordinated Federal 
effort, NPPD worked with private-sector critical infrastructure owners 
and operators to assess exposure to the vulnerability exploited by 
WannaCry ransomware and to share information, including technical data. 
If requested, NCCIC was also able to provide technical assistance. 
Relevant private-sector outreach included Sector-Specific Agencies for 
the purposes of engaging their sectors, the information technology 
sector, the health sector, and small businesses, among others.
    Question 2. I worked on the Cybersecurity Act of 2015 since 
information sharing was a nascent legislative idea nearly a decade ago. 
We have heard testimony in this committee about some of the challenges 
implementing CISA, particularly with respect to Automated Indicator 
Sharing. I think both industry and the Department can make improvements 
in this space. Can you describe the steps the Department will take in 
fiscal year 2018 to implement the Cybersecurity Act and how you will 
measure its success?
    Answer. The Cybersecurity Act of 2015 incentivized information 
sharing by providing liability protections for entities, thus removing 
key legal impediments to information sharing. To further increase 
participation, the Department of Homeland Security (DHS) has 
established a prioritized list of private-sector entities to be engaged 
for participation in the AIS capability. DHS is prioritizing engagement 
with Information Sharing and Analysis Centers, entities where a cyber 
attack could cause the greatest consequences, and cybersecurity service 
providers. By working with these entities, DHS is better able to assist 
them with overcoming technical, resource, and cultural impediments to 
participating in AIS. DHS also believes that as the data volume and 
quality in AIS increases, companies not actively participating in or 
sharing through AIS will be incentivized to join.
    The Department is constantly looking at ways to improve the 
quantity and quality of information shared via AIS. Among other 
efforts, we seek initial feedback from each entity connected to the AIS 
capability 90 days after establishing a connection to better understand 
how entities are using the capability (are they sharing further to a 
customer base or implementing internally in a novel manner?), quality 
of information shared, obstacles to finalizing the AIS connection, 
costs associated with establishing the connection, how individual 
entities recommend measuring the value of cyber threat indicators and 
defensive measures, and recommended changes to the data fields. Through 
these feedback engagements with connected entities, the Department has 
received positive feedback on the high quality and number of low-false 
positives found in the AIS data as compared to several commercial 
feeds. In addition, a recent threat feed study found that indicators 
often show up in the AIS feed several months ahead of some commercial 
feeds. Finally, through these feedback sessions, DHS also learned from 
one organization that the AIS indicators were useful for them in 
hunting for an advanced persistent threat actor that had been targeting 
their company.
    Question 3. I strongly believe in the role of the Federal 
Government in funding research and development, and I believe there are 
significant gaps in our understanding of cybersecurity--technical, 
economic, and behavioral. Why is the Department cutting tens of 
millions of dollars in cybersecurity research across S&T and NPPD?
    Answer. To develop the budget request for fiscal year 2018, S&T 
prioritized resources against the President's priorities, the 
Secretary's direction, and capability needs for operational components. 
As you know, S&T is the primary scientific advisor to me and also 
performs extensive R&D across all of the Department's mission set. 
S&T's R&D work in fiscal year 2018 will continue to be in close 
alignment with the urgent needs of the Department and the Homeland 
Security Enterprise as a whole.
    Ensuring our Federal Government's networks and cyber infrastructure 
are secure continues to be an important mission of DHS. Research and 
development to enhance the Department's security posture in this 
mission area will continue in fiscal year 2018. S&T has excellent 
relationships with operational components, including NPPD, other 
Federal agencies, industry and State and local government that we will 
continue to develop and leverage going forward.
    S&T's request for Cyber Security/Information Analysis research and 
development is $42 million in fiscal year 2018. Important work planned 
for fiscal year 2018 includes projects to improve network security 
across the ``.gov'' domain, cybersecurity of mobile systems, cyber 
physical systems security, support for law enforcement forensics, and 
collaborative research with key critical infrastructure sectors.
    R&D efforts are critical to maintaining threat awareness, 
delivering mitigation strategies, and creating novel technologies and 
approaches for components.
    Question 4. Congressman Ratcliffe and I have worked closely 
together on efforts to improve our cybersecurity cooperation with 
Israel. Mr. Ratcliffe's United States-Israel Advanced Research 
Partnership Act was signed into law by President Obama last year and my 
United States-Israel Cybersecurity Cooperation Enhancement Act, which 
would provide support for joint R&D projects focused on National 
security, passed the House in January. Do you believe the Department 
will benefit from increased cooperation on cybersecurity with our 
allies, particularly Israel?
    Answer. The Department benefits from on-going cooperation with our 
international partners, including Israel. Continued cooperation on 
cybersecurity with Israel will provide mutual benefits for the both 
countries. Specifically as it relates to cybersecurity cooperation for 
joint research and development projects, on May 29, 2008, DHS signed an 
Agreement between the Government of the United States of America and 
the Government of the State of Israel on Cooperation in Science and 
Technology for Homeland Security Matters (``the S&T Agreement''). 
Together with the Ministry of Public Security, S&T works with a variety 
of Government stakeholders to maintain awareness of evolving trends, 
threats, and opportunities for collaboration in border security, 
cybersecurity research and development (R&D), explosives detection, and 
first responder technologies.
    S&T and the Israel National Cyber Bureau (INCB) maintain a robust, 
collaborative partnership for cybersecurity R&D under a 2012 Project 
Arrangement (PA), which was entered into pursuant to the S&T Agreement 
to specifically enhance joint cybersecurity R&D cooperation. In 2014-
2015, the first two Technical Annexes (TAs), under the cybersecurity 
collaboration PA, were signed to provide Israeli researchers access to 
a unique S&T Cyber Security Division (CSD)-funded repository of 
cybersecurity-relevant data and support cyber testbed collaboration. In 
2016, S&T-INCB signed two additional funding TAs via the CSD Broad 
Agency Announcement: The INCB provided $350k to S&T/CSD to co-fund 
research on data privacy for federated searches and cyber physical 
systems for medical device security. This marked a milestone in the 
partnership, as it was the first time the Government of Israel provided 
funding to a DHS initiative managed by DHS S&T.
    Moving forward, S&T CSD and the INCB remain committed to actively 
support and attend each other's annual cyber conferences (in 2017, 
CyberTech/Cyber Week in Israel and the Annual CSD Cyber Security 
Research and Development Showcase and Technical Workshop in Washington) 
and will continue to engage in fiscal year 2017 and fiscal year 2018 
via CSD's 5-Year International Engagement Broad Agency Announcement, 
subject to availability of annual appropriations.
    Along with the S&T and the INCB relationship, DHS's National 
Protection and Programs Directorate (NPPD) has a robust relationship 
with the Israeli National Cyber Security Authority (NCSA). In 2016, a 
joint Letter of Intent (LoI) was signed by DHS and the National Cyber 
Directorate (NCD) that sought to enhance information sharing and to 
continue to build upon existing cooperation between NPPD and the NCSA. 
In keeping with the foundations of the original agreement in 2008 and 
with the LoI in 2016, a cybersecurity action plan was implemented which 
included the following objectives: (1) Enhance exchange of cyber threat 
information and products; (2) Share knowledge regarding operational 
concepts and best practices; (3) Share knowledge regarding technology 
platforms and development; (4) Increase mutual understanding of 
respective approaches to the cybersecurity of critical infrastructure; 
(5) Conduct joint exercises to test operational coordination; (6) 
Pursue opportunities for increased joint cooperation with international 
partners.
    In the advancement of this bilateral relationship and along with 
regular indicator sharing with US-CERT, Israel has officially connected 
to the Automated Indicator Sharing (AIS) system and has joined the 
National Cybersecurity & Communication Integration Center's (NCCIC) 
Homeland Security Information Network (HSIN).
    Moving forward, in early September, Dr. Matania, the head of both 
the NCD and the INCB will come to the United States to hold a meeting 
with A/S Manfra and an Israeli delegation from the NCSA will perform an 
analyst exchange on the topic of incident response with the Office of 
Cybersecurity and Communications' (CS&C) Hunt and Incident Response 
Team (HIRT). CS&C has also invited the NCSA to participate in CS&C's 
national CyberStorm VI exercise in April 2018. Israel will be the first 
non-Five Eye or non-International Watch and Warning Network partner to 
join this exercise.
    Question 5. By announcing our intent to withdrawal from the Paris 
Agreement, the United States has ceded international leadership to 
other countries like China while increasing the likelihood that 
accessibility to Arctic waters will continue to rise. Yet, this budget 
provides limited funding for ice-breaking capability within the Coast 
Guard to adequately protect our economic and National security 
interests. We currently only have a single operational icebreaker. In 
contrast, Russia has 40 ships and is investing in a nuclear powered 
ship that provides increased range and speed compared to our diesel 
ships. The budget proposed by the Trump administration steps away from 
the acceleration requested by the Obama administration. Given the 
significance of the United States' economic and military interests in 
the region, why is DHS reducing the budget for these critical assets?
    Answer. The Coast Guard is committed to recapitalizing the Nation's 
heavy icebreaker fleet and the fiscal year 2018 funding request 
maintains the current acceleration time line for the Coast Guard and 
Navy Integrated Program Office (IPO) to deliver a lead ship by 2023.
Questions From Honorable William R. Keating for Secretary John F. Kelly
    Question 1. The NFIP's Community Rating System offers individual 
municipalities the opportunity to achieve discounts on flood insurance 
premiums for their home owners by investing in flood mitigation. 
However, the costs of managing a mitigation program, including merely 
hiring an employee to oversee compliance efforts, are often too great 
for a single community to manage. Would you support agency efforts to 
encourage neighboring municipalities to form regional partnerships in 
order to ease this burden?
    Answer. The NFIP's Community Rating System (CRS) has attracted 
participation from communities that vary considerably in size. Many of 
the well-known CRS participating communities are large with tens of 
thousands of flood insurance policies in effect with several having 
over 100,000 polices in effect. Based upon CRS community participation 
data analyzed in 2013--which is the last year the analysis was 
completed--of the 1,273 communities participating in CRS at that time, 
94 communities had 100 or less flood insurance policies in effect. 
Fifty-one communities had only 50 or less flood insurance policies in 
effect. Although the number of CRS participating communities has 
increased by 171 since 2013 to the current number of 1,444 
participating communities, the distribution of community size has 
continued to be broad with more communities that might be considered 
small having recently joined. We are not aware of smaller communities 
that hire additional staff dedicated to manage CRS programs. Typically, 
CRS coordination duties in the smaller communities will be one of 
several areas of responsibility a community CRS Coordinator may 
perform. The CRS program encourages neighboring jurisdictions to have 
partnerships in support of their CRS programs. This is particularly 
applicable for implementing certain CRS activities such as public 
information programs, floodplain management planning, and flood 
warning. There has been growth in these multi-jurisdictional endeavors. 
Barnstable County, Massachusetts has one of the most well-known 
regional partnerships, as the county has hired a single individual to 
assist incorporating jurisdictions in the county with CRS 
participation. It is true that when communities newly join the CRS it 
requires a surge of time and effort to understand what is required, to 
become familiar with what is expected, and set up a record-keeping 
system. However, community CRS Coordinators routinely report that once 
they become organized and understand the year-to-year workflow of their 
program, managing their CRS requires less time. FEMA continues to 
promote the benefit of regional partnerships and would welcome any 
efforts to encourage such endeavors that will lead toward greater 
resiliency and flood damage reduction.
    Question 2. As the Department continues to study consolidation and 
coordination of components to bring about the most efficient use of 
resources and greatest cost savings, it is my understanding that Joint 
Base Cape Cod was considered as an ideal site for several relocation 
and consolidation opportunities across the Northeast region. Going 
forward, what proposals does the Department have or is considering 
implementing that would include Joint Base Cape Cod in its efficiency 
plans?
    Answer. The Coast Guard is aware of DHS's Regional Field 
Efficiencies initiative to seek opportunities to consolidate and reduce 
costs related to real property and mission support services. The Office 
of the Chief Readiness Support Officer of DHS recently concluded a 
review of DHS-occupied space in its top ten cities, which included 
Boston, MA and the surrounding region. The Department is looking for 
opportunities to share firing range and training facilities in various 
locations, which could include Cape Cod. The Coast Guard is not 
currently aware of any specific proposals being considered for 
implementation for Joint Base Cape Cod.
    Question 3a. When will the Secretary release his decision as to 
whether additional visas will be issued?
    What analysis remains to be completed before the Secretary makes 
the final decision?
    Question 3b. Justify the amount of time already taken and what 
analysis has been conducted during that time.
    Answer. On July 19, 2017, the Department of Homeland Security (DHS) 
and the Department of Labor (DOL) issued a rule announcing that, under 
section 543 of Div. F of the Consolidated Appropriations Act, 2017, 
Public Law 115-31 (Fiscal Year 2017 Omnibus) the Secretary of Homeland 
Security, after consulting with the Secretary of Labor, was increasing 
the numerical limitation on H-2B nonimmigrant visas for fiscal year 
2017 only, by up to an additional 15,000 H-2B visas through the end of 
fiscal year 2017.
    DHS determined that it is appropriate to tailor the availability of 
this temporary cap increase to those businesses likely to suffer 
irreparable harm, i.e., those facing permanent and severe financial 
loss without the ability to employ the H-2B in the remainder of fiscal 
year 2017.
    DHS acted as expeditiously as possible in increasing H-2B visas to 
address this concern. Specifically, it was not until May 2017 that 
Congress delegated its authority to DHS to increase the number of 
temporary nonagricultural work visas available to U.S. employers 
through September 30, 2017. DHS took the intervening time to consult 
with the Department of Labor on the issue, as was required under the 
statute, and to properly develop this rule in accordance with 
Congressional requirements.
    Question 4. Explain the Department's interpretation of Section 543 
of the omnibus spending bill that grants the Secretary the authority to 
issue additional visas in fiscal year 2017 beyond the 66,000 statutory 
cap.
    Answer. On May 5, 2017, the President signed the Consolidated 
Appropriations Act, 2017, Public Law 115-31 (Fiscal Year 2017 Omnibus), 
which contains a provision (section 543 of division F, hereinafter 
``section 543'') permitting the Secretary of Homeland Security, under 
certain circumstances, to increase the number of H-2B visas available 
to U.S. employers, notwithstanding the otherwise-established statutory 
numerical limitation. Specifically, section 543 provides that ``the 
Secretary of Homeland Security, after consultation with the Secretary 
of Labor, and upon the determination that the needs of American 
businesses cannot be satisfied in [FY] 2017 with U.S. workers who are 
willing, qualified, and able to perform temporary nonagricultural 
labor,'' may increase the total number of aliens who may receive an H-
2B visa in fiscal year 2017 by not more than the highest number of H-2B 
nonimmigrants who participated in the H-2B returning worker program in 
any fiscal year in which returning workers were exempt from the H-2B 
numerical limitation.
    In consultation with the Department of Labor, DHS decided to 
increase the numerical limitation on H-2B nonimmigrant visas to 
authorize the issuance of up to 15,000 through the end of fiscal year 
2017. This is a one-time increase based on a time-limited statutory 
authority; it does not affect the H-2B program in future fiscal years.
    Question 5a. Explain the evidence that the Department of Homeland 
Security is considering which supports the theory that American 
businesses do not require additional workers this summer.
    Specifically, what evidence is the Department considering with 
respect to Massachusetts' Ninth District including Cape Cod and the 
Islands?
    Question 5b. Specifically, what evidence is the Department 
considering with respect to Maine's First District?
    Answer. On July 19, 2017, the Departments of Homeland Security and 
Labor published a final rule increasing the numerical limitation on H-
2B nonimmigrant visas by up to 15,000 through the end of fiscal year 
2017. This is a one-time increase based on a time-limited statutory 
authority; it does not affect the H-2B program in future fiscal years. 
These visas are available only to American businesses which attest that 
they will likely suffer irreparable harm without the ability to employ 
all the H-2B workers requested in their petition. DHS's decision to 
increase the H-2B cap was not made lightly, and was carefully weighed 
considering the needs of American businesses against other factors, 
including whether American workers will be harmed by any increase. DHS 
took into consideration the needs of businesses across the Nation, 
including those in Massachusetts and other States, in making this 
determination to increase H-2B visa availability for the remainder of 
fiscal year 2017.
    Question 6. The Department of Labor is responsible for ensuring 
that businesses recruit American workers for these jobs before they are 
permitted to recruit foreign workers and has already issued more than 
66,000 labor certificates which certify that no U.S. worker is 
available to fill the position sought by the employer. In light of 
this, explain what information the Department is using, independently 
of the Department of Labor's process, to assess whether American 
workers are in fact available.
    Answer. Under Department of Homeland Security (DHS) regulations, an 
H-2B petition for temporary employment must be accompanied by an 
approved temporary labor certification (TLC) from the Department of 
Labor (DOL), which serves as DOL's certification to DHS regarding 
whether a qualified U.S. worker is available to fill the petitioning H-
2B employer's job opportunity and whether a foreign worker's employment 
in the job opportunity will adversely affect the wages or working 
conditions of similarly employed U.S. workers. See, e.g., 8 CFR 
214.2(h)(6)(iii)(A) and (D). Under the rule issued on July 19, in order 
to obtain authorization to bring in H-2B workers as part of this one-
time increase, employers must have an approved TLC. In addition, 
employers must conduct a fresh round of recruitment for U.S. workers if 
the TLC contains a start date of work before June 1, 2017, in order to 
ensure that U.S. workers have sufficient access to these job 
opportunities.
    USCIS adjudicators currently consider the petition filed with 
USCIS, the accompanying approved TLC, and other supporting evidence to 
determine whether petitioners meet the requirements of the H-2B 
program, 8 U.S.C. 1101(a)(15)(H)(ii)(b), INA section 
101(a)(15)(H)(ii)(b). USCIS may issue a Request for Evidence or take 
other adjudicatory action, including denying the petition if it 
determines that, notwithstanding DOL's approval of the TLC, the 
requirements of section 101(a)(15)(H)(ii)(b) of the INA and applicable 
regulatory requirements have not been satisfied. To ensure the 
integrity of the H-2B program in general, including ensuring against 
abuse of the one-time fiscal year 2017 H-2B visa increase, DHS has 
established a hotline at the following email address: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e7c4b5e415c5a661c6c6f4c5b5d4b6e5b5d4d475d004a465d0049415800">[email&#160;protected]</a> This address is available to all members 
of the public, and DHS will consider carefully all complaints and other 
public input to determine whether any further action, including the 
institution of any fraud or other investigations, may be required to 
ensure the integrity of the H-2B program.
    Question 7a. The overwhelming majority of business owners in 
Massachusetts' Ninth District utilize the same cohort of workers year 
after year. These returning workers have shown that they are not 
overstaying their visas, are providing the labor that they are hired 
for each year, and they return to the same positions each year 
providing evidence of a positive working relationship with these 
employers.
    Has any consideration been given to providing expedited 
consideration for returning workers?
    Question 7b. If so, what avenues are the Department exploring for 
giving priority to returning workers when issuing any additional visas?
    Answer. During fiscal years 2005 to 2007, and 2016, Congress 
enacted ``returning worker'' exemptions to the H-2B visa cap, allowing 
workers who were counted against the H-2B cap in 1 of the 3 preceding 
fiscal years not to be counted against the upcoming fiscal year cap. 
Save Our Small and Seasonal Businesses Act of 2005, Sec. 402, Public 
Law 109-13 (May 11, 2005); John Warner Nat'l Defense Auth. Act, Sec. 
1074, Public Law 109-364 (Oct. 17, 2006); Consolidated Appropriations 
Act of 2016, Public Law 114-113, Sec. 565 (Dec. 18, 2015). During the 
years that Congress authorized the returning worker exemption from the 
H-2B cap, U.S. Citizenship and Immigration Services (USCIS) clearly 
notified petitioners of eligibility and filing requirements, including 
how to apply for premium processing. However, Congress did not renew 
the provision for fiscal year 2017.
    Further, note that section 543 of Div. F of the Consolidated 
Appropriations Act, 2017, Public Law 115-31 (Fiscal Year 2017 Omnibus) 
provides that ``the Secretary of Homeland Security, after consultation 
with the Secretary of Labor, and upon the determination that the needs 
of American businesses cannot be satisfied in [fiscal year] 2017 with 
U.S. workers who are willing, qualified, and able to perform temporary 
nonagricultural labor,'' may increase the total number of aliens who 
may receive an H-2B visa in fiscal year 2017 by not more than the 
highest number of 
H-2B nonimmigrants who participated in the H-2B returning worker 
program in any fiscal year in which returning workers were exempt from 
the H-2B numerical limitation.
    The statutory language requires DHS to determine the needs of 
American businesses. Therefore, in consultation with the Department of 
Labor, DHS considered the needs of American businesses and is providing 
an increase for businesses that can establish that they are likely to 
fail without the ability to employ additional 
H-2B workers in fiscal year 2017.
    Question 8. The timing constraints created by the H-2B program are 
particularly devastating for areas with limited summer seasons, 
including my home district in Massachusetts. Small business owners 
across Maine are also struggling to fill the many positions required to 
open and maintain their seasonal operations. Maine has a significantly 
shorter summer season, in many cases causing small business owners to 
apply later than those in other areas of the country. How does the 
Department intend to work with the Department of Labor in order to 
ensure that these areas with shorter seasons are able to access H-2B 
visa employees this year and going forward?
    Answer. The H-2B visa classification program was designed to serve 
American businesses that are unable to find a sufficient number of 
qualified American workers to perform nonagricultural work of a 
temporary or seasonal nature. To help businesses that hire later in the 
year, the H-2B cap of 66,000 workers per fiscal year is statutorily 
divided into two allocations, with 33,000 for workers who begin 
employment in the first half of the fiscal year (October 1-March 31) 
and 33,000 for workers who begin employment in the second half of the 
fiscal year (April 1-September 30). Under Section 214(g)(3) of the 
Immigration and Nationality Act, USCIS is required to accept H-2B 
petitions for cap purposes in the order that they are filed.
    In exercising the discretion under section 543 of the fiscal year 
2017 omnibus, DHS consulted with the Department of Labor and determined 
that the needs of some American businesses cannot be satisfied in 
fiscal year 2017 with U.S. workers who are willing, qualified, and able 
to perform temporary nonagricultural labor. DHS determined that it was 
appropriate under section 543 of Div. F of the 2017 Omnibus to raise 
the numerical limitation on H-2B nonimmigrant visas by up to an 
additional 15,000 for the remainder of the fiscal year for American 
businesses that can establish that their businesses are likely to fail 
without the ability to employ additional H-2B workers in fiscal year 
2017.
    In doing so, DHS took into consideration the needs of all U.S. 
businesses throughout the United States, including those in Maine and 
Massachusetts. DHS decided that the regulation's focus on the urgent 
needs of individual businesses is the fairest way to allocate these 
additional H-2B visas.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
